<html>
<title> - ENVIRONMENTAL PROTECTION AGENCY'S FISCAL YEAR 2007 BUDGET</title>
<body><pre>[Senate Hearing 109-1022]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1022
 
                   ENVIRONMENTAL PROTECTION AGENCY'S 
                        FISCAL YEAR 2007 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2006

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
42-270 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 25, 2006
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    11
Boxer, Hon. Barbara, U.S. Senator from the State of California...     6
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    13
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode 
  Island, prepared statement.....................................    36
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    15
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     9
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey, prepared statement.....................................    37
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut, prepared statement................................    38
Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......    16
Obama, Hon. Barack, U.S. Senator from the State of Illinois, 
  prepared statement.............................................    38
Thune, Hon. John, U.S. Senator from the State of South Dakota....    14
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     8

                               WITNESSES

Johnson, Stephen L., Administrator, U.S. Environmental Protection 
  Agency, Accompanied by: Marcus Peacock, Deputy Administrator; 
  and Benjamin H. Grumbles, Assistant Administrator, Office of 
  Water..........................................................    20
    Prepared statement...........................................    39
    Responses to additional questions from:
        Senator Clinton..........................................    43
        Senator Inhofe...........................................    45
        Senator Jeffords.........................................    55
        Senator Obama............................................    66
        Senator Thune............................................    68
        Senator Vitter...........................................    70
        Senator Voinovich........................................    70

                          ADDITIONAL MATERIAL

Articles, Forbes Magazine........................................    77
A History of EPA's ``Politicized Science'' During the Clinton/
  Browner Era....................................................    75
CMAQ Information for the Metropolitan Planning Organizations.....    73
Clean Air Act Provisions-Particulate Matter Standard.............    77
Job Announcement-Energy Policy Act of 2005.......................    74
Mercury in Fish..................................................    74
Office of International Affairs: Grants to Foreign Recipients....    77
Rat Poisoning-Court Order........................................    74
Seven Million Dollar Request to Identify and Repair Leaks in 
  Water Systems..................................................    73
Table, U.S. EPA International Program/Activity Resources (Dollars 
  in Thousands)..................................................    83


       ENVIRONMENTAL PROTECTION AGENCY'S FISCAL YEAR 2007 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2006

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
628, Senate Dirksen Building, Hon. James M. Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Warner, Bond, Chafee, Murkowski, 
Thune, Isakson, Vitter, Jeffords, Boxer, Carper, Clinton, 
Lautenberg, and Obama.
    Senator Inhofe. The hearing will come to order.
    I think what we will do, Mr. Administrator, we have seven 
nominations, the confirmation motions that will have to be 
made. We have to have 10 people here. So as soon as we get 10, 
we are going to interrupt whatever we are doing, whether it is 
you or me, and go into our confirmations.
    Before that, if it is acceptable with Senator Jeffords, to 
at this time recognize out of order Senator Isakson for a 
statement.

OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Isakson. Thank you, Mr. Chairman and ranking 
member.
    On the confirmation of the board members to the TVA at our 
previous committee meeting, I told the committee how much I 
supported each and every one of those nominees from the 
standpoint of their qualifications and their ability. I stand 
by that statement.
    I also expressed my concern over the lack of representation 
of three States covered by TVA but ending up not being 
represented on the board. As the chairman will remember, at 
that time, I asked the prospective board members----
    Senator Inhofe. I believe that was Virginia, North Carolina 
and Georgia, right?
    Senator Isakson. That is correct. I asked the prospective 
board members to open a dialog with me to see if we couldn't 
work out a way to ensure that when there were occasions on that 
board that States served by TVA were not represented on the 
board there would be a mechanism established for their input, 
concerns, et cetera, to flow freely between the board and those 
States.
    I also met with the majority leader, who was the original 
author of the legislation that created the new board. As of 
last night, pending the receipt of some confirmation today, we 
have worked out with me and with them a very satisfactory 
arrangement on that representation. So I just wanted the record 
to show that the hold I would have placed on the nominations on 
the floor will be lifted as soon as I receive that 
communication and they receive mine to them, which should take 
place today.
    I repeat what I said on that day with regard to these six 
individual members: they are outstanding Americans, they will 
do a great job. My concerns never dealt with their capability, 
but rather with the structure and representation of that board 
as it would be constituted.
    Senator Inhofe. All right. Thank you very much, Senator 
Isakson. That will be duly noted.
    We will be waiting for 10 to show up so that we have a 
quorum and we can get to the nominations. But we will go ahead 
and proceed with the budget portion of the hearing. We will 
follow our normal procedure, and that is, after opening 
statements have concluded, anyone coming in late would not be 
entitled to an opening statement, we will just continue with 
the hearing.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    I welcome you, Administrator Johnson, and am pleased to 
have you testify before the committee today on your fiscal year 
2007 proposed budget. I expect that each Senator is going to 
want to have time, so we are going to try to keep our opening 
statements down to under 5 minutes if at all possible.
    The Administration has proposed a $7.32 billion budget for 
the fiscal year 2007. It is a $310 million cut to the EPA's 
budget from 2006. I think that is a little deceptive, though, 
and this is something that we are going to be exploring, as I 
have told you privately. It seems to me that when we are trying 
to do cuts, we have the insatiable appetite for cherry picking 
and getting these things that we know will be reinstituted as 
it goes through the process.
    So as far as the $400 million cuts, which represent 
actually an increase of some $90 million, because we know that 
the $310 million will be reinstituted, since they are in the 
two categories that historically they have used to represent 
cuts. They always get reinstated. We are talking about some of 
the members' projects and, what is the other big category? Oh, 
yes, the revolving fund. Because this is something that is very 
important to us.
    So I am disappointed in that we are not doing it. What I 
will be asking you to do is take this budget back and find a 
net of $310 million in cuts that is not something that is going 
to be automatically reinstated. Does that make sense? That is 
what we are going to try to do.
    One reason for these congressional earmarks is that in 
their absence, the bureaucrats at the EPA would solely 
determine how to spend those funds instead of Congress. It is 
very similar to the situation in the Transportation bill. 
People talk about earmarks and they don't realize that if we 
don't have members' earmarks, there is still going to be, that 
money is going to be spent, but it is going to be spent by 
individuals who are bureaucrats who are not subjected to going 
home and knowing what the real needs are. So I think this is 
something that is very important that we keep in mind as we 
come back with some changes to this budget.
    This hearing focuses on the EPA budget and the EPA grants 
are a major example of spending decisions of unelected 
bureaucrats. We have already covered all that.
    We have found that taxpayers' dollars being used for 
purposes such as funding questionable environmental projects in 
other countries, which included the funds to expand the 
environmental capacity of the Moroccan non-governmental 
organizations, NGO's, this is kind of interesting. Also that we 
would pay to have a delegation come from Morocco to come to 
Maryland to study our environmental situation when Morocco has 
more money than we do. I look at this and I think, why are we 
doing these things?
    One thing I would like to have you do, Mr. Administrator, 
because I asked my staff and they couldn't tell me, you have 
the Office of International something or other, what is it 
called?
    Mr. Johnson. The Office of International Affairs, sir.
    Senator Inhofe. Yes. In that we find that some of these are 
international, some are not. In fact, I think the total budget 
for that office is fairly nominal. I don't remember the exact 
number I heard yesterday.
    Then we find out that such things as this Moroccan 
situation and one having to do with China are not actually out 
of that office. So what I would like to find out is a number, 
when you come back or as soon as you can get back to me for the 
record, as soon as possible, as to how much money is spent on 
international causes. Because it is not found in that one 
office. So I would like to have you do that.
    [The referenced material can be found on page 83.]
    Now, along with grants oversight, my staff has been 
investigating EPA regions and how they vary in their 
implementation enforcement of environmental regulations. So far 
we have learned that of the 10 EPA regions, there is often 
little uniformity in how the same program is managed in 
different regions. This concerns me because it appears that 
regions have the ability to depart from the national guidelines 
when enforcing Federal regulations without any repercussions.
    For example, in Region V, the bureaucrats in Region V have 
been notoriously autonomous in their enforcement of Federal 
environmental law, finding people in violation of the law for 
things no other region has cited for. This can lead to 
situations that are patently unfair and stifle commerce and 
fair international competition. I will continue to look into 
situations in which regions move out of the acceptable variance 
of enforcement and no longer will regions advance their own 
agenda without being noticed and held accountable.
    I have several oversight priorities critical to my State of 
Oklahoma, as you well know, Tar Creek, which was considered to 
be the most devastating of all the Superfund sites. We have 
been throwing money on that for a long period of time. We now 
have this under control. I have to say, with the cooperation of 
our Governor, Governor Brad Henry, of my predecessor, David 
Boren, who is the president of Oklahoma University, we have a 
partnership where the EPA and the different organizations here, 
the Corps of Engineers and others in Washington, with Oklahoma 
University and the DEQ of the State of Oklahoma, we have really 
gotten it under control. We have determined the ownership of 
the CHAP piles, we have determined how to deal with that.
    Just recently, we ran into something that was very, very 
serious. A man named Ed Keheley, who is a well-respected 
scientist onsite down there, said that we are going to have to 
study the subsidence to see what the problem is. All of a 
sudden we find out that the subsidence problem is more serious 
than the air problem was before. We are going to have to shift 
our gears in a modest way to handle that. Because right now, we 
have some, in some areas, only 32 feet, taking our school 
children from the air to the underground.
    So we have made some great progress there. But we have some 
new challenges.
    In addition, I am deeply concerned that nearly 80 percent 
of the small drinking water systems in my State are not in 
compliance with the disinfection byproduct stage 1 rule. To add 
insult to injury, EPA recently finalized an additional two 
drinking water rules that will place additional burdens on 
these small communities. In addition to my legislation to 
provide these communities regulatory relief, I will continue to 
examine the cost of the science behind these proposals.
    I might add, it is not just the State of Oklahoma. I have 
talked to Senators from New Mexico and other States who are 
having the same type of problem.
    So I would also like to encourage the Agency to create a 
more open and transparent scientific process. The American 
people deserve to truly understand the risks to which they are 
exposed, including any uncertainty about that risk, and how the 
particular risk compares to another. The American taxpayer 
funds these efforts in this. They should be able to evaluate 
them and make judgments about how their dollars are spent.
    So I will be anxious to get into this. I notice here 
Senator Jeffords has asked that Senator Boxer be recognized 
first on the minority side. We will do that, but I hope that 
doesn't mean you are leaving. Because we have to get 10 people 
here.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Welcome Administrator Johnson. I am pleased to have you testify 
before the committee today on the President Bush's Fiscal Year 2007 
budget proposal for the Environmental Protection Agency.
    I expect that each Senator on the committee will wish to make an 
opening statement and will have several questions for the 
Administrator. Therefore, I am asking that opening statements be kept 
under 5 minutes.
    The Administration has proposed $7.32 billion for the EPA for 
fiscal year 2007. This is a $310 million cut to the EPA's budget from 
the 2006 enacted level. However, this budget includes $199 million in 
cuts to the clean water SRF and more than $200 million in cuts to 
regional water programs and other Congressional priorities. These cuts 
will not be sustained throughout the process. I truly understand that 
in the current fiscal environment we need to make tough choices. 
However, I am frustrated by the unrealistic cuts. There are many 
opportunities to make further cuts that could survive the process that 
were overlooked by the Administration.
    This is disappointing because in addition to my demands at last 
year's hearing, I sent a letter to you earlier this year urging you to 
propose cuts that stand a realistic chance of being reduced or 
eliminated. A budget that focuses so much of the pain on regional 
programs and Congressional priorities does not meet this goal.
    The proposed cuts to the Clean Water SRF, regional water programs, 
and other Congressional priorities are likely to be restored and the 
Administration knows it. Cuts to these programs account for more than 
$400 million far more than the overall budget cut of $310 million. This 
allows the Administration to increase other programs, even though they 
know that in the end Congress will restore much of their proposed cuts. 
My colleagues on the Minority and the so-called environmentalists are 
attacking you for making cuts, when at the end of the day you have 
actually failed to realistically reduce the budget.
    Congress would be justified in restoring many of the cuts you 
proposed. There is a nationwide crisis and need for more water 
infrastructure money. It is clear from the cuts you have proposed that 
the Administration does not fully understand this crisis.
    Another reason for these Congressional earmarks is that in their 
absence, the bureaucrats at the EPA would solely determine how to spend 
those funds instead of Congress. If we don't earmark, the career 
bureaucrats will make the decisions, thus taking the decision out of 
the control of the people who are most responsive and accountable to 
their constituents. Furthermore, without funding that is distributed in 
accordance with a formula, our communities that are struggling with 
unfunded mandates, must compete with one another for the attention and 
approval of the career bureaucrats that dole out the EPA's 
discretionary grants. Members of Congress know very well the needs in 
their districts. I assure you that I know the needs of Oklahoma far 
better than any unaccountable bureaucrat in Washington.
    This hearing focuses on the EPA budget, and EPA grants are a major 
example of spending decisions by unelected bureaucrats. Each year, the 
EPA awards half of its budget in a wide range of grants to a variety of 
recipients. However, over the past 10 years, EPA has received criticism 
from the Office of Management and Budget, the EPA Inspector General, 
and the Government Accountability Office for preferential treatment in 
grant making, awarding grants without competition or peer-review, and 
requiring no environmental results. Due to oversight from this 
committee, EPA has begun to make progress in grant making. However, let 
me provide some examples this committee has uncovered of spending 
decisions made by bureaucrats within EPA.
    We have found taxpayer dollars being used for dubious projects such 
as funding questionable environmental projects in other countries 
which included funds to expand the environmental capacity of Moroccan 
non-governmental organizations and government agencies, including a 10-
day United States study tour for Moroccan officials to Maryland. 
Additionally, grants funds have been allocated to implement regional 
energy efficiency standards for buildings in the Russian Federation and 
implement an indoor air initiative in the Yunnan community of China. I 
believe and I know the taxpayers in Oklahoma agree with me that funding 
for these grants could be better spent at home.
    Along with grants oversight, my staff has been investigating EPA 
regions and how they vary in their implementation and enforcement of 
environmental regulations. So far, we have learned that of the ten EPA 
regions, there is often little uniformity in how the same program is 
managed in different regions. This concerns me because it appears that 
regions have the ability to depart from national guidelines when 
enforcing federal regulations without any repercussions. For example, 
Region 5 bureaucrats have been notoriously autonomous in their 
enforcement of federal environmental law finding people in violation of 
the law for things no other region has cited for. This can lead to 
situations that are patently unfair, that stifle commerce, and fair 
national competition. I will continue to look into situations in which 
regions move out of the acceptable variance of enforcement and no 
longer will regions advance their own agenda without being noticed and 
held accountable.
    I would like to applaud the Agency's recent efforts to reduce the 
compliance burden associated with the Toxic Release Inventory, or TRI. 
Last fall, EPA proposed allowing certain TRI reporters to use the 
shorter TRI Form A instead of the longer TRI Form R. This move would 
save an estimated 165,000 hours of burden each year while retaining 99 
percent of current long form data. This is the type of streamlining the 
Agency should do and I encourage you to continue to look for other 
areas where you can create efficiencies and reduce burdens while 
maintaining environmental protection. The Agency also said it would 
begin to examine the possibility of altering the timing of TRI data 
reporting, perhaps moving to an every other year schedule, potentially 
resulting in $2 million in savings in the ``off year.'' I know that you 
will carefully evaluate the issues associated with these burden 
reduction efforts and balance them with the Agency's commitment to 
providing information to the public.
    I have several oversight priorities critical to my State of 
Oklahoma. As you know, Tar Creek has been my top priority for some 
time. We have made tremendous progress, but much more needs to be done. 
I appreciate the EPA working with me and Governor Henry. Just 2 weeks 
ago, a subsidence report was issued. The study was the result of one of 
my visits to Tar Creek, riding around the chat piles with Ed Keehely a 
retired nuclear engineer from DOE who lives in the area and has been 
very involved in the Tar Creek superfund site. This report provided 
very new information detailing undermining and potential cave-ins some 
200 structures, including homes and churches, were found to be at risk. 
This new information has brought about a reevaluation of our 
priorities, and I will be seeking your commitment to work with myself, 
Governor Henry, and the other Federal agencies in order to do whatever 
is necessary to address this risk.
    In addition, I am deeply concerned that nearly 80 percent of the 
small drinking water systems in my State are not in compliance with the 
disinfection byproduct stage I rule. And to add insult to injury, EPA 
recently finalized an additional two drinking water rules that will 
place additional burdens on these small communities. In addition to my 
legislation to provide these communities regulatory relief, I will 
continue to examine the costs and science behind these proposals.
    I would also like to encourage the Agency to create a more open and 
transparent scientific process. The American people deserve to truly 
understand the risks to which they are exposed, including any 
uncertainty about that risk and how a particular risk compares to 
another. The American taxpayer funds these efforts and thus they should 
be able to evaluate them and make judgments about how their dollars are 
spent.
    Administrator Johnson, I look forward to your testimony. I again 
urge my colleagues to keep their statements brief.

    Senator Boxer. Senator, I have an obligation at the Foreign 
Relations Committee where Secretary of State Rice is going to 
be. I have to be over there.
    Senator Inhofe. I understand. You are recognized.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thank you so much. It is very nice of you, 
Senator Jeffords. Thank you.
    Mr. Chairman, thanks very much, and Administrator Johnson, 
thank you for being here this morning. EPA's mission, to 
protect public health and the environment, is critical to the 
lives of all Americans. Sometimes I think we get so caught up 
in the weeds, we forget the reason that we are here. We forget 
the reason we have an Environment Committee.
    I believe this value of protecting the health of the 
American people is a value shared by our people. Ensuring that 
communities are healthy, safe and not threatened by pollution 
in the air, water or soil is a moral issue. Any of us who goes 
to our schools, wherever they may be located, from the deep 
South to the East to the West, and every place in between, we 
see the increase in asthma cases among children. This isn't 
happening for no reason. There is a reason. We have to try and 
make life healthier for our people.
    Unfortunately, I come at this budget a little differently 
than the Chairman, not surprisingly. We do have different 
philosophies on this. I believe this 2007 budget reveals the 
fact that the protection of public health and the environment 
is not a priority for this Administration. EPA's budget does 
not commit the resources necessary to assure the quality of 
life and clean environment that Americans expect and Americans 
deserve.
    Since this Administration's first budget, EPA funding has 
been cut by 16 percent. This year alone, most domestic agencies 
were cut an average of a half a percent, but EPA was cut by 4 
percent, a total of $310 million. The funding levels sought by 
this Administration takes the Country back to funding levels 
not seen in 8 years.
    These cuts are not only harmful to public health, they are 
also fiscally irresponsible. The cost of failing to invest in 
these critical programs at a time of rising rates of childhood 
asthma, as I discussed, also childhood cancer is growing and 
neurological, developmental and reproductive disorders are 
growing. This is the wrong time to cut.
    The President's proposed budget cuts include $199 million 
from the Clean Water Revolving Fund, despite the fact that 40 
percent of streams, 45 percent of lakes and 50 percent of 
estuaries are polluted. Thirty-five million dollars from State 
air quality managers, weakening enforcement of Clean Air laws, 
when 150 million Americans live in areas with unhealthy air and 
$11 million cut from Superfund cleanups when one in four 
Americans lives within four miles of a Superfund site. A lot of 
those Americans are children. And children are more adversely 
affected.
    EPA's own documents estimate a shortfall of $750 million to 
$1 billion needed to clean up sites deferred due to continuing 
budget shortfalls. The pace of cleanup has dropped in half 
since the Clinton administration. EPA has also revealed that 
there are well over 100 Superfund sites where human exposure is 
not under control, including sites directly affecting children. 
I will make the EPA document I have obtained summarizing the 
threats posed by these sites part of the record, and I want to 
thank the Chairman, Mr. Chairman, I want to take a minute to 
thank you very much, because with your help we have been able 
to get documentation on a lot of these issues.
    The Administration has also proposed to eliminate all 
funding for the National Children's Health Study, which is a 
seminal inter-agency study that includes the effect of the 
environment on children's health. How can we sit here and 
preside over the dismantling of a program that has been set up 
to track children's health? EPA has made an important 
contribution to this ongoing study in the past. This is a 
terrible signal. This study is a good example of the 
Administration's misguided policies. It would contribute to a 
better understanding and control of the causes of asthma, 
diabetes and impaired mental abilities in children, including 
environmental factors.
    An NIH commissioned analysis estimated a cost saving of 
$9.7 billion a year that could be gained from the canceled 
children's study. So we cancel the children's study, we lose 
the benefits that could come, and it costs us all more money in 
the end as we have to face these diseases in our children.
    These cuts come on top of efforts to politicize and weaken 
EPA and environmental programs as never before. A few quick 
examples, and then I will be done. In recent testimony before 
the EPA's Clean Air Science Advisory Committee, Mr. Bart 
Ashtro, the chief of the Air Pollution Epidemiology Unit at 
California's EPA, reported that the White House Office of 
Management and Budget improperly interfered with EPA's analysis 
on a proposed rule governing the control of toxic dust in rural 
areas, rural areas.
    The recent resignation of a 24-year-old political appointee 
at NASA, after the New York Times revealed his efforts to 
intimidate NASA's senior climate scientist, raises similar 
concerns. This Administration has demonstrated a pattern of 
distorting scientific evidence when the conclusions do not 
match the policies they wish to pursue. This is a dangerous 
pattern that must be stopped.
    Despite all this, I understand that the Administrator will 
testify today that EPA is committed to successful programs like 
Superfund, it is committed to sound science. Well, these words, 
so far, have not been backed up by the facts or the reality of 
this budget. The President's budget speaks for itself, cutting 
critical programs like Superfund. The budget is a road map to 
our values and our morality. This budget fails the test. These 
proposed cuts, along with the Administration's concerted effort 
to distort science, tell the real story.
    The oversight role of Congress is an essential one here. 
EPA's budget must reflect the high priority placed by all 
Americans on living in a clean and safe environment. The 
dollars saved in this budget are swallowed up by the cost to 
public health and the environment if cuts to critical programs 
are allowed to stand.
    Now, Mr. Johnson, you have a really hard job here. You 
heard the chairman say, please go back and find more savings. 
You heard me say, and I think others, perhaps on both sides of 
the aisle, we don't know where people are coming out on this, 
who are going to tell you there are too many cuts. The bottom 
line is the American people. It is not about us. It is about 
them. It is about their health, it is about their welfare.
    So I hope we can put politics aside and care about them for 
a change. I think if we did that, we would have a much better 
budget and would have a priority of keeping the American people 
healthy. Thank you, Mr. Chairman, very much. Thank you, Senator 
Jeffords.
    Senator Inhofe. Thank you, Senator Boxer.
    If you would just stay her for just a moment, we will 
recess our budget hearing and go to nominations. We now have 
10.
    [Whereupon, the committee recessed to conduct other 
business.]
    Senator Inhofe. We will return now and recognize Senator 
Vitter, I believe you would be next.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, for having this 
hearing today, and Mr. Johnson, thanks for being here. I want 
to start by saying thank you for all the hard work that EPA has 
done for almost 6 months in the Gulf region. The EPA has played 
a crucial role in the response and cleanup efforts.
    Senator Inhofe. I don't think your microphone is on, 
Senator. I might suggest you use the other microphone there, 
because we do want to make sure the record reflects your entire 
statement.
    Senator Vitter. Thank you, Mr. Chairman.
    Yes, Mr. Johnson, EPA has played a very crucial role in 
response to the hurricanes, in immediate response as well as 
cleanup efforts and monitoring. The key to Louisianians moving 
back to New Orleans and surrounding areas as well as southwest 
Louisiana is security through stronger hurricane protection. It 
is also important that the environment is safe for human 
health. You all have done two crucial things that are equally 
important. No. 1, you have helped identify and respond to the 
serious situations that have occurred on a localized basis in 
terms of different sorts of contamination.
    Equally as important, you have helped dispel the media myth 
that there is this widespread, global, toxic soup in the region 
that made the whole region uninhabitable. That widespread toxic 
soup myth wouldn't have killed anyone, but it would have killed 
our economy and our future if it had been allowed to stand. So 
thank you for bringing science to bear on both of those counts.
    Even after 5 months, there is still much to be done to 
recover and rebuild. So I look forward to continuing to work 
with you and EPA in terms of that response.
    Another example I want to mention briefly of your important 
work in Louisiana is Lake Pontchartrain, one of America's most 
significant bodies of water. In 2000, Congress passed the Lake 
Pontchartrain Basin Restoration Act. EPA is an active member of 
that stakeholders conference and is the chief Federal Agency 
involved in the program. So I look forward to continuing that 
work.
    Again, thank you, Mr. Chairman, for the hearing. I look 
forward to following up.
    [The prepared statement of Senator Vitter follows:]

    Statement of Hon. David Vitter, U.S. Senator from the State of 
                               Louisiana

    Mr. Chairman, thank you for having this hearing, and, Mr. Johnson, 
we appreciate your being here today.
    I would like to start by saying thank you for the hard work 
conducted by the Environmental Protection Agency over the past almost 6 
months since Hurricanes Katrina and Rita devastated Louisiana and the 
Gulf Coast region.
    The EPA has played a crucial role in the response and clean-up 
efforts in Louisiana through testing and monitoring air and water 
quality throughout the disaster area. The key to Louisianians moving 
back to New Orleans is security through stronger hurricane protection 
but it is also important that the environment is safe for human health. 
EPA has been very involved in ensuring a safe environment as 
Louisianians return home.
    Even after 5 months, there is still much to be done to recover and 
rebuild the areas destroyed by the Hurricanes especially in the area of 
debris removal. Mr. Johnson, I look forward to continuing to work with 
you and appreciate your commitment to cleaning up Louisiana.
    Another example of an area where EPA's work in Louisiana is very 
important is Lake Pontchartrain, one of America's significant bodies of 
water. In 2000, Congress passed the Lake Pontchartrain Basin 
Restoration Act, which was my first bill to pass Congress. EPA is the 
chief Federal Agency involved in the program and I look forward to 
EPA's continued involvement to further promote efforts to improve the 
water quality of Lake Pontchartrain. Again, thank you Mr. Chairman. I 
look forward to asking questions.

    Senator Inhofe. Thank you, Senator Vitter.
    Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Good morning, and welcome, Administrator 
Johnson. It is good to see you.
    As I enter my last year as a member of this committee, I 
remember those who have sat before us, Senators Stafford and 
Chafee and Moynihan come to mind. Each believed that investment 
in environmental programs support our economy. Each in their 
own way felt that the key to the economic sustainability was 
environmental stewardship.
    The President's budget worries me, as I believe it would 
worry our predecessors. Just three budgets ago, this Congress 
approved $8.4 billion in spending for EPA. The proposed budget 
represents a decline of 13 percent from 2004 and a 4 percent 
reduction in spending last year.
    However, when inflation is taken into account, next year's 
cut would be well over 7 percent. The brunt of these cuts will 
be felt by our States, which are already struggling with budget 
shortfalls. This budget will mean even less money and therefore 
fewer resources for our States to ensure cleaner air and water 
by our citizens.
    If I were to use an analogy, this budget is like an ostrich 
sticking its head in the sand. As we all know, ignoring our 
problems won't make them disappear. If only it were that easy. 
I would argue that ensuring our Nation's water infrastructure 
is up to date should be a homeland security problem. The EPA's 
own analysis found the spending gap for clean water to be $270 
billion. That is the gap between what we have and what we need, 
not the total.
    In the face of this and other documented analyses of this 
spending gap, the Administration continues to cut spending. 
This proposed budget would cut the Clean Water State Revolving 
Fund, or SRF, by almost 50 percent, from what the annual 
appropriations were when President Bush took office. This 
committee has reported out legislation authorizing $35 billion 
over 5 years for the Clean Water and Drinking Water SRFs over 
the course of three separate Congresses. There is enormous 
public support for this spending. There isn't a member sitting 
on this committee who hasn't heard from our constituents about 
this need.
    This Administration seems to recognize the importance of 
the clean water overseas but not at home. We have dedicated 12 
percent of reconstruction funds in Iraq to water projects. We 
are planning to complete 712 water projects in Iraq. We have 
already finished 434. Some might say, well, we can't afford it, 
let's just weaken our regulations. Weaken the regulations, 
after witnessing the improvement in the quality of our Nation's 
waters? I can't understand why we as a Nation still fail to 
recognize the importance of water for our economy, our health 
and our environment.
    I also feel like a broken record when it comes to 
challenging the adequate funding levels for Lake Champlain, the 
pace of Superfund cleanups and the cuts to the environmental 
education and air toxics research. I hope that when EPA is 
asked to embark on new missions it is provided with the 
necessary resources and is not forced to scale back on other 
important obligations. I fear that this may be already 
happening, as it appears that some homeland security activities 
are being financed at the expense of cleaning up Superfund 
sites.
    Before closing, I would like to mention one issue that has 
cropped up recently that is of grave concern to me. That is, 
EPA's proposal to convert the annual toxics release inventory 
report into an every other year report. The EPA should be 
expanding, rather than rolling back, our community right to 
know protections. I do not understand how weakening these laws 
protects public health.
    Again, thank you, Administrator Johnson, for being with us 
today. I look forward to hearing your testimony.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    Good morning and welcome Administrator Johnson.
    As I enter my last year as a member of this committee, I remember 
those who have sat here before us. Senators Stafford, Chafee, and 
Moynihan come to mind. Each believed that investment in environmental 
programs supports our economy, and each in their own way felt that the 
key to economic sustainability is environmental stewardship.
    The President's budget worries me, as I believe it would worry our 
predecessors. Just three budgets ago, this Congress approved $8.4 
billion in spending for the EPA. The proposed budget represents a 
decline of 13 percent from 2004 and a 4 percent reduction in spending 
from last year. However, when inflation is taken into account, next 
year's cut would be well over 7 percent.
    The brunt of these cuts will be felt by our States, which are 
already struggling with budget shortfalls. This budget will mean even 
less money, and therefore fewer resources, for our States to ensure 
cleaner air and cleaner water for our citizens. If I were to use an 
analogy, this budget is like an ostrich sticking its head in the sand. 
As we all know, ignoring our problems won't make them disappear. If 
only it were that easy.
    I would argue that ensuring our Nation's water infrastructure is 
up-to-date should be a homeland security priority. The EPA's own 
analysis found the spending gap for clean water to be $270 billion. 
That's the gap between what we have and what we need, not the total. In 
the face of this and other documented analyses of this spending gap, 
the Administration continues to cut spending. This proposed budget 
would cut the Clean Water State Revolving Fund, or SRF, by almost 50 
percent from what annual appropriations were when President Bush took 
office.
    This committee has reported out legislation authorizing $35 billion 
over 5 years for the Clean Water and Drinking Water SRFs over the 
course of three separate Congresses. There is enormous public support 
for this spending. There isn't a member sitting on this committee who 
hasn't heard from our constituents about this need.
    This Administration seems to recognize the importance of clean 
water overseas, but not at home. We've dedicated 12 percent of 
reconstruction funds in Iraq to water projects. We're planning to 
complete 712 water projects in Iraq we've already finished 434.
    Some might say, well, we can't afford it, let's just weaken 
regulations. Weaken the regulations? After witnessing the improvement 
of the quality of our Nation's waters, I cannot understand why we, as a 
Nation, still fail to recognize the importance of water for our 
economy, our health, and our environment.
    I also feel like a broken record when it comes to challenging the 
inadequate funding levels for Lake Champlain; the pace of Superfund 
cleanups; and cuts to environmental education and air toxics research.
    I hope that when the EPA is asked to embark on new missions, it is 
provided with the necessary resources and is not forced to scale back 
on other important obligations. I fear that this may already be 
happening, as it appears that some homeland security activities are 
being financed at the expense of cleaning up Superfund sites.
    Before closing, I would like to mention one issue that has cropped 
up recently that is of grave concern to me. That is an EPA proposal to 
convert the annual Toxic Release Inventory report into an every-other-
year report. The EPA should be expanding, rather than rolling back, our 
Community-Right-to-Know protections, and I do not understand how 
weakening these laws protect public health.
    Again, thank you Administrator Johnson for being here today. I look 
forward to hearing your testimony.

    Senator Inhofe. Thank you, Senator Jeffords.
    Senator Bond.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman, for 
holding this hearing on the budget. I agree wholeheartedly with 
the comments you made at the beginning. I am happy to see 
Administrator Johnson and glad to see an ex-patriot from OMB, 
Mr. Peacock, here. We would like to be able to welcome you to 
the real world and find out what some of the challenges are 
that OMB never has seemed to recognize in the past.
    Prior to the delay of our appropriations structure last 
year which caused some restructuring, I wound up with highway 
spending in my appropriations committee, but I was very sad to 
lose EPA. Some in EPA may not share that sorrow. I was 
delighted to work with my committee to attempt to right the 
obvious wrongs proposed by OMB in both Republican and 
Democratic administrations for the EPA's budget.
    We launched a bipartisan effort against the budget cutters 
from both parties whose green eye shades obscured the plight of 
everyday Americans. Working with my partner, Senator Murkowski, 
I was proud every year to help restore cuts to the Clean Water 
and Safe Drinking Water State Revolving Funds, which are vital 
in my State and I assume in other States to help local cities 
and towns provide their residents with clean and safe water.
    The job these communities face is overwhelming: hundreds of 
billions of dollars in infrastructure costs to meet the 
mandates imposed by Washington. The job we faced was hard, but 
we were able to restore the water funds.
    But times are tougher. I see OMB now proposes to cut 
Federal contributions to the State water funds by $200 million, 
cut the fund contributions almost in half from historic levels. 
What do we tell our constituents back home? Drink only half a 
glass of water? Fill the bathtub only halfway? Don't worry 
about half our rivers? Forget about half our fish? It's only 
half of a one-two punch.
    At the same time, they are pulling, the Government proposes 
to pull the rug out from under local water systems, EPA is 
knocking them down with expensive, new regulations. Systems 
across the Country are struggling to implement EPA's arsenic 
standard. The Phoenix area has spent a couple of hundred 
million dollars just to control arsenic. El Paso has spent 
nearly $100 million. Medium and small size systems don't have 
those kinds of resources. EPA has told people to go to the 
revolving fund and get a loan. That is the same fund, Mr. 
Chairman, to which I remind you they would recommend cutting 
our contributions by half.
    Also, small systems in my State, and I assume many others, 
if not all States, don't have the technical ability or the 
revenue base either to provide the local match or make payments 
on such a loan. Even if towns of 1,000 residents triple their 
water rates, it would still not be enough to get these loans.
    EPA helps these systems select their treatment technology, 
but that does little good if you can't afford to buy and 
install the technology. EPA also cites flexibility in variance 
programs. However, EPA rarely and in some programs has never 
granted the variances.
    Similarly, new policies that do not apply retroactively 
could be little help at all. As if this is all not bad enough, 
we have a new rule from EPA to address disinfectant by 
products. Where on earth does EPA think that small water 
systems will get the money for this new rule, when they can't 
even afford the arsenic rule is beyond me.
    My big fear is that these heavy new burdens, without 
funding, will shut down many systems, forcing perhaps hundreds 
of thousands of families to rely on much less safe drinking 
water sources, groundwater, wells, cisterns, and the risks to 
those families will be much higher. I wonder if EPA has ever 
looked at the cost benefit of some of these regulations which 
may give away many of the benefits that existing small systems 
can provide in cleaning up the water in hopes of achieving an 
absolute standard. It appears that the perfect may be the real 
enemy of the good for many of these water systems.
    We have to restore some reality to this situation. New 
budget cuts and new obligations are not the solutions. New 
policies that do nothing are no solution, either. If 
environmental leaders really want to make a difference, they 
have to find solutions that are doable or provide people the 
means to accomplish these solutions.
    I look forward to the testimony and debate on this and 
other EPA issues. These are matters of serious concern to the 
people who have the responsibility in my State who have told me 
of their great frustration and concern about where they are 
going to go in the future. Thank you.
    Senator Inhofe. Thank you, Senator Bond.
    Senator Carper.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Administrator Johnson, welcome. It is good to see you. I 
want to welcome your Deputy Administrator, Mr. Peacock, as 
well. Thanks for joining us today. Thank you for taking our 
arrows and being willing to give us your testimony and respond 
to our questions.
    I just want to start off with a word of thanks. I want to 
thank you for the decision you made last year to model several 
Clean Air proposals dealing with utility emissions and multi-
pollutant bills, the President's Clear Skies proposal, Senator 
Jeffords' proposal and the proposal, a third proposal that 
Senators Alexander and Chafee and Gregg and I had offered. 
Thank you very much for doing that and for playing it straight 
and letting us have your, I think, your heart-felt analysis. 
That was much appreciated.
    I know that folks on our committee are going to criticize 
EPA for not allocating sufficient funds to actually make the 
air as clean as we would like it to be, or to make our water as 
clean as we would like for it to be. I would just remind my 
colleagues, if things like clean air or clean water are worth 
having, they are worth paying for. To the extent that we don't 
allocate enough money for EPA's budget or for other programs 
that are meritorious, then we shouldn't be surprised that 
sometimes the moneys that we want, whether it is for programs 
like revolving loan fund for clean water, which is important to 
us, I know to many, see that cut as painful.
    We are pleased that you were able to find $50 million to 
allocate for the diesel retrofit program that Senator Voinovich 
and myself, I know Senator Clinton, Senator Inhofe and others 
have promoted. We are grateful for that. We are concerned with 
the possibility that we may sort of have robbed Peter to pay 
Paul. Nonetheless, we appreciate the acknowledgement of the 
importance of our efforts to reduce the emissions from all the 
diesel vehicles on our roads.
    I am not going to go on beyond that. I just want to say 
that we are happy you are here and we look forward to talking 
with you today and to working with you as we go forward. Thank 
you very much.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Thune.

  OPENING STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM THE 
                     STATE OF SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I also want to 
thank Administrator Johnson and Deputy Administrator Peacock 
for being here today. Also, I notice Susan Bodine is here. Glad 
to have her here as well, and to see that a lot of those top 
positions at EPA are being filled and that the team is in 
place. We appreciate the good work you do.
    I want to thank Administrator Johnson for coming to South 
Dakota in the dead of January. That is a bold thing, and a very 
dedicated public servant, when someone is willing to do that. 
For your good work with our corn growers out there, and the 
people who are interested in renewable energy, which is an 
issue that is very important to my State. So I thank you for 
working with me and with the folks in South Dakota who have a 
very keep interest in that subject.
    I look forward to continuing to work with you on that 
issue. There are a number of things with respect to the 
renewable fuels standard, we want to acknowledge the dollars 
that were put into the budget, I think $11 million in the 
budget for development and implementation of the RFS, which is 
a critical component of our energy policy going forward. So 
thank you for doing that.
    I have, like a lot of folks, these budgets are always a 
great target to shoot at, concerns regarding the 
Administration's proposed reduction for the Clean Water SRF 
program. Based on my calculations, South Dakota would lose 
about $1.3 million compared to the funding that it received 
last year. I know that Congress continues to fund this program 
at a level higher than the Administration supports, largely due 
to I believe what are the overwhelming needs, not only in my 
home State, but across the country.
    So as we look at these, at Congress evaluates and looks at 
these programs, I am sure we will have plenty of debate about 
what those priorities should be. I will just say that in South 
Dakota, 50 percent of the assessed rivers and 84 percent of the 
assessed lakes are designated as having impaired water quality. 
So that is a program that is very important to my State.
    I also would, if I don't get a chance to stay around until 
we get fully into the questioning, would like to submit for the 
record some questions with respect to the Leaking Underground 
Storage Tank program. There are a couple of observations that I 
have about that program with respect to the challenges that we 
face and also the way that the funds are being allocated this 
next year. I won't get into that at this point. We just want to 
welcome you and thank you again for your good work and look 
forward to working with you in the future on issues that are of 
great importance to the people on this committee and the people 
of this Country. Thank you.
    Senator Inhofe. Thank you, Senator Thune.
    The record probably will stay open for only maybe 3 days, 
because we are going to keep things moving, so try to get your 
questions for the record in.
    Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you very much, Mr. Chairman. Welcome 
to the committee, Administrator.
    I am going to keep this brief. I do want to thank you for 
the work that you have done with me on behalf of New York. We 
haven't always agreed, but I greatly appreciate your openness 
and willingness to consult and listen.
    There is one bright spot in the budget for me, and that is 
the funding of the Diesel Emissions Reduction Act. I assume 
that means that the ultra-low sulfur diesel fuel standard is 
still on track.
    Mr. Johnson. Yes.
    Senator Clinton. However, there are a number of very 
serious problems with the budget. I hope that as it goes 
through the process we are able to prevail on the 
Administration to revisit the Clean Water State Revolving Fund, 
which has been cut dramatically. That would mean $22 million 
less for clean water projects in my State. It will have real 
impacts from the Great Lakes to the Long Island Sound.
    There are specific programs which we have been working on 
literally for decades and have made progress on that I really 
regret seeing the budget levels for, the Long Island Sound 
program was cut from $1.8 million to less than $470,000. That 
clearly jeopardizes the Agency's ability to implement the 
comprehensive cleanup and management plan that we have spent 
years developing and we are now on the brink of really 
implementing it and getting results and we are cutting back on 
the funds that would enable you to do that.
    The budget completely eliminates funding for the Long 
Island Sound Restoration Act, which was funded at nearly $4 
million last year. Again, this important act, which we recently 
reauthorized for 5 years, has provided funding for projects to 
protect the water quality of the Sound, including nitrogen 
reduction projects and upgrades to wastewater treatment plants. 
Another big investment that we have made jointly with the 
Federal Government that is now in danger, the National 
Estuaries program cut by $5.3 million, further threatens the 
cleanup of the Sound, as well as 27 other nationally important 
estuaries.
    I am dismayed that we have so many cuts in programs that 
are not new programs, they are programs that have really been 
proving their viability and success, but need to continue if we 
are going to get the results that we should expect. Finally, I 
am dismayed by the $35 million cut in grants to State and local 
Agencies for the purpose of administering the Clean Air Act. 
New York, along with a few other States, is really on the front 
lines of pollution control. We have gone way out on a limb 
trying to make sure that we take steps regionally as well as 
locally to do what is required with respect to clean air. So it 
would be very disadvantageous to see those funds cut.
    So there are a number of issues that I have with the 
budget. I look forward to working with you and my colleagues in 
trying to get a budget that more carefully and clearly reflects 
what are the real priorities for our environment. Thank you 
very much.
    Senator Inhofe. Thank you, Senator Clinton.
    Senator Murkowski.

OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM THE 
                        STATE OF ALASKA

    Senator Murkowski. Thank you, Mr. Chairman and 
Administrator Johnson, welcome, Deputy Administrator Peacock, 
thank you for being here this morning. I want to join my 
colleague in thanking you for visiting my State. You say you 
went to South Dakota in the dead of winter, but you had, I 
think, a relatively eye-opening experience. I want to thank you 
for following up on your commitment to visit.
    I want to make some comments here this morning that will 
probably not be new to you. These are issues that are 
critically important to my constituents in so many of our 
remote Alaska communities.
    During last year's budget hearing, I did invite you to come 
north to visit Alaska Native communities first-hand, and you 
joined Claude Allen, the President's top domestic policy 
advisor at that time, you visited some hot spots, Kasigluk, 
Atmautluak, Nunapitchuk, and I suppose if you can pronounce 
them and then spell them you get extra credit this morning. You 
went to some very remote parts of the Country, and I know that 
during your visit, the water and sewer conditions that you saw, 
I think, made an impression in terms of what you observed. 
These communities often rival the conditions in Third World 
countries as it relates to their water and sewer needs.
    Residents in some villages in Alaska have to go to central 
water sources in the community to get their fresh water. This 
is from a well source, not very sophisticated. Kind of like the 
tripod system back here, I think we will just use human hands 
here. A very unsophisticated source, where this is where 
everybody goes to get their clean water.
    Instead of flushing toilets, what you saw was the use of a 
honey bucket, again, a very unsophisticated device, but this is 
what we use in many of the communities to this day. In our 
clinics, honey buckets are being used. The honey bucket is 
nothing more than a toilet seat that you buy at the hardware 
store over a plastic bucket. When the honey bucket is full, you 
take it down the boardwalk or you haul it out down the trail 
and you usually dump it in the sewage lagoon. You either dump 
it in the lagoon or you dump it in the water. Sometimes these 
dump sources are located next to sources of drinking water.
    This last picture here is an area where not only the waste 
from the community is dumped, but this is where the human waste 
is dumped. As you know, these locations are not miles away. 
These are just on the edge of the community. Sometimes the 
community grows up around them.
    I use the pictures this morning to again impress upon the 
need for continued action, continued funding when it comes to 
village safe water. When we look at the sanitation aspects and 
the impact on health, there is a very immediate, a very direct 
connection. We had the budget hearings yesterday in the Indian 
Affairs Committee. When I have an opportunity to talk to Dr. 
Charles Grim, the Indian Health Service Director, about the 
health aspects of Alaska natives, it is directly and 
immediately tied to the sanitation issues.
    Infants in the Alaska Native villages with less than 10 
percent of homes with water and sewer service are 11 times more 
likely to be hospitalized for pneumonia, 5 times more likely to 
be hospitalized for lower respiratory tract infections. So as 
you know, Mr. Administrator, I have very grave concerns about 
the Administration's proposed budget cuts to the EPA program 
that addresses the basic drinking water and sewer needs of 
these communities.
    The Administration is proposing a 57 percent reduction in 
EPA funding for this program. This funding goes to the State of 
Alaska's Village Safe Water program, which provides the 
matching funds and works with non-profits and other Federal 
agencies to make sure that we are getting the funding that the 
communities need.
    In previous years, the Department of Agriculture, their 
Rural Development Administration, has also provided funding for 
the Village Safe Water program. In their budget request, the 
USDA doesn't include any funding, zero funding for the program, 
and I am very, very troubled by that. So the budget outlook for 
this critically important program is really very bleak at this 
time.
    If you include both the funding stream from your Agency as 
well as the Department of Agriculture, the Administration is 
essentially requesting a 75 percent funding cut for the 
program, which is unacceptable. I do realize as we have had the 
conversation that those in EPA and OMB don't see this funding 
request as a cut, because last year's request was approximately 
the same.
    We certainly, in Alaska, see this as a cut. In fact, when 
the budget was announced last week, the front page in the 
State's largest newspaper announced that Alaska bush water 
funding could be cut. So we believe very strongly that this is 
not holding steady, that this is a cut that has a devastating 
effect.
    Now, according to the budget document that was released, 
there is a suggestion that this low funding request is related 
to the PART report that was issued in 2004. I know that the 
State Department of Environmental Conservation is working to 
address the various concerns. I know that there have been 
efforts made on both ends to make sure that the accountability 
is there. We have had a discussion in that vein as well. I am 
concerned that the Administration has requested a low level of 
funding, even when both the State of Alaska and EPA have 
undertaken the efforts to very directly address the concerns 
that were raised in that PART report from 2004.
    I do want to underscore that the Federal funding for the 
State of Alaska's Village Safe Water program has been a huge 
success. We have seen dramatic progress. Over 200 rural Alaska 
communities have received funding from the program. 
Approximately 95,000 rural Alaskans have benefited from it. So 
we are seeing the progress, but we know that there is yet great 
need. Thirty-three percent of Alaska's rural homes still don't 
have running water and sewer.
    In planning for the rural water and sewer projects for the 
next 3 years, the State of Alaska, EPA and USDA have identified 
approximately $206 million in project needs. So we have a long 
way to go. We are making progress, but we need to have your 
continued help.
    I know that my time has run out, Mr. Chairman. I appreciate 
the opportunity to highlight these concerns. We do have other 
areas that we will be discussing in terms of where we feel we 
need a little bit of help. I wanted to take the time this 
morning to again highlight the very important need for this 
particular program. So we would appreciate your help with it.
    [The prepared statement of Senator Murkowski follows:]

Statement of Hon. Lisa Murkowski, U.S. Senator from the State of Alaska
    Thank you, Mr. Chairman. I am pleased that the committee is holding 
a hearing to examine the EPA's Fiscal Year 2007 budget and that 
Administrator Johnson is able to appear before the committee today.
    There are a number of issues that I'd like to address today the 
first of which has critical importance to my constituents in remote 
Alaska Native communities.
    During last year's budget hearing, I invited the Administrator to 
travel to Alaska to visit rural Alaska Native communities firsthand. 
I'm pleased that Claude Allen, the President's former top domestic 
policy advisor, and the Administrator were able to visit the villages 
of Kasigluk, Atmautluak, and Nunapitchuk, among other Alaska 
communities, last August.
    As they saw during their visit, the water and sewer conditions in 
these communities often rival the conditions in third world countries. 
For example, residents in some villages in Alaska have to go to a 
central source in the community to get fresh water. This source is 
often a well and, in some cases, a nearby river. Instead of flushing 
toilets, residents in some villages have to use a device called a 
``honeybucket.'' This device is a large bucket with a toilet seat on 
top. When the honeybucket is full, it is usually dumped in a sewage 
lagoon or on land. Sometimes, these dump locations are near sources of 
drinking water.
    This lack of sanitation has a startling effect on the health of the 
residents of these communities. According to the Centers for Disease 
Control, infants in villages with less than 10 percent of homes with 
water service are 11 times more likely to be hospitalized for pneumonia 
and 5 times more likely to be hospitalized for lower respiratory tract 
infections.
    I have grave concerns regarding the Administration's proposed 
Fiscal Year 2007 budget cuts to the EPA program that addresses the 
basic drinking water and sewer needs of these communities. The FY07 
request for this program is $14.85 million, while the FY06 enacted 
level is approximately $34.65 million. That's a 57 percent reduction in 
funding. This funding goes to the State of Alaska's ``Village Safe 
Water'' program, which provides matching funds and works with non-
profit and other Federal Agencies to ensure that this funding gets to 
the communities that truly need it.
    In previous years, the Department of Agriculture's Rural 
Development Administration has also provided funding for the Village 
Safe Water program. The FY07 request for USDA does not include any 
funding for this program. I am quite troubled by that. The FY06 enacted 
level is $25 million.
    The budget outlook for this critically important program is quite 
bleak at this time. Including both streams of funding, the 
Administration is essentially requesting a 75 percent funding cut for 
this program. Frankly, this is unacceptable.
    I realize that EPA and OMB does not see this funding request as a 
cut since this year's request is approximately the same amount as last 
year's request $15 million. However, both my fellow Alaskans and I see 
this as a cut. In fact, there was an article about this on the front 
page of the Anchorage Daily News the day after the budget was submitted 
last week. The headline was ``Alaska Bush water funding could be cut'' 
and the sub-headline was ``Federal Budget: Program aiding rural 
dwellers listed as 'ineffective'''.
    According to the ``Major Savings and Reforms in the President's 
2007 Budget'' document that was also released last week, the low 
funding request was linked to the negative PART report issued in 2004. 
That PART report rated this program as ``ineffective.'' The budget 
document states ``The funding reduction will be reconsidered once the 
program can demonstrate that funding is likely to effectively and 
efficiently help villagers.''
    I know that the State of Alaska's Department of Environmental 
Conservation is working to address the various concerns raised about 
this program. Specifically, they have the following initiatives 
underway: (1) implementing procurement and contracting improvements, 
(2) hiring an in-house accounting staff, (3) implementing a new project 
accounting system, (4) implementing a new project tracking and 
reporting system, and (5) improving project management generally. In 
addition, the State of Alaska has informed me that they have been 
working with EPA Region 10 to address issues of concern.
    I am concerned that the Administration has requested a low level of 
funding even when both the State of Alaska and EPA have undertaken an 
effort to address the concerns raised in the PART report, the EPA 
Inspector General's audit, and the Alaska Legislature's audit. In fact, 
the State of Alaska has requested that OMB conduct another PART 
assessment in order to document this program's improvements. However, 
they have so far not agreed to reassess this program. In effect, this 
funding reduction penalizes Alaska for OMB's failure to conduct a 
timely PART reassessment.
    I want to underscore that the Federal funding for the State of 
Alaska's Village Safe Water program has been a success over the years. 
Over 200 rural Alaska communities have received funding from this 
program and approximately 95,000 rural Alaskans have benefited from it.
    However, there is still a great deal of need. Thirty-three percent 
of rural homes in Alaska still do not have running water and sewer. In 
planning for rural water and sewer projects for the next 3 year period, 
the State of Alaska, EPA, and USDA have identified approximately $206 
million in project needs.
    I'd like to address a few other issues of note in EPA's budget 
request.
    The State of Alaska informs me that the 16 percent reduction in 
funding for the State and Local Air Quality Management program, along 
with effectively increasing state match requirements will eliminate 
efforts to assess and correct air quality issues in remote Alaska 
Native villages from diesel generator exhaust and dust. The budget 
request also includes $50 million for the Clean Diesel Initiative. This 
funding might help other states but the State of Alaska informs me that 
the language of the budget request will disqualify almost all Alaska 
entities from applying for these grants. Both of these budget items are 
of concern to me since many remote Alaska Native villages use diesel 
generators as their primary power source it is usually their only 
option since these villages are not on the road system and are far from 
major power grids.
    I am also concerned that the budget includes a 23 percent reduction 
in funding for the Clean Water State Revolving Fund loan program. This 
funding is intended to help communities finance sewer-related 
infrastructure projects. This cut will lower the amount the State of 
Alaska has available to loan to communities. Approximately one and a 
half percent of this fund is set aside for grants to tribes or Alaska 
Native Villages. Subsequently, the State of Alaska informs me that this 
budget request will also reduce the amount available to Alaska's remote 
Native Villages to address sewer-related needs by approximately $1 
million.
    In effect, the Administration's Fiscal Year 2007 budget request for 
EPA hits Alaska hard, particularly remote Alaska Native communities.
    With regard to Village Safe Water funding, the proposed reduction 
in the President's budget unfairly punishes Alaska Natives and other 
rural Alaska residents for shortcomings that both the State of Alaska 
and EPA are working to address. I want your commitment to help ensure 
that OMB recognizes the work that is underway to improve this 
critically important program.
    I have nothing further. Mr. Chairman, thank you once again for 
holding this hearing.

    Senator Inhofe. Thank you, Senator Murkowski. This will 
conclude our opening statements.
    We will start using the same first come, first served basis 
line of questioning. Let me ask a question, maybe this would be 
better--oh, that's right. She reminded me you haven't testified 
yet.
    [Laughter.]
    Senator Inhofe. All right, make it quick.
    [Laughter.]

     STATEMENT OF STEPHEN L. JOHNSON, ADMINISTRATOR, U.S. 
ENVIRONMENTAL PROTECTION AGENCY ACCOMPANIED BY: MARCUS PEACOCK, 
   DEPUTY ADMINISTRATOR; AND BENJAMIN H. GRUMBLES, ASSISTANT 
                 ADMINISTRATOR, OFFICE OF WATER

    Mr. Johnson. Yes, sir. Mr. Chairman, Senator Jeffords and 
members of the committee, I am pleased to be here today to 
discuss with you the President's fiscal year 2007 budget 
request for the Environmental Protection Agency. The 
President's budget reflects his continued commitment to 
providing the critical resources needed for our Nation's 
highest priorities: fighting the war on terror, strengthening 
our homeland defenses; and sustaining the momentum of our 
economic recovery.
    The President's pro-growth economic policies coupled with 
spending restraint will keep the Government on track to cut the 
deficit by more than half by the year 2009. As the President 
said in the State of the Union address, ``Keeping America 
competitive requires us to be good stewards of tax dollars.'' 
The President's budget exercises this fiscal discipline by 
focusing on priorities while targeting resources.
    EPA shares in the responsibility of being good stewards of 
tax dollars. In keeping with the need for spending restraint, 
the President has included $7.3 billion to support the work of 
the Environmental Protection Agency and our partners nationwide 
in his budget. This budget fulfills every Presidential 
environmental commitment and maintains the goals laid out in 
EPA's strategic plan while spending less.
    As you may know, throughout the year, we at EPA are 
celebrating the 35th anniversary of the Agency's founding. As 
we look back, we see much to celebrate our air is cleaner, our 
water is purer, and our land is better protected. These 
national successes have continued to advance under the 
leadership of President Bush.
    Since 2001, air pollution emissions have been reduced by 10 
percent and over 1,400 abandoned industrial sites have been 
restored to productive use through the Brownfields program. 
From 2002 to 2003, toxic chemicals released into the 
environment declined by 6 percent. In 2004 alone, 800,000 acres 
of wetlands were enhanced. Over these years of environmental 
gains, our economy's gross domestic product has increased 10 
percent, clear evidence that a growing economy and 
environmental results can in fact go hand in hand. The 
President understands this.
    When I accepted the position of EPA Administrator, 
President Bush charged me with accelerating the pace of 
environmental progress while maintaining our Nation's economic 
competitiveness. As we prepare for tomorrow's environmental 
challenges, EPA will meet the President's charge by focusing on 
three principles.
    The first is results and accountability. EPA must operate 
efficiently, effectively and competitively. At EPA, we focus on 
environmental outcomes, not environmental programs, so we can 
hand the American people a cleaner, healthier environment. The 
President's budget includes three programs that have been 
delivering some of the longest standing and greatest 
environmental successes. The President requested nearly $1.3 
billion for the Superfund program, that is a $17 million 
increase over last year's enacted budget; $841.5 million for 
the Drinking Water State Revolving Fund; and $688 million for 
the Clean Water State Revolving Fund.
    The second principle is innovation and collaboration. By 
focusing on cooperation over conflict, and by developing 
collaborative partnerships, EPA and our partners are 
accelerating the pace of environmental protection by promoting 
market-based strategies, advancing stewardship opportunities 
and investing in breakthroughs in new, innovative technologies.
    The Great Lakes program is an excellent example of regional 
and international collaboration, and in his budget, President 
Bush requested over $70 million to clean and protect the Great 
Lakes. This includes $50 million for the Great Lakes Legacy Act 
cleanup program, an increase of over $20 million over last 
year's enacted budget, demonstrating a true commitment to 
preserving this natural wonder.
    Our President understands the importance of our waters and 
in his budget he requested $26 million for the Chesapeake Bay 
program. This increase of $4 million over last year's enacted 
budget will help accelerate the restoration of this national 
treasure.
    As the President said in his State of Union address, 
breakthroughs in new technology are empowering our economy and 
dramatically improving our environment. Nowhere is this more 
apparent than the Administration's investment in energy 
innovation. Since 2001, our Nation has funded nearly $10 
billion in developing energy sources that are cleaner, cheaper 
and more reliable. EPA plays a substantial role in this effort 
through the implementation of the Energy Policy Act of 2005. 
The President's budget request for 2007 includes over $100 
million to support the development and implementation of the 
renewable fuels standard rulemaking, to strengthen the measures 
for underground storage tanks, and to support programs to 
reduce diesel emissions from existing engines.
    The third principle to accelerate environmental protection 
is best available science. The President shares this commitment 
to sound science. In his 2007 budget request for EPA, he 
includes $7 million for a Water Infrastructure initiative. 
These funds will allow EPA to conduct a major research effort 
to reduce the cost of operation, maintenance, and replacement 
of aging drinking water and wastewater systems.
    This focus on science is also evident in the budgets 
funding to study the impacts of manufactured nanomaterials on 
human health, funds for the Integrated Risk Management 
Information System, and investment in the Computational 
Toxicology program. These three principles that I mentioned are 
consistent with the President's mandate to create a Government 
that is citizen-centered, results-oriented, and market-based.
    Before I conclude, I need to mention EPA's responsibility 
in supporting the President's top priority: the safety and 
security of the American people. EPA has a responsibility in 
protecting our citizens and our environment from the effects of 
attacks using chemical, biological, and radiological agents, 
with special responsibilities for water security and 
decontamination efforts.
    For 2007, the President has requested $184 million for 
homeland security efforts, an increase of $55 million over last 
year's enacted budget. While our Nation is at war, EPA is 
tightening its belt, while maintaining our commitments to the 
American people. The President's budget focuses on the programs 
that effectively deliver environmental results, while providing 
$540 million to fund our continued efforts to vigorously 
enforce our Nation's environmental laws.
    By reaffirming our commitment to results and 
accountability, innovation and collaboration, and the best 
available science, the funding of the President's budget will 
allow EPA to meet the environmental challenges of the 21st 
century and beyond. That concludes my prepared statement, Mr. 
Chairman. I would be pleased to answer any questions you and 
members of the committee may have regarding EPA's work and our 
fiscal year 2007 budget request.
    Senator Inhofe. Thank you, Mr. Administrator.
    I would like first of all to ask, perhaps Mr. Peacock would 
be a better one to answer this question, though, so that I 
understand it, the two areas that you have reduced by 
approximately $200 million are the members' requests and the 
Revolving Fund, is that correct?
    Mr. Peacock. That is correct.
    Senator Inhofe. All right, then, if the total or the net 
reduction is $310 million, that means somewhere else there is a 
net increase of $90 million. Am I correct there?
    Mr. Peacock. That math works, yes.
    [Laughter.]
    Senator Inhofe. I wanted to make sure my notes were right 
on that. Because everyone up here in opening statements has 
complained about the State Revolving Fund, about the benefits 
and about the problems that we are having in our respective 
States. I think certainly Senator Murkowski points out unique 
situations that occur in Alaska, but not all that unique. 
Because we have the same problems. As I mentioned in my opening 
statement, 80 percent of our communities are having this 
problem with the clean water.
    I can allay the fears of anyone on this committee in terms 
of the fact that the Revolving Fund is not going to be there. 
That is going to be reinstated. I think you knew that. I told 
you this during confirmation time. Also, several times we have 
discussed the fact that all too often, you put something in 
there as a reduction that you know will be reinstated during 
the process somewhere. These are two things that will be. I 
know that, you know that, everyone in this room knows that. I 
think all the members up here have expressed their feelings 
about that.
    So what I am going to ask you to do is to go back. I 
recognize we have OMB and the Administration that want to deal 
with on this. But reinstating those, still come up with the 
goal of a net reduction, Mr. Peacock, of $310 million and let 
us look at it and see if it is something that can be more 
accepted by this committee. There are a lot of things that we 
can do to force this, but we think this is a very reasonable 
approach. And again, we talked about this before. Making 
reductions in areas that we all know are going to be put back 
in as it goes through the process is something that we can't 
continue to do. We don't want to start with this budget process 
to keep from doing that.
    Do you have any thoughts about that?
    Mr. Johnson. Mr. Chairman, I do appreciate the comments. As 
Senator Jeffords pointed out, there clearly is a gap for our 
Nation's water infrastructure. The gap, as was mentioned, is on 
the order of about $270 billion. As we put together the budget 
for 2007, we looked at a couple of things. One is, 
historically, no Administration carries over congressionally 
mandated projects, earmarks, if you will. That has been, 
certainly in my 25 year history of EPA, through multiple 
Administrations, always been the case.
    Senator Inhofe. What has always been the case? Repeat that.
    Mr. Johnson. We have not carried over congressional 
earmarks from year to year in total.
    Senator Inhofe. OK.
    Mr. Johnson. The second is, looking at what are the 
President's commitments and the Administration's commitments 
are. With regard to the Clean Water State Revolving Fund, the 
President committed that there will be sufficient funds in that 
fund so that the fund would revolve at an annual amount of $3.4 
billion. We are on track to meet that. This budget achieves 
that.
    So while the needs are great, there is no question the 
needs and the gap are tremendous, it is a question of how we 
are going to get there. That is one piece, the Revolving Loan 
Fund.
    Second, as I mentioned, there is money in this budget to 
help innovative technologies. We need to invest in innovative 
technologies to help solve this problem. Obviously, the systems 
need to be sustainable. There are a number of pieces to 
sustainability, including full cost pricing, ratepayers have a 
role to play, the Federal Government has a role to play. Using 
technology there are things we can do to also help in the water 
quantity issue. We have some ideas in that.
    We believe and I believe, it is not just one solution for 
the Clean Water and the Drinking Water Revolving Loan Funds. If 
my numbers are correct, the Drinking Water Loan Fund is 
actually up by $4 million from what was enacted.
    So it is a combination of those Revolving Loan Funds. It is 
also use and focusing on technologies to help us deal with this 
gap. It is also helping.
    Senator Inhofe. Mr. Administrator, I appreciate that.
    What we are going to do, we are going to have two rounds of 
questions, at least, maybe more. We are going to try to stay 
within our 5 minutes, and I am going to set that example.
    Senator Jeffords.
    Senator Jeffords. The President's budget proposes to reduce 
the funding provided to the States for the implementation of 
the environment and public health programs for the third 
straight year. Federal funds are about one-third of the budgets 
for State programs. Budget reductions combined with increasing 
workloads may lead some States to determine they can no longer 
continue to sustain all of their delegated programs and they 
may return them to the Federal Government.
    With the further reduction of funding for State program 
implementation, is EPA prepared to handle the workload 
associated with the return of delegated programs?
    Mr. Johnson. We are certainly committed to work with our 
State partners and tribal as well as territory partners, as we 
have in the past. In fact, when you look at the State 
assistance grant reductions that are part of the 2007 budget 
and compare that to EPA's operating budget, actually EPA's 
operating budget represents a 3.8 percent decrease and the 
State grants represents a 2.1 percent decrease.
    So again, we are operating in an environment of fiscal 
restraint. We are trying to do this in an informed way so that 
we would be good stewards of the environment and also good 
stewards of taxpayers' dollars given the fiscal constraint we 
are dealing with.
    Senator Jeffords. International Paper. I was attorney 
general, so this is bringing old problems back to focus again. 
You are probably aware, the International Paper Company is 
seeking a permit to burn tires for fuel at its plant in 
Ticonderoga, NY. That can release dangerous particulate matter, 
even under short term exposure conditions. Breathing 
particulate matter can cause numerous health effects, including 
premature death.
    That is why I have asked the Ticonderoga plant to do what 
other plants that burn tires have done: install electrostatic 
precipitator or a fabric filter. So far, the company has 
refused.
    My question is this. In the absence of controls, can you 
assure us that allowing the plant to burn tires will not have 
any adverse consequences on the people of Vermont and New York?
    Mr. Johnson. Yes, Senator. I am very familiar with the pulp 
and paper mill issue. As it stands today, New York has not 
issued the final permit for the test burn. The next step in the 
process would be for them to do a test burn which will be fully 
monitored. We have been working with both your State and 
Senator Clinton's State in making sure that this test burn is 
done appropriately.
    Following the results of that, we will all evaluate it. It 
is certainly our belief that should the test burn be 
successful, that before a final decision would be made with 
regard to using it as a fuel source, that they would need a 
revised permit. Of course, as you are well aware, there is a 
structured process that one has to go through to make that 
happen.
    Senator Jeffords. I assure you I will be watching this very 
closely.
    Mr. Johnson. Yes, sir.
    Senator Jeffords. According to Dr. James Hansen, Director 
of NASA's Goddard Institute for Space Studies, 2005 was the 
hottest year on record. Dr. Hansen has warned us that the 
earth's climate is nearing, but has not passed a tipping point 
beyond which it will be impossible to avoid climate change with 
far-ranging, undesirable consequences. According to Dr. Hansen, 
such consequences would ``constitute practically a different 
planet.'' The Administration's response to global warming is to 
set a voluntary goal of ``intensity reductions'' which would 
still allow actual increases in greenhouse gas emissions. The 
Administration also opposes any further discussion of binding 
international commitments for the period of 2012.
    Given the importance and the urgency of taking real action 
on climate change now, how can we be sure that the 
Administration is doing enough to stop irreversible climate 
change?
    Mr. Johnson. Senator, climate change is a very important 
topic. In fact, as an Administration, the President has been 
investing approximately $5 billion a year, both in research as 
well as technological solutions. EPA plays a portion, a small 
portion, in the 2007 budget, I believe. It is about $100 
million.
    Our focus from EPA's perspective is on a number of 
programs: Energy Star, which is a very highly successful 
collaborative program encouraging people, both domestically and 
internationally, to move toward Energy Star products, because 
they reduce the energy consumption. Obviously that has an 
effect on climate change and greenhouse gases in particular.
    We have launched a program called Methane to Markets. Where 
methane is a potent greenhouse gas, it is also an energy 
source. We using technology to capture that gas and to use it, 
not only to capture it to protect the environment but also to 
use it as an energy source. We believe we can export that 
technology and in fact are doing so with other countries.
    Another area which we have been very actively involved in 
is the Climate Leaders program, working with industry to help 
them to use these technologies to achieve great input. Then the 
last item, which is an item that EPA has a $5 million request 
as part of this budget, and it is called the Asia Pacific 
Partnership. We will work with major Asian countries, such as 
China and India, to help bring our technology to bear to help 
deal with global climate change. This is part of a $52 million 
Government-wide program.
    Senator Jeffords. Thank you.
    Senator Inhofe. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Administrator Johnson, I know that you knew I was going to 
focus on the water and sewer infrastructure funding. I would 
like to give you an opportunity to discuss what you saw. The 
pictures that I have presented were pictures that I and others 
on my staff have taken. I want to know your impressions of what 
you saw. I don't expect you to take very much time. I just want 
you to state for the record what it is that you saw on your 
visit.
    Senator Inhofe. Let me ask you, Mr. Administrator, to try 
to be more concise and brief in your responses, because you are 
using up all the time that we have to ask questions.
    Mr. Johnson. Yes, sir.
    The pictures do not do the issue justice. I appreciate the 
time and energy you spent taking me around and showing me. It 
is a serious problem and it is one that needs to be corrected 
for the public health of the citizens of Alaska.
    Senator Murkowski. I thank you for that very direct 
statement.
    Then the next question is of course the troubling one, 
recognizing that, how do you reconcile the reduction in the 
budget request? How are we going to make the progress that you 
recognize that we need to do?
    Mr. Johnson. Given the available funds, we want to invest 
those and use those wisely. Of course, we appreciate the work 
that both the State and certainly our regional people have done 
to help make sure that we are delivering the results, that we 
have good grant accountability, and that we have very good 
accounting practices. We have made significant progress and I 
am trusting that between us we will be able to correct the 
problems of the past this year.
    Senator Murkowski. Let me ask you about the accountability 
aspect of it. Because that was what was raised in that PART 
report. There is a conflict between what I understand the 
reason for the reduction was, which is basically all areas were 
taking a reduction. Then the budget document refers to the PART 
report. How much weight was given to that 2004 report given the 
progress that you acknowledge we have made with this program?
    Mr. Johnson. In my judgment, we do not carry over 
congressionally mandated projects. So whatever those were, and 
this happened to be one, a portion of it, that was not carried 
over. That was the first, as we prepare our budget submissions.
    The second, it was recognized that it did go through the 
PART assessment and there were deficiencies found. We 
acknowledged that last year. This year and last year, we have 
made great progress. Certainly it is my hope that we will be 
able to close that. In fact one of the issues I would like to 
talk to you about is actually re-PARTing, of having the folks 
come back in and do a re-program evaluation. I think when we 
take the steps that we are taking, it will address that and the 
issue will be put aside.
    Senator Murkowski. Recognizing then the progress that has 
been made in improving the management here, in your opinion 
what remains to be done? What do we need to address so that we 
make sure that that PART report comes back good and sound?
    Mr. Johnson. I think certainly the remaining piece that I 
am aware of is the reconciliation of financial accounts that 
have been done, and particularly focusing on this Spring and 
successful tracking of projects by the Indian Health Service. I 
think with those two aspects, they are the key pieces.
    I also would like to note, Senator, that one of the issues 
that has been part of the, if you will, earmarks from year to 
year, is the Alaska Operations Office. There is a small staff 
of eight people and about a little over $1 million, $1.5 
million. Having seen the need first hand, I felt it was 
important that that group of people not be subject to 
congressional mandate projects, but be part of our base 
operations.
    This budget reflects it as part of the base operation, 
again, trying to show that we are committed and believe that 
there are real needs in Alaska. Alaska, as I found out first 
hand, is very large.
    Senator Murkowski. That's an understatement.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Murkowski.
    Senator Lautenberg.
    Senator Lautenberg. Thank you, Mr. Chairman.
    Sir, we were all kind of torn by committee hearings that 
are going on in different places, different committees at the 
same time. So we have to jump in and we hope that the question 
that we will ask has not already been answered.
    Mr. Chairman, I ask consent that my full statement would be 
included in the record as if read.
    Senator Inhofe. Without objection, so ordered.
    Senator Lautenberg. Mr. Johnson, we are glad to see you and 
believe that you can't be really satisfied with the tools that 
you are getting to do this job, the tools being money. Your own 
Agency has estimated a need of $388 billion over the next 20 
years, to modernize and upgrade the Nation's wastewater 
treatment infrastructure. The investment is needed to keep 
sewage and chemicals and other pollutants out of the waters 
that we use for not only drinking and household use, but 
recreational, fishing and swimming, particularly important for 
our kids.
    Without that money, aren't we placing America's health at 
risk in a significant way?
    Mr. Johnson. Senator Lautenberg, with regard to the Clean 
Water State Revolving Loan Fund, as Senator Jeffords mentioned, 
the need is great. It is on the order of $300 billion. So we 
need to do everything we can to try to close that gap, 
obviously first honoring the President's commitment which is 
revolving loan fund of approximately $3.4 billion. This budget 
helps to achieve that. We are looking for innovative 
technologies to try to solve the problem, working with our 
States and communities. Ratepayers play a key role as well.
    So it is not just one solution. The need is great, but 
working together, we can make some significant progress.
    One last thing that I didn't mention was that I did ask, in 
a letter to our financial advisory board, consisting of an 
independent group of experts, to advise us on financial 
matters. This particular topic is something that I have put 
before them, and I should be getting the report some time this 
Spring. These independent financial experts may help us think 
through whether there are innovative ways that we can help 
address this problem from a financial standpoint.
    We are looking at it from a technology, we are looking at 
it from a financial innovative standpoint, we are looking at it 
from a sustainability standpoint.
    Senator Lautenberg. Does financial innovative mean more 
money?
    [Laughter.]
    Mr. Johnson. We know we need more money, but the need far 
exceeds what EPA's budget would ever be. So how are we going to 
solve that problem?
    Senator Lautenberg. I think since you are our man in the 
ring, you have to fight harder to try to get the resources you 
need. Because the job that you are required, expected to do, is 
very important. You have seen this report issued by your 
Agency. When we see the human health benefits, for instance, 
from acid rain programs, and ozone reduction and see the 
monetary value by paying attention to the program, the clean 
air, potential savings over $100 billion a year.
    More importantly is the number of cases that are put upon 
our citizens because of problems from acid rain and 
PM<INF>2.5</INF> and ozone reductions. Those programs put 
enormous pressure on us as legislators, as representatives of 
the people, to try to get something more done. It is painful, 
in my view. I am troubled about what happens with the $35 
million cut that EPA proposes to cut to help States attain air 
quality standards. We need to continue improving the quality of 
our air and setting the standards that protect the public 
health.
    Now, you are aware that air pollution can trigger asthma 
attacks among children, 6 million that have childhood asthma. 
One of those kids is my oldest grandson, who is 12 years old. 
You have perhaps heard me say this before, when my daughter 
takes him to play sports, that one of the first things that she 
does is look for where the nearest emergency clinic is. Because 
if he runs and gets exhausted and so forth, it is not unusual 
that he is taken to the hospital. It is painful to see. That 
situation is being seen all across the Country.
    So how do you feel about the $35 million of cuts that are 
going to reduce our capacity to protect these kids?
    Mr. Johnson. The Clean Air Act has a requirement that for 
continued monitoring programs, there be a 40 percent cost share 
by the States. When we issued the final PM<INF>2.5</INF> or the 
fine particle regulation, we established monitoring programs at 
the States for that pollutant. The Federal Government has been 
paying for that 100 percent since 1997.
    Now it is time, as the Clean Air Act directs us, to 
transition to that cost share of 40 percent. That is what we 
are in fact doing. We are trying to abide by what the Clean Air 
Act says.
    Senator Lautenberg. That is not going to make up----
    Senator Inhofe. Senator Lautenberg, we will have another 
round, so you will have another chance. We are trying to stay 
within the timeframe.
    Senator Lautenberg. I will get out of your way and----
    Senator Inhofe. No, I want you to have another full 5 
minutes.
    Senator Lautenberg. Can I ask a final question? Do my 
colleagues want to vote on it?
    Senator Inhofe. If it's all right with Senator Carper and 
Senator Thune, that's fine with me.
    Senator Lautenberg. That is this. We have a site, Mr. 
Chairman, in New Jersey called the Ringwood Mine site. It was 
delisted in 1994. However, and I have been up there, additional 
toxic sludge has been found repeatedly at the site since then. 
Region II Administrator Steinberg supports relisting this site.
    Will you commit to relisting that site by the end of this 
year?
    Mr. Johnson. Senator, we are in the process of relisting 
that site on the NPL listing now. I am not sure about the 
specific timing, but we are in the process of doing that. Our 
intent is to relist that site.
    Senator Lautenberg. All right. It shouldn't take forever to 
do that, right?
    Mr. Johnson. I would not think so.
    Senator Lautenberg. Mr. Chairman, you have been generous. 
Thank you very much.
    Senator Inhofe. Senator Carper.
    Senator Carper. In a minute or two, Mr. Johnson, I am going 
to ask you a question relating to clean coal technologies, as 
part of a best available controlled technology determination. I 
am going to ask you about that.
    Before I do, we keep coming back to this issue of the Clean 
Water Revolving Fund. You have mentioned a time or two in your 
testimony today, trying to figure out how to harness innovation 
and technology to stretch further the dollars that we do have 
to spend. I was having a sidebar conversation with Senator 
Clinton, talking about the magnitude of the challenges that we 
face in some of our urban areas with respect to combined sewer 
overflows. It is a daunting challenge in my little State, in 
Wilmington, especially. I can't imagine what it's like in a 
place like New York, or New Jersey, for that matter.
    We are being asked to, as we look at the amount of money 
that's in the budget here for Clean Water Revolving Fund, I 
think we are being asked to in the aggregate live with about a 
25 percent reduction. I think that's, if I'm reading the 
numbers right, and if I'm wrong, correct me. It is a cut of 
about $200 million.
    Mr. Johnson. It's about $199 million, yes.
    Senator Carper. We are trying to find ways to do more with 
less in Wilmington, DE in combined sewer overflows. We have 
actually borrowed some technology from St. Louis, some things 
that they are doing that we think are encouraging.
    Let me just ask you, if you and Mr. Peacock might be able 
to share with us, if we end up with $200 million less as a 
Country to work with on problems we could easily spend tens of 
billions of dollars, as you know, what are some ways that you 
have heard or seen around the Country where innovation and 
technology is enabling jurisdictions like ours to do more with 
less in this regard?
    Mr. Johnson. Well, I don't have a specific technology that 
I have seen that's been the answer. What I have heard from a 
number of communities, in fact I was just out in California 
last week and saw a brand new wastewater treatment system that 
we are using a number of cost effective and sustainable 
technologies that they believe will not only work, but they 
will be sustainable for generations to come.
    One of my goals is to try to take that experience that you 
just mentioned and bring that information together so that for 
communities that are struggling or do have problems, we can 
bring all the forces to bear to try to help them. Our research 
and development effort has been working on that. Again, as I 
said, we have some new moneys in the 2007 to even further help 
that.
    Mr. Peacock. I just wanted to mention, we are requesting $7 
million in research and development for technology, some of 
which already exists, to identify and repair leaks in water 
systems. You can identify them much faster and then repair them 
much more easily than with the technology we have today, which 
is more hit or miss.
    Senator Carper. Do you have a center for best practices 
that the States and localities can visit, a web site or 
something like that, where real people will tell them?
    Mr. Johnson. May I ask Ben Grumbles, who is our Assistant 
Administrator for Water?
    Mr. Grumbles. Senator, your questions are right on point. 
One of the focuses of the Office of Water is on sustainability. 
That means watershed management to help respond to the concerns 
about sewer overflows, to use technologies and innovations 
upstream in the watershed, more wetlands used, or buffers. Also 
reductions in the use of water, voluntary measures that can 
help reduce the flow coming into the sewage treatment plants.
    There are a lot of technologies. Our web site, epa.gov/
water, has a wastewater management section in it that talks 
about technologies to help further reduce the flow. Also to 
trap the floatables that might occur before they go into the 
stream at the emergency outfalls.
    [The referenced material can be found on page 73.]
    Senator Carper. Good, thanks. Let me just offer a trade or 
a swap. Thank you very much for that. We will share with you 
what we are doing in Wilmington and St. Louis with respect to 
doing more with less on CSOs. If you could share with us some 
further information that Mr. Peacock alluded to, that would be 
most helpful.
    Two other things and I'm done. One of those is, I'm going 
to be submitting for the record a question, and it was an issue 
raised by some home builders in Delaware with respect to 
stormwater runoff and EPA's plans to address that. Not a new 
issue, an old issue. I would just like to send a question for 
the record and ask you to respond.
    The other thing I want to say, and then I'm done, but the 
budget the President has provided to us and submitted to us 
provides about $5 million for EPA's participation in something 
that's called the Asia Pacific Partnership on Clean Development 
and Climate. I think the partnership aims to promote 
development and transfer of cleaner, more efficient 
technologies that can address greenhouse gas migration and 
energy security. It seems to me a good way to promote the 
development and transfer of cleaner technologies is to promote 
their development right here in the United States.
    However, I'm told that EPA recently issued guidance in the 
form, I believe, of a letter to a consulting company named E3 
Consulting. In this guidance document, EPA declared that when 
States are processing an application for an air permit for a 
new coal plant, they don't need to consider clean coal 
technologies like IGCC as part of the best available control 
technology determination.
    Here is my question. The President is going to spend, or 
would have us spend $5 million trying to promote the 
development and transfer of cleaner, more efficient 
technologies. It just seems to me that the Agency's policies 
should reflect that commitment. I would just like to ask if you 
might reconsider this guidance, in light of the President's 
technology development priorities.
    Or at the very least, I would ask that you open the issue 
up to public comment, so that the Agency can learn more about 
the potentials of these clean coal technologies.
    Mr. Johnson. First, we are very supportive of, and in fact, 
there is, as you are probably well aware, there is a tax credit 
for Integrated Gasification Combined Cycle (IGCC) as part of 
the 2005 Energy Act. The issue that came before us is IGCC to 
be used as a best available control technology. It was our 
judgment that it was not a candidate to be considered under 
best available control technology for a number of reasons. One 
of those reasons again, in our judgment, was that if one were 
using one of these, it would probably require a redesign of the 
emission source, which we don't consider to be part of a best 
available control technology.
    I understand what you're saying. We are certainly very 
supportive of the technology. We just don't believe that IGCC 
really is and should be considered as a candidate technology.
    Senator Carper. Thank you. Thanks, Mr. Chairman, thanks for 
the time. This is one we would like to follow up with you on in 
particular. Thank you very much.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    Administrator Johnson, I just want to confirm that there 
will be no further delays in implementing the ultra-low sulfur 
diesel fuel, is that correct?
    Mr. Johnson. That is correct.
    Senator Clinton. Thank you.
    Last year, Chairman Inhofe and I worked together on a 
provision included in the Highway bill to make diesel retrofits 
on non-road vehicles eligible for funding under the Congestion 
Mitigation and Air Quality (CMAQ) program. The incentive would 
arise from guidance that EPA agreed to issue, which would 
enable municipal planning organizations to get conformity 
credit with the emission reductions achieved by funding diesel 
retrofits with Congestion Mitigation and Air Quality (CMAQ).
    Will that guidance be issued in the near future? Will it 
provide a sufficient incentive for the municipal planning 
organizations to use their CMAC allocation?
    Mr. Johnson. Let me first say, Senator, thank you for your 
support on the diesel campaign, to get diesel emissions under 
control. In fact, the President's budget reflects the $49.5 
million for diesel retrofits. This is a competitive grant 
program, one that we want to see implemented quickly because of 
the health benefits.
    With regard to the conformity credit issue, I am not sure 
myself. Let me get back to you for the record.
    [The referenced material can be found on page 72.]
    Senator Clinton. If you could get back to us, because this 
is something that I worked on with the Chairman. We think it 
holds a lot of promise.
    Mr. Johnson. OK.
    Senator Clinton. With respect to a recent Environmental 
Quality Institute study, which found from interim data in a 
national study to determine mercury levels in hair samples, one 
out of every five women of child-bearing age exhibited mercury 
levels higher than the one microgram limit recommended by the 
EPA. The researchers noted these increased mercury levels were 
directly related to levels of fish consumption.
    This report follows recent disclosure that cans of white 
tuna, one of the fish that was listed in the 2004 joint EPA-FDA 
advisory on mercury and fish as a lower risk often contains 
albacore tuna, which is likely to contain unsafe levels of 
mercury. Therefore, it troubles me, because consumers who are 
trying to be diligent, following the guidelines, may 
unknowingly be exposing themselves to higher mercury levels.
    Given this new information, I would suggest that the EPA 
and FDA make additional information about mercury in fish 
available to consumers and at least consider, I would argue, 
please do, update your joint advisory. Would you look into 
that, please?
    Mr. Johnson. I will be happy to look into it, yes.
    [The referenced material can be found on page 74.]
    Senator Clinton. Also, I want to raise a question about rat 
poisoning. In 1998, the EPA determined that rat poison 
exposures were an unreasonable health risk in violation of 
Federal pesticide laws, and refused to approve rat poisons 
unless manufacturers included two safety measures to protect 
children: an ingredient that makes the poison taste more bitter 
and a dye that would make it more obvious when a child ingested 
the poison.
    In 2001, however, EPA revoked these safety regulations, 
announcing it had come to a mutual agreement with the 
rodenticide manufacturers to rescind the bittering agent and 
indicator dye requirements. According to the Poison Control 
Center data, the number of reported child poisonings has 
increased annually since EPA's policy reversal. This is not 
hypothetical, this is looking at the data. Between 2001 and 
2003, poison control centers reported nearly 60,000 cases 
nationwide of poisonings by rat poisons, more than any other 
pesticide. Roughly 250 of these result in serious outcomes, 
including death.
    Now, many of these involve children, as you might guess, 
because the poisons often come in loose pallets that are placed 
as bait on the floor. Every year, more than 15,000 children 
under the age of six accidentally eat rat poisons. Several 
hundred require hospitalization, which results in internal 
bleeding, bleeding gums, anemia, even comas if death is 
escaped. As you might assume, poor children living in 
dilapidated housing where there are more rat poisons necessary 
suffer disproportionately.
    Now, a Federal court recently held that EPA's failure to 
protect these children violates the law. I want to ask two 
questions. First, what are EPA's specific plans and timing to 
comply with the court order to protect children from these 
accidental poisonings? Second, some in Congress are now pushing 
for liability relief for distributors of bittering agents in 
anti-freeze. That's clearly a bad idea. I oppose it. We need to 
do what we can to put the bittering back into the rat poison, 
as well as the dye indicators.
    Could I have your assurance that you will act on this to 
try to comply with the court order?
    Mr. Johnson. Senator, let me first say, obviously, we're 
very concerned about any children who are harmed or have the 
potential to be harmed. I will go back and look into it and 
take appropriate steps to address this.
    [The referenced material can be found on page 74.]
    Senator Clinton. Mr. Chairman, I thank the Administrator, 
and if I could have a response in writing on both the mercury 
in fish and the rat poisoning, then we will look forward, as 
well, to get information in a timely manner about the CMAQ 
information for the metropolitan planning organizations.
    Senator Inhofe. Thank you, Senator Clinton.
    Were you going to be around for another round of 
questioning?
    Senator Clinton. No.
    Senator Inhofe. All right. Mr. Administrator, first of all, 
I brought up this international grants question. There have 
been some 300 international grants in the last 10 years. I 
asked for a dollar amount and I found out it wasn't nearly as 
much as I thought it was. In fact, I still question the $64 
million as the total over that 10 year period.
    Still, it is a sizable sum. I would like to have, for the 
record, someone really get into this, particularly the two 
examples that I used with China. Right now, China is creating a 
very serious problem for us in our energy crisis in tying up 
the oil markets, the reserves around the world.
    Morocco is, while they have been an ally of our country, it 
is a very wealthy country, and I don't think we need to be 
spending money for their environmental programs. So with those 
specifically and any others you have, I would like to have you 
advise us as to what they are.
    [The referenced material can be found on page 77.]
    In January 2006, the EPA's Office of Transportation Air 
Quality sought candidates to conduct analysis of environmental 
strategies to reduce greenhouse gas emissions and criteria air 
pollutants from the transportation sector. One of the 
qualifications listed for this position, when you were 
advertising for the position, was knowledge of emissions 
trading. This office does not, now, I'm talking about the 
Office of Transportation within EPA, have authority over the 
emissions trading program that Congress has approved. That's 
the acid rain program.
    Given that Congress has repeatedly rejected cap and trade 
program for greenhouse gases most recently by defeating the 
McCain-Lieberman cap and trade program that was an amendment to 
the Energy Policy Act of 2005 by a resounding 62 to 38 vote, 
why would the EPA have an official job announcement on its web 
site for a person with these qualifications?
    Also, under what specific program, regime or authority is 
the EPA expending funds as such in pursuit of greenhouse gas 
regulatory initiatives? If a position is not to pursue 
legislation then what is this guy supposed to do?
    Mr. Johnson. Mr. Chairman, I'm unfamiliar with that 
particular job description. I will get back to you for the 
record.
    [The referenced material can be found on page 74.]
    Senator Inhofe. Are you, Mr. Peacock?
    Mr. Peacock. No, I am not familiar with it, either.
    Senator Inhofe. It's disturbing, because if we have a 
policy that has been established by Congress or the absence of 
a policy to advertise for such a person, when there is nothing 
else that person could do other than to try to change that 
policy, I find that very disturbing. Why don't you do that for 
the record.
    I need also to mention, I meant to do this while Senator 
Boxer was here. She brought up this incident of the 25-year-old 
political appointee named George Deusch who told James Hansen, 
who is a scientist, that he couldn't speak on NPR. The New York 
Times picked it up and made a story of it. I think it probably 
should have been a big story. I think it was wrong. The guy is 
not there any more, he has resigned. I think that seemingly is 
under control.
    Later on, Senator Boxer said that this is part of a 
pattern. I would like to suggest, and would point out, and want 
to have a matter in this record, that during the Clinton 
administration, Vice President Gore and his allies ostracized 
climate skeptics with the Administration, which is one reason 
there aren't any of them left in the Administration, or not 
very many.
    In addition, Carol Browner and the EPA were criticized 
repeatedly for politicizing the science. At this point, I would 
like to submit for the record a list of quotes detailing those 
science abuses under the Clinton administration. Without 
objection, that will be the order.
    [The referenced material can be found on page 75.]
    Senator Inhofe. Senator Jeffords.
    Senator Jeffords. Mr. Johnson, I want to return to the 
issue of climate change.
    Senator Inhofe. We just did.
    [Laughter.]
    Senator Jeffords. As I noted previously, Dr. James Hansen 
has suggested that we may be nearing a tipping point on climate 
change that will be impossible to recover from and that will 
fundamentally change our planet. Do you think we've reached the 
tipping point, and if not, when will it happen, in your 
opinion?
    Mr. Johnson. Well, Senator, I don't know that we have 
reached that point. I have read a number of articles that there 
is great debate as to when, or if, it will happen. For me, and 
certainly for the U.S. Environmental Protection Agency, our 
charge and our interest and our piece of climate change is to 
focus our energies on Energy Star, Methane to Market, Climate 
Leaders Program and the Asia Pacific Partnership using 
technologies to help address the situation. That's what my 
focus is on.
    Senator Jeffords. A question on Toxic Release Inventory. 
The Toxic Release Inventory corporate disclosure program is 
widely hailed as one of the Nation's most successful 
environmental statutes. EPA recently proposed converting the 
annual toxic release report into an every other year report and 
allowing thousands of facilities to withhold details of their 
pollution volumes and waste management practices.
    Using EPA's estimates, facilities eligible for this burden 
reduction would save about $2.50 per day. Administrator 
Johnson, isn't it worth the cost of a Starbucks coffee to 
empower communities with information about toxic releases in 
their neighborhood?
    Mr. Johnson. Senator, you are absolutely right, it is 
important to empower citizens with the right to know and 
information. In fact, our proposal for the TRI or Toxic Release 
Inventory program, is to look for how can we improve the 
efficiency and the effectiveness of the program. We looked at 
two aspects.
    One is the thresholds of reporting, 500 versus 5,000 pounds 
of material, and the other is this issue of alternate year 
reporting. In the alternate year reporting, there are 
significant savings to not only the people who are filling out 
the forms, but to the Federal Government.
    Our intent is to still have a very important program, and 
have that information available. When you look at it, year to 
year, there are not a whole lot of changes, frankly, from year 
to year. We could save the taxpayers and save all of us money, 
money that could be reinvested in doing quality assurance, 
could be reinvested in providing much more analysis of what the 
information is. The information is still there.
    I think it's also important to note that for those highly 
hazardous materials, there are still requirements under EPCRA 
for that information to be provided to States and local 
responders, obviously for first responders information. We are 
looking at how to improve the efficiency and effectiveness of 
the program. With regard to the poundage, at least our 
estimates show that 99 percent of the information that is 
currently available, if we went to this new approach, would 
still be available, 99 percent, and save everyone a lot of 
money and time.
    Senator Jeffords. Thank you.
    Last year's EPA Funding bill rescinded $80 million in funds 
prior to the fiscal year 2000. Would you explain how EPA is 
allocating these cuts and ensuring that they do not come out of 
the fiscal year 2006 funding?
    Mr. Johnson. Senator, what we are currently doing is 
looking at our grants and our contracts as well. We have not 
made any decisions on that $80 million rescission. As soon as 
we have sorted through that, we would be happy to provide that 
information to yourself and the Chairman.
    [The referenced material can be found on page 77.]
    Senator Jeffords. The Clean Air question, although the 
Clean Air Act requires that attainment with any national 
ambient air quality standard must occur as expeditiously as 
practicable, EPA has recently proposed that compliance with any 
new particulate matter standard may not be required under 2020 
or 2023. Will you provide me with an analysis of how many 
health effects, including cases of premature mortality, will 
occur between 2010 and 2023 if compliance occurs under the 
timeframe set forth in EPA's recent notice?
    Mr. Johnson. I would be happy to do so. I think it's also 
important, Senator, to put it in the context of what the Clean 
Air Act provisions and the current regulations allow States to 
do with regard to the developing the State implementation 
plans. I think it's important to lay that process out. Then, 
because it's in that context, you come up with that kind of a 
date.
    [The referenced material can be found on page 77.]
    Senator Jeffords. I have a question on the Superfund. The 
proposed budget justification indicates that EPA plans to slow 
down the investigation of new Superfund sites and move the 
money to finish old ones. It is clear that an untold number of 
new sites would be stalled. These sites continue to be among 
the worst in the Country.
    How do you justify staling the progress on these sites if 
the new sites are not elevated in a timely manner? How will the 
Federal Government ensure that public health is protected?
    Mr. Johnson. That is a very important question, and our 
focus is making sure those sites that have or present those 
potential health risks are the first ones that are addressed. 
So those are our priority. In fact, we go through a process to 
make sure that is the priority for the new starts.
    We also know that there are a number that we would like to 
bring across the finish line as construction completes. As part 
of the President's budget, there is, as you noted, a $4 million 
increase, bringing the total to about $455 million for 
construction.
    Senator Jeffords. Thank you.
    Mr. Chairman, I notice that the retiring EPA Inspector 
General is in the audience. I would like to publicly thank 
Nikki Tinsley for a job well done and wish her well in her next 
adventure. Would you mind standing?
    [Applause.]
    Senator Inhofe. I would like to join Senator Jeffords in 
that. You were very helpful to us in our grants oversight, and 
we appreciate your tireless efforts in our behalf. Thank you so 
much.
    Do you have any other questions?
    Senator Jeffords. I don't think so.
    Senator Inhofe. OK. I was noticing when Senator Jeffords 
talked about James Hansen, being on the threshold of disaster, 
I think a lot of people really enjoy disaster. I think quite 
often, I was trying to remember, and I'm going from memory now, 
but when I was debating the McCain-Lieberman amendment, I saw 
showing charts of the front pages of Newsweek Magazine and Time 
Magazine of the late 1970's, when at that time everyone's 
concern was about the world coming to end because of a new ice 
age. It seems to me I remember his name at that time, but I am 
going to have to go back and look to be sure.
    I appreciate very much your being here and responding to 
the questions. We do have a lot of questions for the record.
    I would like to ask one thing. I would like to see a show 
of hands of those here who are not employees of the 
Environmental Protection Agency. It's eight. All right, thank 
you very much.
    [Laughter.]
    Senator Inhofe. We're adjourned.
    [Whereupon, at 11:24 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]

        Statement of Hon. Lincoln Chafee, U.S. Senator from the 
                         State of Rhode Island

    Good morning. I would like to thank Chairman Inhofe and Senator 
Jeffords for holding today's hearing on the important issue of the 
Fiscal Year 2007 Budget for the Environmental Protection Agency (EPA).
    I would also like to welcome EPA Administrator Stephen Johnson and 
Deputy Administrator Marcus Peacock who have been invited to testify on 
the 2007 Budget. I look forward to their testimony, and learning more 
about the President's proposals for funding several critical EPA 
programs under the jurisdiction of this committee and the Subcommittee 
on Fisheries, Wildlife, and Water, which I chair.
    First, let me say that I am pleased the FY 2007 EPA Budget 
recognizes the increased need for funding several priority programs, 
including the Safe Drinking Water Act State Revolving Loan Fund; the 
Brownfields Grant Program; the Diesel Emissions Reduction Grant 
Program; and the agency's ongoing focus toward drinking water system 
security through the Water Sentinel Initiative.
    The $26 million increase included in this year's budget for the 
Underground Storage Tank (UST) Program is also important. This new 
funding will provide much needed resources for States and Tribes, so 
that they are able to carry out existing oversight of the UST program, 
as well as new inspection requirements and increased prevention 
detection.
    As we are entering a tight budget year, and funds will need to be 
stretched farther than ever, there are several aspects of the EPA 
Budget that indicate difficult choices had to be made. Funding cuts 
were directed toward State and Tribal Assistance Grants; research; 
environmental education; and regionally-focused programs. I will work 
with my colleagues to address these funding decreases. However, the cut 
I find most troubling is the significant reduction in the Clean Water 
State Revolving Loan Fund (SRF) Program. Each year, we have witnessed 
significant declines in funding for this program, and this year is no 
different. The President's Budget requests $688 million for the Clean 
Water SRF, a 23 percent reduction over last year's enacted level, and a 
37 percent reduction from the $1.09 billion provided to the program 
only 2 years ago.
    Since the 1972 enactment of the Clean Water Act, nearly $250 
billion has been invested in our Nation's wastewater infrastructure. As 
a result, today our lakes, rivers, streams and bays are cleaner; public 
health is improved; and the fishermen, farmers, tourism industries, and 
local economies that rely upon clean water have all benefited.
    In September 2002, the EPA released a Clean Water and Drinking 
Water lnfrastracture Gap Analysis which found that there will be a $535 
billion gap between current spending and projected needs for drinking 
water and wastewater infrastructure over the next 20 years if 
additional investments are not made. With thousands of publicly owned 
treatment systems across the Country facing the financial implications 
of needing to upgrade aging and deteriorating infrastructure and 
failing facilities, the challenge of continuing to provide clean water 
is increasingly threatened. Despite the improvements made to our 
Nation's water quality over the past 3 decades, these gains may be lost 
unless the Federal Government collectively works with States and 
localities to address our burgeoning water infrastructure problems.
    In the months ahead, I will be joining several of my colleagues to 
urge the Senate to increase funding for the Clean Water SRF Program. I 
look forward to working with Administrator Johnson and Deputy 
Administrator Peacock to ensure that our limited federal dollars are 
allocated in the best way to carry out the mission of EPA to protect 
the public health and the environment.
    Thank you.
                                 ______
                                 
     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey

    Mr. Chairman, thank you for calling this hearing and giving us the 
opportunity to examine the President's proposed budget for the 
Environmental Protection Agency.
    A budget is supposed to be a blueprint for the future. It points 
the direction in which our Country will move.
    It tells us what kind of nation we are going to bequeath to our 
children and grandchildren.
    I'm afraid that this budget will take our Nation in the wrong 
direction.
    The Bush administration wants to slash 300 million dollars from the 
EPA.
    This includes a $203 million cut in funding to states for clean 
water. In other words, it will drastically reduce the ability of local 
communities to provide clean water for drinking, swimming and fishing.
    Based upon EPA's most recent estimates, almost 40 percent of our 
lakes and rivers are too polluted for swimming and fishing. Is this 
good enough for our grandchildren? Or can we do better?
    President Bush also wants to cut $35 million for State and local 
Clean Air programs, and four million dollars from research on the 
health risks posed by hazardous air pollution almost one-fourth of the 
total amount currently spent on such research.
    Mr. Chairman, air pollution is a serious problem.
    According to a study from the Harvard School of Public Health, as 
many as four percent of the deaths in the United States can be 
attributed to air pollution.
    Another study indicated that air pollution kills about thirty 
thousand Americans needlessly or prematurely every year.
    About six million children in our Country today are living with 
asthma including one of my grandchildren. There are many days, 
especially in the summer, when it is not safe for these children to 
play outside because the air is so unhealthy.
    Is this good enough for our grandchildren or can we do better?
    The Administration has also rejected, yet again, the principle that 
polluters should pay to clean up toxic sites in our communities.
    This means that fewer of the Nation's worst toxic waste sites will 
be cleaned up and when they are, the American taxpayers, not polluting 
industries, will foot the bill.
    That doesn't reflect the priorities of average American families. 
We can do better for our grandchildren.
    I hope we will. Thank you Mr. Chairman.
                                 ______
                                 
     Statement of Hon. Joseph I. Lieberman, U.S. Senator from the 
                          State of Connecticut

    The testimony of Administrator Johnson this morning concerning the 
Environmental Protection Agency budget for 2007 raises many troubling 
questions about the priorities of the Administration. Because my 
colleagues have already addressed many aspects of the EPA budget, I'll 
limit my statement to three specific aspects of particular importance.
    Long Island Sound Restoration funding.--Long Island Sound is home 
to 8,000,000 people. It is a national treasure, with 10 percent of the 
United States population living within 50 miles. Nevertheless, as 
Senator Clinton has stated, the 2007 budget contains no additional 
funding for Long Island Sound Restoration. Funding for 2007 is proposed 
to continue at a level of approximately $470,000.
    Over many years the Long Island Sound Study has made much progress 
in many aspects of Long Island Sound restoration. Nitrogen pollution 
has been reduced, more than 510 acres of habitat has been restored, and 
more than 60 miles of river migratory corridors have been restored for 
anadramous fish passage. Beyond these ecological measures of progress, 
conferences and workshops have educated and engaged the larger 
community in New York and Connecticut. Because of this past work, in 
part, the broader community has a much greater understanding of the 
importance of protecting the Sound.
    With passage of the Long Island Restoration Act last year, Congress 
authorized funding for Long Island Sound restoration work on a larger 
scale through FY 2010. The extended authorization, at a level of 
$40,000,000 per year, will provide grants to support restoration at 20 
carefully chosen sites in both New York and Connecticut.
    I am committed to protecting and restoring the ecological health of 
Long Island Sound. I look forward to working with my colleagues in the 
House to secure the funding necessary to continue Long Island Sound 
restoration, and to passing the Long Island Sound Stewardship Act.
    Energy Star.--The Energy Star program is broadly recognized as an 
effective tool for increasing the efficiency of United States energy 
use. In fact, the Administration cites the Energy Star program as a 
prominent component of the Climate Protection Program, the EPA response 
to the threat of climate change. Even in this hearing, the EPA has 
again offered the Energy Star program as evidence of the White House 
commitment to the threat of climate change. EPA literature claims that 
every dollar spent by EPA on its technology deployment programs, (of 
which Energy Star is one example), has reduced greenhouse gas emissions 
by more than 3.7 tons of CO<INF>2</INF>, and delivered more than $75 in 
energy bill savings. Thus, it makes no sense that the Energy Star 
budget has been cut by almost 10 percent for 2007. There is a 
disconnect between the EPA citation of Energy Star as evidence of the 
White House commitment to the threat of climate change, (and the 
efficacy of those voluntary climate measures), and the budget cut.
    Clean Water State Revolving Fund.--The Clean Water State Revolving 
Fund has been slashed by 23 percent from last year. These proposed cuts 
to the Clean Water fund follow years of inadequate funding. I joined 26 
other Senators this fall in signing a letter demanding that President 
Bush not cut funding for the Clean Water Fund in 2006. The importance 
of the Clean Water State Revolving Fund has been articulately 
recognized by committee members of both parties, and I look forward to 
working with them to adequately fund this important program.
                                 ______
                                 
Statement of Hon. Barack Obama, U.S. Senator from the State of Illinois

    Mr. Chairman, I would like to thank the nominees for appearing 
before the committee today and congratulate them on their nominations.
    I am also looking forward to the testimony of Administrator Stephen 
Johnson on the President's budget recommendations for EPA.
    As the Administrator knows, two of my major environmental 
priorities are restoring the Great Lakes and removing lead hazards that 
affect children. Both of these issues are very important to Illinoisans 
throughout my State.
    I have serious concerns about the lack of appropriate funding for 
these programs in next year's budget. I apologize in advance for not 
being able to stay for the entire hearing. However I plan to submit 
questions for the record and look forward to hearing from Mr. Johnson 
on the rationale for the President's budget recommendations.
    Thank you, Mr. Chairman.
                                 ______
                                 
  Statement of Stephen L. Johnson, Administrator, U.S. Environmental 
                           Protection Agency

    Mr. Chairman and members of the committee, I am pleased to be here 
today to discuss the Fiscal Year (FY) 2007 budget request for the 
Environmental Protection Agency (EPA). The President's FY 2007 budget 
request of $7.3 billion reflects the Administration's strong commitment 
to carrying out EPA's mission of protecting human health and the 
environment. The request demonstrates the President's continued 
commitment to providing the resources needed to address our Nation's 
highest priorities which include: continued support of homeland 
security, fighting the war on terror, and sustaining the recovery of 
our economy. At the same time, there is a need for discipline in our 
federal budget, and this request shows such discipline through its 
results-oriented approach.
    EPA's programs can work even more efficiently than they do today. 
We expect to be held accountable for spending the taxpayers' money more 
efficiently and effectively every year. To assist you, the 
Administration launched ExpectMore.gov, a website that provides candid 
information about programs that are successful and programs that fall 
short, and in both situations, what they are doing to improve their 
performance next year. I encourage the members of this committee and 
those interested in our programs to visit ExpectMore.gov, see how we 
are doing, and hold us accountable for improving.
    This FY 2007 budget incorporates the Administration's vision of a 
results-oriented and market-based approach to environmental protection 
while focusing on achieving measurable outcomes in the form of cleaner 
air, purer water, and better protected land. EPA will implement an 
environmental philosophy based on three principles in order to better 
fulfill its mission of protecting human health and the environment.
    The first principle is results and accountability. EPA must focus 
on environmental outcomes, not environmental programs. This budget 
request includes three programs that have delivered some of the 
greatest environmental successes. These three programs include: 
Superfund, for which $1.3 billion is requested, the Drinking Water 
State Revolving Fund for which $841.5 million is requested, and the 
Clean Water State Revolving Fund, for which $688 million is requested.
    The second principle is innovation and collaboration. This means 
the Agency will focus on collaborating with its state, tribal, local, 
and private enterprise partners. EPA will work with these partners to 
promote market-based strategies, advance stewardship opportunities, and 
invest in new and innovative technologies. The Great Lakes Program is 
an example of regional and international cooperation, and this budget 
requests over $70 million to clean and protect the Great Lakes. This 
request includes $50 million for the Great Lakes Legacy Act program, a 
$20 million increase, which will accelerate the cleanup of contaminated 
sediment that has accumulated for many years in the Great Lakes as a 
result of historical industrial sources.
    Using the best available science is the third principle which the 
Agency will utilize to fulfill its mission. Strong science and data are 
integral to making decisions about environmental issues. This budget 
supports the use of science and data by requesting $7 million for a 
Water Infrastructure initiative. These funds will provide EPA with the 
resources needed to conduct a major research effort which will reduce 
the cost of operation, maintenance, and replacement of old drinking and 
wastewater systems. The focus on the best science is also demonstrated 
in the request to fund the study of nanomaterials and their effect on 
human health. Additionally, our request supports the Integrated Risk 
Information System and Computational Toxicology programs to promote the 
best available science.
    Mr. Chairman, while the Agency has accomplished a great deal in its 
past efforts to clean the water, improve our air quality, and protect 
our lands, there is still much to be done. The environmental challenges 
that we face are enormously complex and expensive but by incorporating 
the Administration's environmental philosophy with its focus on 
results, I believe we can meet the challenges that lie ahead in an 
efficient and productive manner.
    This budget will enable us to carryout our goals and objectives as 
set forth in our Strategic Plan and help us to meet our challenges. It 
supports the Administration's environmental philosophy which is 
committing to achieving measurable outcomes and results while carrying 
out EPA's mission of protecting human health and the environment.

                           HOMELAND SECURITY

    Homeland Security is a top priority for the Administration and an 
integral component of this budget. For FY 2007, the President requests 
$184 million for Homeland Security. This is an increase of $55 million 
over FY 2006 enacted levels. EPA plays a leading role in protecting 
United States citizens and the environment from the effects of attacks 
that release chemical, biological, or radiological agents. Following 
the cleanup and decontamination efforts of 2001, EPA has focused on 
ensuring we are prepared to detect and recover quickly from deliberate 
incidents. The emphasis for FY 2007 is on a few key areas: 
decontamination of threat agents, ensuring trained personnel and 
standardized lab capabilities to be called upon in the event of an 
emergency, and protecting our water and food supplies.
    Protecting our water supplies is imperative and this budget 
requests $42 million for improved water security including the 
WaterSentinel pilot program. The WaterSentinel pilot program 
demonstrates how EPA has taken a leading role in protecting the 
citizens of this Nation. This program is designed to monitor and 
protect the Nation's drinking water infrastructure and will provide 
early warning of any intentional drinking water contamination. 
WaterSentinel consists of: enhanced physical security monitoring, water 
quality monitoring, routine and triggered sampling of high priority 
contaminants, public health surveillance, and consumer complaint 
surveillance. In FY 2007, EPA will establish, in selected cities, 
additional pilot contamination warning systems with water utilities 
through water intensive water monitoring and other surveillance. The 
addition of water utilities in FY 2007 will allow for more 
comprehensive testing of contaminant warning systems. Ultimately, an 
expansion of the number of utilities will serve to promote the adoption 
of WaterSentinel within the water sector, as functioning warning 
systems among several utilities of potentially divergent configurations 
will afford a more compelling outcome than just one utility. By the end 
of FY 2007, EPA expects to begin disseminating information learned from 
the pilots to other water utilities.

                  CLEAN AIR AND GLOBAL CLIMATE CHANGE

    The FY 2007 President's Budget requests $932 million for the Clean 
Air and Global Climate Change goal. EPA implements this goal through 
its national and regional programs which are designed to provide 
healthier air for all Americans and protect the stratospheric ozone 
layer while also minimizing the risks from radiation releases, reducing 
greenhouse gas intensity, and enhancing science and research. In order 
to carry out its responsibilities, EPA utilizes programs that include 
many common elements, including: setting risk-based priorities; 
facilitating regulatory reform and market-based approaches; partnering 
with state, Tribal, and local governments, non-governmental 
organizations, and industry; promoting energy efficiency; and utilizing 
sound science.
    The Clean Air Rules issued over the past two years are a suite of 
actions that will dramatically improve America's air quality. These 
rules address the transport of pollution across state borders. In FY 
2007, we will continue to implement these rules which provide national 
tools to achieve significant improvement in air quality and the 
associated benefits of improved health, longevity and quality of life 
for all Americans. Taken together, they will make significant air 
quality improvement in years to come.
    EPA's Climate Protection Programs continue to assist in reaching 
the President's goal of reducing greenhouse gas intensity by 18 percent 
by the year 2012. The United States has joined five other countries 
(Australia, China, India, Japan, and the Republic of Korea) in the 
Asia-Pacific Partnership for Clean Development and Climate. In 2007, 
EPA requests $5 million to support this partnership which will focus on 
deploying cleaner technologies in partner countries in order to reduce 
poverty, enhance economic growth, improve energy security, reduce 
pollution, and reduce greenhouse gas intensity.
    This FY 2007 budget request includes $50 million for the new Diesel 
Emission Reduction Grants Program authorized by the 2005 Energy Policy 
Act. The program will provide grants for projects that reduce diesel 
emissions from existing engines by using cleaner fuels, retrofitting 
them with emissions reduction technology, or replacing them with newer, 
less-polluting engines.

                          CLEAN AND SAFE WATER

    The FY 2007 President's Budget requests $2.7 billion to implement 
the Clean and Safe Water goal through programs designed to improve the 
quality of surface water and drinking water. EPA will continue to work 
with its state, Tribal, and local partners to achieve measurable 
improvements to the quality and safety of the Nation's drinking water 
supplies as well as the conditions of rivers, lakes, and coastal 
waters.
    Also in FY 2007, EPA will continue to work with states and tribes 
on implementing core Clean Water programs, including innovations that 
apply programs on a watershed basis. Water quality monitoring is a top 
priority in protecting and improving water quality and will provide the 
scientifically defensible water quality data that is necessary to 
defend our Nation's waters. Additionally, the Agency will support the 
protection and restoration of wetlands through its own programs such as 
Section 319 and State Revolving Fund, as well as other Federal programs 
such as those administered by Fish and Wildlife Service.
    The Budget also continues the Administration's commitments to the 
Clean Water and Drinking Water State Revolving Funds (SRFs). The Budget 
provides $688 million for the Clean Water SRF, keeping the program on 
track to meet the cumulative capitalization commitment of $6.8 billion 
for 2004-2011. This funding level will allow the Clean Water SRF to 
provide $3.4 billion in loans annually, even after Federal 
capitalization ends, and will ensure communities have access to capital 
for their wastewater infrastructure needs.
    The Budget proposes $841.5 million for the Drinking Water State 
Revolving Fund, a $4 million increase over the 2006 enacted level. This 
request keeps the administration's commitment to provide sufficient 
capitalization grants to allow the Drinking Water SRF to provide $1.2 
billion annually, even after Federal capitalization ends.

                  LAND AND PRESEVATION AND RESTORATION

    The Agency's FY 2007 budget request to Congress implements the Land 
Preservation and Restoration goal through EPA's land program activities 
which promote the following themes: Revitalization, Recycling, Waste 
Minimization, and Energy Recovery; Emergency, Preparedness and 
Response, and Homeland Security.
    In FY 2007, this goal will include new responsibilities as EPA 
takes on an important role in implementing the Energy Policy Act of 
2005. Energy issues are increasingly tied to quality of life and 
economic competitiveness in this Nation. The President recognizes the 
significance of dealing with these energy issues and it is reflected in 
the 2007 budget request. This budget includes $38 million for State and 
Tribal Assistance Grants to support EPA's underground storage tank 
(UST) program. This is a $26 million increase over FY 2006 enacted 
levels. The UST program will continue working with states to implement 
the base UST program as well as the new provisions of the EPAct. The 
EPAct provisions focus on preventing future releases from USTs and 
include inspections, operator training, delivery prohibition, secondary 
containment, and financial responsibility.
    Revitalized land that was once contaminated can be used in many 
proactive ways, including creation of public parks, the restoration of 
ecological systems, the establishment of multi-purpose developments, 
and the establishment of new businesses. EPA uses its cleanup programs 
(including Superfund, RCRA, Corrective Action, Brownfields, Federal 
Facilities, and Underground Storage Tanks) to facilitate the cleanup 
and revitalization of contaminated properties. In FY 2007, the Agency 
will continue to promote the minimization of waste. EPA's municipal 
solid waste program will implement a set of coordinated strategies, 
including source reduction (also called waste prevention), recycling 
(including composting), combustion with energy recovery, and 
landfilling. The Agency will work with other Federal Agencies within 
the National Response System to respond to incidents which involve 
accidental or intentional releases of harmful substances and oil.
    Enforcement activities are a significant component of the Land 
Preservation and Restoration goal which support the Agency's ability to 
clean up the majority of the most hazardous sites in the Nation. 
Enforcement allows the Agency to collect funding from Potentially 
Responsible Parties (PRPs) to finance site-specific cleanup. These 
accounts segregate site-specific funds obtained from responsible 
parties that complete settlement agreements with EPA. The Agency will 
continue to encourage the establishment and use of these Special 
Accounts within the Superfund Trust Fund in order to finance cleanups. 
These funds create an incentive for other PRPs to perform cleanup work 
they might not otherwise be willing to perform and the result is that 
the Agency can clean up more sites and preserve appropriated Trust Fund 
dollars for sites without viable PRPs.

                   HEALTHY COMMUNITIES AND ECOSYSTEMS

    In FY 2007, EPA's Budget carries out the Healthy Communities and 
Ecosystems goal via a combination of regulatory, voluntary, and 
incentive-based programs. A key component of the Healthy Communities 
and Ecosystems goal is to reduce risks to human health and the 
environment through community and geographically-based programs. Some 
of these community and geographically-based programs include: 
Brownfields, Wetlands Protection, and programs that concentrate on our 
nation's large bodies of water such as the Great Lakes, Gulf of Mexico, 
and Chesapeake Bay.
    Community and Geographically-based programs comprise one of the 
most important components of the Healthy Communities and Ecosystems 
goal. In FY 2007, the Agency requests $163 million for the Brownfields 
program to restore abandoned contaminated properties. This is a slight 
increase over the FY 2006 enacted level for Brownfields. The Chesapeake 
Bay program also supports the Healthy Communities and Ecosystems goal. 
This program protects the Bay which needs improved water quality, 
overall protection, and restoration. This budget requests $26 million 
for cleaning up and protecting the Chesapeake Bay. This request is $4 
million over the FY 2006 enacted level. Community Action for a Renewed 
Environment (CARE) is another program which is vital to achieving the 
goal of Healthy Communities and Ecosystems. This program offers many 
communities the opportunity to improve their environment through 
voluntary actions.
    Another major focus of the Healthy Communities and Ecosystems goal 
is identifying, assessing, and reducing the risks from chemicals and 
pesticides. In FY 2007, EPA will continue identifying and assessing 
potential risks from pesticides. In addition, EPA will set priorities 
for addressing pesticide and chemical risks, strategize for reducing 
such risks, and promote innovative and alternative measures of pest 
control. Also related to reducing pesticide and chemical risk, EPA will 
continue its Homeland Security activities which focus on identifying 
and reviewing proposed pesticides for use against pathogens of greatest 
concern for crops, animals, and humans in advance of their potential 
introduction. EPA will work closely with other Federal agencies and 
industry in order to carry out these activities.

                COMPLIANCE AND ENVIRONMENTAL STEWARDSHIP

    EPA's FY 2007 Budget Request of $540 million for the enforcement 
program helps realize the Compliance and Environmental Stewardship goal 
through programs that monitor and promote enforcement and compliance 
with environmental laws and policies. In FY 2007, EPA will continue 
with its strong commitment to compliance and enforcement through 
collaborating with its state, Tribal, and local government partners. 
The Agency also will support stewardship through direct programs, 
collaboration and grants for pollution prevention, pesticide and toxic 
substance enforcement, environmental information, and creation of an 
environmental presence in Indian Country.
    Compliance assistance and enforcement are critical components of 
the Compliance and Environmental Stewardship goal and EPA supports 
these components by assuring requirements are clearly understood and by 
assisting industry in identifying cost-effective compliance options. In 
FY 2007, EPA will use a two-part approach in ensuring compliance 
assistance and enforcement. First, EPA will help clarify environmental 
laws and regulations for regulated communities. The second step is for 
the Agency to reduce noncompliance through inspections, monitoring, and 
via enforcement when needed.
    In FY 2007, EPA also will focus on promotion of Environmental 
Stewardship. Environmental Stewardship is a concept that seeks more 
than just minimal compliance with environmental regulations. Instead, 
it promotes voluntary environmental protection strategies in which 
States, Tribes, communities, and businesses are invited to participate. 
EPA will promulgate stewardship by educating, providing incentives, 
tools and technical assistance to states, Tribes, communities, and 
businesses. EPA will implement a performance-oriented regulatory system 
that allows flexible strategies to achieve measurable results.
    In FY 2007 EPA will continue to work with industrial sectors to set 
pollution reduction goals, provide tools and technical assistance, and 
identify innovative strategies to reduce risks. In the tribal GAP 
program, the Agency will support approximately 517 federally recognized 
Tribes in assessing environmental conditions on their lands and 
building environmental programs tailored to their needs.
    Also in FY 2007, the agency will continue to fortify the 
Environmental Information Exchange Network (Exchange Network). In FY 
2007, EPA, states, Tribes, and territories will continue to re-engineer 
data systems so that information previously not available or not easily 
available can be exchanged using common data standards. By the end of 
2007 all fifty states and approximately ten Tribes will have 
established nodes on the Exchange Network and will be mapping data for 
sharing with partners and submission to EPA.
    In 2007, EPA also will continue its work with Performance Track by 
recognizing and rewarding private and public facilities that 
demonstrate strong environmental performance, beyond current 
requirements. To provide incentives to business to participate, EPA 
continues to implement and develop new regulatory incentives at the 
state level. It will support and leverage state environmental 
leadership programs by aligning Performance Track with at least 20 
State programs and double the measurable environmental improvements 
achieved to date.
    In summary, this budget will enable us to carry out the goals and 
objectives as set forth in our strategic plan, to meet challenges 
through innovative and collaborative efforts with our state, tribal, 
and private entity partners, and to focus on accountability and results 
in order to maximize environmental benefits.
    The requested resources will help us better understand and solve 
environmental problems using the best available science and data, and 
support the President's focus on the importance of Homeland Security 
while carrying out EPA's mission.
                                 ______
                                 
     Responses by Stephen L. Johnson to Additional Questions from 
                            Senator Clinton

                      CONFORMITY GUIDANCE FOR CMAQ

    Question 1. Last year, Chairman Inhofe and I worked together on a 
provision included in the Highway bill to make diesel retrofits on non-
road vehicles eligible for funding under the Congestion Mitigation and 
Air Quality, or CMAQ program. The amendment was designed to give state 
departments of transportation and metropolitan planning organizations 
an incentive rather than a mandate to use CMAQ to fund diesel 
retrofits. This incentive would arise from guidance that EPA agreed to 
issue which would enable MPOs to get conformity credit with the 
emission reductions achieved by funding diesel retrofits with CMAQ. 
When will that guidance be issued and what is being done to ensure that 
it provides a sufficient incentive for MPOs to use their CMAQ 
allocation to fund diesel retrofits?
    Response. EPA issued a draft version of State Implementation Plan 
(SIP) and conformity retrofit guidance for stakeholder comment in 
December 2005 that offered two options for using nonroad retrofit 
reductions to meet transportation conformity requirements. Since then, 
we have been working with representatives from those stakeholder 
organizations (AASHTO, AMPO, State and Territorial Air Pollution 
Program Administrators, and environmental organizations) to resolve 
issues they have raised. As a result, we are currently redrafting the 
guidance to better meet their needs. This draft will include a model 
rule that States could directly incorporate as a SIP revision to allow 
trading of CMAQ-funded nonroad retrofit reductions for use in 
conformity determinations. We are also adding detailed information on 
the steps needed to implement the options in the guidance. We plan to 
have this guidance available, following stakeholder review, in late 
spring of 2006.

                   LOCOMOTIVE AND MARINE ENGINE RULES

    Question 2. Locomotive and marine engines today are legally 
permitted to emit pollutants at a much higher rate than trucks, buses, 
and non-road diesel engines. A typical train, for example, will emit as 
much particulate pollution over its lifetime as 500 trucks. EPA 
promised in 2004 to issue standards by mid-2005 to reduce emissions 
from locomotives and marine engines, but has not yet acted. According 
to a recent study, emissions from these engines cause nearly 4,400 
premature deaths, 5,700 nonfatal heart attacks, and over 73,000 asthma 
attacks in children. When will EPA take action to bring these dangerous 
unregulated sources of pollution under control?
    Response. We agree that locomotive and marine diesel engines are 
major contributors of harmful emissions. To address this significant 
environmental problem, the Agency issued an Advance Notice of a 
Proposed Rulemaking in May 2004 stating our intention to pursue 
stringent standards for these engines. This program continues to be a 
high priority for the Agency and we are working toward the development 
of a proposal to address this source of emissions.

                          GREAT LAKES FUNDING

    Question 3a. I am very disappointed that the President's budget 
fails to adequately fund Great Lakes restoration actions. In May 2004, 
the President set in motion the ``Great Lakes Regional Collaboration'', 
which brought together 1,500 leaders at all levels of government and 
from all the relevant stakeholder groups to come up with a plan of 
action for the most pressing Great Lakes problems. That process 
produced a plan last December that had buy-in from across the Great 
Lakes region.
    I am very pleased that Senator Voinovich is taking the lead on a 
hearing that will take place in this committee this spring to look at 
how we can move that plan forward.
    But in discussing the budget here today, it is impossible to ignore 
the cuts to funding for activities endorsed by the Great Lakes Regional 
Collaboration.
    For example, the GLRC restoration plan recommended that the Clean 
Water State Revolving Fund be funded at $1.35 billion. Yet the 
Administration asks for over $660 million less.
    The restoration plan asks for increased investments in non-point 
pollution programs at EPA. This budget cuts those programs by $10 
million.
    And the Great Lakes National Program Office's budget is cut even 
though they are being asked to do more.
    In fairness, the budget does fund the Great Lakes Legacy Act at 
nearly $50 million. That's a sizable increase, but cleaning up 
contaminated sediments, as this Act provides for, is just one piece of 
the Great Lakes puzzle. The budget gives with one hand and takes away 
with the other.
    Over 60 Great Lakes scientists reported in early December that the 
Great Lakes are near a tipping point, and stated that, ``we need to 
start treating the lakes holistically, and not just as a series of 
isolated problems to be solved one at a time.''
    Mr. Administrator, please tell this committee how this budget--
taken as a whole--will benefit Great Lakes restoration and protect the 
world's largest source of fresh surface water?
    Response. The Administration shares your interest in protecting the 
Great Lakes and therefore proposed approximately $70 million for EPA's 
Great Lakes activities, an approximately $20 million increase over 2006 
enacted. As you noted, this request funds sediment cleanup at its 
authorized level. The Federal Great Lakes Interagency Task Force 
coordinates Great Lakes programs and projects, shares information 
pursuant to the Great Lakes, and carries out other functions as 
required by the Great Lakes Executive Order. The task force recently 
identified a number of substantive actions the Administration will take 
in support of Great Lakes restoration. All parties recognize existing 
economic realities impose limits on what can be accomplished 
immediately; consequently, the Administration's response to the 
strategy is focused on what can be accomplished within current budget 
constraints. Through effective targeting of base programs, and through 
48 near-term commitments, EPA and its partners will continue to 
demonstrate advances in Great Lakes environmental protection.
    Question 3b. How does this budget meet the needs that were 
identified by people from the region who were part of the Great Lakes 
Regional Collaboration that was started by the President?
    Response. Based on an Interagency Task Force report to the 
President, we estimate that each year the Federal Government spends 
approximately half a billion dollars in the Great Lakes region on 
programs that directly benefits water quality.\1\ When the President 
signed the Great Lakes Executive Order in May 2004, it was with the 
hope that all levels of government would come together to better 
coordinate Great Lakes activities, policies, and projects in order to 
address nationally significant environmental and natural resource 
issues involving the Lakes. The Administration is working with all of 
our partners to continue to protect the Great Lakes in the coming 
years, using the Collaboration's strategy as a guide.
---------------------------------------------------------------------------
    \1\ http://www.epa.gov/grtlakes/collaboration/final	rttp	
10282005.pdf (page 47 of the report)
---------------------------------------------------------------------------
    This budget for EPA, as you noted, includes essentially full 
funding of the authorized levels in the Great Lakes Legacy Act for 
cleanup of the Areas of Concern, approximately $50M. Other EPA 
commitments in response to the Strategy include:

    <bullet> joining with the States and other Federal Government 
partners in an equally shared effort to develop plans that will 
restore, enhance, and protect 200,000 acres of wetlands in the Great 
Lakes
    <bullet> working with State and local partners to develop a 
standard to help identify sources of contamination at beaches
    <bullet> committing $25M to clean up contaminated sediments in 
Ohio's Ashtabula River
    <bullet> issuing improved policy guidance on managing peak flows at 
sewage treatment plants to restrict dumping, reduce overflows, and 
increase pollution prevention efforts.

    The Great Lakes effort is larger than just EPA and also includes:

    <bullet> through USDA, conducting rapid watershed assessments on 
critical watershed areas to collect natural resource data, and applying 
critical conservation on the ground.
    <bullet> supporting establishment in Chicago of a national Alliance 
for Water Efficiency--a national clearing house and advocate for water 
efficiency research, evaluation, and education.
    <bullet> supporting authorization to make permanent the 
demonstration barrier on the Chicago Sanitary and Ship Canal.
    <bullet> through the Army Corps of Engineers and EPA, improving and 
streamlining the general permitting process for wetlands restoration 
projects in the Great Lakes to advance water quality, habitat 
protection, and other values.
    <bullet> a portion of an increase in funding of $1.5M for NOAA's 
Aquatic Invasive Species Program. (These funds will be spread 
nationwide, and a portion of this increase is envisioned to support 
more of the research and activities needed to address the growing issue 
of invasive species in the Great Lakes.)
    <bullet> continuing construction of the McCook Reservoir flood 
damage reduction project by the Army Corps of Engineers that will 
virtually eliminate the backflows of raw sewage to Lake Michigan, 
reducing beach closings, and enhancing coastal health.
    <bullet> continued construction by the Army Corps of Engineers of a 
facility for the safe and effective management of more than 4 million 
cubic yards of contaminated sediments from the Indiana Harbor 
navigation channel and adjacent areas.
    <bullet> a portion of an increase for the North American Wetlands 
Conservation Fund, which will help wetland restoration in the Great 
Lakes.

                       RODENTICIDES (RAT POISON)

    Question 4. What are EPA's specific plans, and timing, to comply 
with the court order to protect children from accidental exposures to 
rodenticides?
    Response. In 2001, EPA decided that it would not require bittering 
agents and indicator dyes across the board in all rodenticide products. 
EPA's decision was based, in part, on the recommendations of a broad 
stakeholder workgroup convened to evaluate potential actions to reduce 
rodenticide risks to children, which included representatives from EPA, 
the Centers for Disease Control (CDC), the U.S. Department of 
Agriculture (USDA), State officials, the medical community, public 
interest groups, the pesticide industry, and members of the general 
public. The decision reflected the public health risks posed by rodents 
and significant concerns expressed by the public health community and 
the CDC that requiring all products to contain bittering agents and 
indicator dyes could hinder the effectiveness of rodenticides to 
control rodent populations in certain circumstances. In August 2005, 
the district court issued an order affirming EPA's decision with 
respect to indicator dyes, but reversing the Agency's decision with 
respect to bittering agents and remanding that decision to EPA for 
further consideration. Following the court's order, and in connection 
with the Agency's ongoing work on rodenticides, EPA has been pursuing 
several mitigation strategies to make rodenticide products safer for 
use around children.
    EPA is evaluating the advantages and disadvantages of the possible 
mitigation approaches, and will consult with its Federal partners, 
including the CDC, before issuing its decision. The Agency anticipates 
publishing its mitigation decision, along with an assessment of the 
benefits and impacts of the new safety requirements, for public comment 
during the fall of 2006. EPA's decision will ensure that rodenticide 
products are both effective for controlling rodents and safe for use in 
homes with children. In the interim, EPA is encouraging rodenticide 
manufacturers to voluntarily implement additional safety precautions to 
reduce the potential for a child to be exposed. For example, the Agency 
is encouraging registrants to voluntarily incorporate bittering agents 
into certain formulations where decreasing the risk of exposure is 
important. To date, over half of the rodenticide products currently on 
the market contain a bittering agent.
                                 ______
                                 
     Responses by Stephen L. Johnson to Additional Questions from 
                             Senator Inhofe

    Question 1. In the President's budget request, funding for civil 
and criminal enforcement will increase by $3 million and $500,000 
respectively. How will you ensure that EPA regions will enforce Federal 
environmental laws consistently and fairly across the country?
    Response. EPA is committed to ensuring compliance with the Nation's 
environmental laws and to improve public health and the environment in 
the fairest manner possible. EPA has in place a framework of common 
fundamental principles and management mechanisms to ensure that in 
general terms violators in similar circumstances receive similar 
treatment under Federal environmental laws. EPA's goal is fair and 
consistent enforcement of Federal environmental laws as balanced with 
the flexibility to respond to regional-specific environmental problems.
    Consistent civil and criminal enforcement is ensured through 
multiple factors:

    <bullet> The civil and criminal programs coordinate closely to 
ensure the appropriate response to the environmental violation is 
taken, whether civil, criminal or other response.
    <bullet> Fundamental principles of enforcement are embodied in 
statutes, regulations and policies that specify appropriate response 
criteria for EPA personnel.
    <bullet> With respect to criminal enforcement, the fields agents 
investigating environmental crimes are part of a nationally managed 
program, with Headquarters oversight, including periodic docket reviews 
and office audits to ensure consistency with investigatory discretion 
guidance and enforcement priorities.
    <bullet> EPA's National and Regional Enforcement Priorities and 
initiatives focus enforcement efforts on the highest priority 
environmental issues-consistently and appropriately depending on the 
regional need.
    <bullet> While consistent enforcement is our goal, EPA expects 
variations to occur in decisions to bring and settle enforcement 
actions due to a variety of factors, including the duration and 
severity of the violations; the nature and viability of the violator; 
the weight of evidence; the availability of prosecutorial resources and 
other litigation considerations.

                         OVERALL FUNDING LEVELS

    Question 2. As I stated in my opening remarks, the budget looks 
like a $310 million cut on the surface, but when one inspects it 
further, they find that only two areas receive any real cuts, the clean 
water SRF and Congressional priorities. These cuts will be largely 
restored by Congress. This means one of two things: Congress will 
either appropriate more money for EPA than the Administration is 
requesting or Congress will have to make real cuts to the rest of the 
budget. I would like to reiterate the request I made at the hearing 
that you review the entire budget and knowing that the earmarks will 
likely be put back and that some if not all of the SRF cut will be 
restored, what other programs can be reduced for a total reduction in 
EPA's budget of $310 million? Please provide a specific list of 
programs totaling $310 million that can be eliminated.
    Response. I understand the importance of this issue to the Chair. 
Nonetheless, the President's budget includes the Administrator's 
formal, proposed budget savings. We believe additional reductions 
elsewhere in EPA could impact the ability of the Agency to meet stated 
performance goals. We share your interest in carefully managing 
taxpayer dollars, identifying efficiencies, and trying to eliminate 
inefficiencies in the Agency.

                         $80 MILLION RESCISSION

    Question 3. The 2006 Interior and Environment appropriation bill 
included an $80 million rescission of unobligated funds provided in 
appropriation bills in 2000 and prior. This provision allowed the 
Administration broad discretion in determining from which programs to 
take funding. When will you finalize exactly which programs will be 
subject to the rescission and what amount? And how are you making these 
decisions. Are there additional funds that have remained unobligated 
for numerous years that could be rescinded this year?
    Response. The Agency has been working intensively to examine the 
status of contracts, grants and interagency agreements that have 
expired to determine whether the balance remaining can be rescinded. 
There have been a number of legal and statutory issues to work through 
in addition to the financial review. The majority of determinations 
will be made regarding affected programs and amounts as soon as 
possible, but certain final determinations must wait until September 1, 
2006 to meet requirements under the law. We have included funds that 
have remained unobligated for some time in our review to identify the 
$80 million rescission.

                              CLEAN WATER

    Question 4. Last year, the Administration published a rule 
reiterating years of federal policy that pesticide sprayers did not 
have to have NPDES permits for pesticides sprayed in accordance with 
their FIFRA approved labels. As you know this is a very important issue 
to me and in fact, I have introduced legislation to codify the policy 
with some important modifications in statute. What is the status of the 
rule and when do you expect it to become final?
    Response. EPA issued a final Interpretive Statement and Proposed 
Rule on the Application of Pesticides to Waters of the United States in 
Compliance with FIFRA as a revision to the NPDES regulations on 
February 1, 2005. The circumstances addressed under the proposed 
regulations are:
    (1) The application of pesticides directly to waters of the United 
States in order to control pests. Examples of such applications include 
applications to control mosquito larvae, aquatic weeds, or other pests 
that are present in the waters of the United States.
    (2) The application of pesticides to control pests that are present 
over waters of the United States, including near such waters, that 
results in a portion of the pesticides being deposited to waters of the 
United States; for example, when insecticides are aerially applied to a 
forest canopy or when pesticides are applied over, including near, 
water for control of adult mosquitoes or other pests.
    EPA is reviewing comments on the Proposed Rule, selecting options 
to address concerns raised by the commenters, and developing final 
regulatory language. The Agency expects to publish the final rule by 
October 2006.

            CLIMATE RESEARCH: GLOBAL CHANGE RESEARCH PROGRAM

    Question 5. The United States Global Change Research Program is 
composed of thirteen federal agencies and charged with identifying 
natural and human-induced sources of climate change. How is EPA's 
contribution to this program unique and how is EPA's program avoiding 
duplication of effort?
    Response. EPA's global change research program is closely 
coordinated with the U.S. Climate Change Science Program (CCSP), whose 
mission and vision is articulated in its 2003 Strategic Plan.\1\ CCSP 
brings together senior managers representing all 13 member agencies to 
integrate the planning and implementation of agencies' programs, reduce 
overlaps, identify and fill programmatic gaps, and synthesize products 
and deliverables generated under the auspices of the larger Federal 
effort.
---------------------------------------------------------------------------
    \1\Climate Change Science Program, Strategic Plan for the U.S. 
Climate Change Science Program (2003). Available at <http://
www.climatescience.gov/Library/stratplan2003/final/>.
---------------------------------------------------------------------------
    Using its strategic plan as a guiding framework to avoid 
redundancy, CCSP annually conducts a science planning process to 
identify the highest priority research, observation, and decision-
support needs. As a result of this planning, EPA's program positions 
itself to support both the goals identified in CCSP's Strategic Plan 
and specific CCSP products that meet the near-term objectives of the 
President. For example, CCSP has tasked EPA to lead production of three 
Synthesis and Assessment Products (sea level rise, ecosystem 
adaptation, and socioeconomic and environmental impacts of climate 
variability). In its capacity as the Federal lead in these areas, the 
program coordinates closely with other agencies to avoid duplication in 
achieving CCSP's common goals. EPA is also conducting planned research 
to support seven other S&A products, which are being coordinated by 
other agencies.
    The emphasis of EPA's CCSP research is on evaluating the potential 
consequences of and adaptation strategies for global change, as opposed 
to the causes of global changes or ways to mitigate those causes. The 
program directly supports EPA's unique mission to protect the 
environment by focusing on understanding the implications of global 
change for air quality, water quality, ecosystems, and human health in 
the United States. For example, the program's assessment of climate 
change's potential effects on air quality (unique within CCSP) directly 
supports EPA's Office of Air and Radiation (OAR), which must ensure 
that states and cities can meet EPA-set air quality standards in the 
future.

                            CLIMATE RESEARCH

    Question 6. EPA budget documents for FY07 under the category 
Climate Protection Program show a $6.1 million reduction from FY 06 
levels (from $18.7 million in 2006 to $12.6 in 2007). It is my 
understanding that this reduction does not come from the agency's 
climate change research program under the Office of Research and 
Development, but solely from the Clean Automotive Technology Program 
under the Office of Air and Radiation. Moreover, this reduction 
reflects a phase down in Federal investment in this program as a result 
of the successful transfer to the private sector of the hybrid and 
clean diesel technologies developed under this program and adopted by 
industry. Is this correct?
    Response. It is correct that the President's FY 2007 budget request 
does include a $6.1 million reduction under the category Climate 
Protection Program and that this reduction is directed at the Clean 
Automotive Technology program under the Office of Air and Radiation. It 
is correct that this reduction reflects a phase down in Federal 
investment in hydraulic hybrid technology development as a result of 
the transfer to the private sector of hybrid and clean diesel 
technologies.

                         DRINKING WATER FUNDING

    Question 7. The Administration has established a goal of ending 
Federal contributions to the Drinking Water SRF once the fund revolves 
at $1.2 billion per year which should occur, in your estimation, in 
2018. As you know I have been quite concerned about the number of 
drinking water regulations that have been imposed on communities. Does 
the $1.2 billion account for the costs imposed by the arsenic rule, the 
two disinfection byproduct rules, the two long term surface water 
treatment rules and the upcoming ground water rule? What percent of the 
nationwide need will the $1.2 billion provide in 2018? Further, EPA 
estimates that 17 percent of the current need is regulatory. Does the 
current revolving level of the SRF cover that 17 percent?
    Response. According to EPA's 2003 Drinking Water Infrastructure 
Needs Survey, an estimated $276.8 billion is needed over a 20-year 
period to install, upgrade, and replace the infrastructure on which the 
public relies for safe drinking water. Assuming steady growth that 
equates to a need of approximately $13.8 billion each year, of which 
approximately 9 percent would be provided through annual loan 
disbursements of the Drinking Water State Revolving Funds (SRFs). The 
States' SRFs will continue to disburse average annual loans of $1.2 
billion over the long term after federal capitalization ceases in 2018.
    Although all of the infrastructure projects in the assessment 
promote the public health objectives of the SDWA, $231.7 billion (83.7 
percent) of the total national need is not driven by compliance with 
any particular regulation. These non-regulatory needs include routine 
installation, upgrade and replacement of basic infrastructure. These 
needed investments are borne by the water systems, regardless of 
regulation, to properly maintain each system's infrastructure which is 
not only economical in the long run but also is protective of public 
health. The other $45.1 billion (16.3 percent) of the total national 
need is directly attributable to specific SDWA regulations. This 
amounts to a direct regulatory need of approximately $2.3 billion per 
year, of which slightly over half could be met through annual loan 
disbursements from a fully-capitalized Drinking Water SRF. Most of 
these regulatory-related needs, $35.2 billion, are needed to address 
existing SDWA regulations (including the arsenic rule which is 
effective in January 2006). Projects to address microbiological 
contamination account for 86 percent, or $30.2 billion, of the needs to 
meet existing SDWA regulations.
    The regulatory need identified also includes $9.9 billion in costs 
associated with proposed or recently finalized regulations. These 
costs, which were taken from economic analyses prepared as part of each 
rule-making, include $3.2 billion to address acute contaminants under 
the final Long Term 1 and Long Term 2 Enhanced Surface Water Treatment 
Rules (LT1 and LT2), the proposed Ground Water Rule, and the final 
Filter Backwash Recycling Rule. $6.7 billion is needed to meet 
requirements related to regulations for chronic contaminants, which 
include the final Stage 1 and Stage 2 Disinfectants/Disinfection 
Byproducts Rules (Stage 1 and Stage 2 DBPR), the Radon Rule, and the 
final Radionuclides Rule.
    More than $7.5 billion has already been provided to capitalize the 
DWSRF since the 1996 SDWA Amendments. Total DWSRF funding available for 
loans since 1997, reflecting loan repayments, state match dollars, and 
other funding sources, is approximately $11.1 billion, of which more 
than $9.4 billion has been provided to communities as financial 
assistance. States and EPA can work to enhance the DWSRF as a tool 
through which to encourage integrated use of all local, State, Federal, 
and private sources of funding; promote use of innovative and efficient 
technology; encourage rates that are appropriate to cover the costs of 
supplying drinking water; promote comprehensive strategic planning; and 
help states to manage their public health programs.

     OFFICE OF INTERNATIONAL AFFAIRS: GRANTS TO FOREIGN RECIPIENTS

    Question 8. Introduction by Inhofe: In our recent hearing on EPA's 
FY07 budget, I expressed concern that over the past 10 years nearly 300 
grants have been awarded to benefit foreign countries. My concern was 
heightened when I learned that many of these grants are awarded from 
program offices other than the Office of International Affairs (OIA), 
despite the international nature of these grants. Yet, according to 
EPA's website, one of OIA's responsibilities is to manage the Agency's 
involvement in international policies and programs that cut across 
Agency offices and regions. What then has been OIA's specific role, if 
any, in awarding these grants to foreign recipients?
    Response. EPA policy gives OIA a review and concurrence role on 
assistance awards for work conducted abroad, whether awarded to 
domestic or foreign recipients, prior to forwarding these to the 
Department of State for their review and concurrence. OIA collaborates 
with Program Offices as they implement their media-specific 
international programs; and strongly supports the Agency's efforts, 
chaired by the Grants Administration Division (GAD), to implement grant 
policies. Those Offices also consult with GAD to ensure that all Agency 
policies are followed.

            POLICY FOR AWARDING GRANTS TO FOREIGN RECIPIENTS

    Question 9. Introduction by Senator Inhofe: In our recent hearing 
on EPA's FY07 budget, I expressed concern that over the past 10 years 
nearly 300 grants have been awarded to benefit foreign countries. My 
concern was heightened when I learned that many of these grants are 
awarded from program offices other than the Office of International 
Affairs (OIA), despite the international nature of these grants. Yet, 
according to EPA's website, one of OIA's responsibilities is to manage 
the Agency's involvement in international policies and programs that 
cut across Agency offices and regions.
    Does OIA have specific guidance and procedures that it requires the 
agency's other program offices to implement and follow in awarding 
grants to or for the benefit of foreign entities? Please describe and 
provide these policies to the Committee.
    Response. International assistance policy and procedures are 
incorporated into the Agency's manuals and guidance documents (e.g., 
EPA's Delegations of Authority, and Project Officer Responsibilities 
Handbook). OIA works with GAD to ensure that the roles and 
responsibilities concerning international assistance are understood by 
Project Officers. The purpose of these policy & procedures is to 
provide clear guidance for obtaining appropriate approvals & clearance 
prior to an award, extension, or modification of grant awards for work 
conducted abroad, whether awarded to domestic or foreign recipients. 
Specifically,
    The EPA policy is the following:

    <bullet> Preliminary clearance--The program office contacts OIA 
staff before processing a grant application and OIA reviews to ensure 
appropriateness.
    <bullet> The program office's delegated officials review and concur 
prior to submitting proposals to OIA.
    <bullet> OIA reviews, and if appropriate concurs; OIA forwards to 
State Department for concurrence.

    Question 10. If OIA does not have any such policies for the other 
program offices, what criteria do the other program offices use to 
determine the merits of a grant for a foreign recipient?
    Response. OIA does have policies in place. They are supplemented by 
individual office procedures. Two examples are provided below.
    The criteria used by the Office of Air and Radiation (OAR) in 
determining the technical merits of a grant for a foreign recipient are 
the same as those for non-foreign grant recipients: Our decisions are 
based on the technical merits of the proposal, the applicability of the 
recipient's scope of work, the consistency of the proposal with the 
Agency's strategic goals, the demonstrated abilities of the recipient 
organization, and the likelihood that the project will produce sound 
environmental results to EPA/OAR's strategic goals as it relates to 
OAR's overall mission. We give priority to projects that will reduce 
environmental, health, or other risks to the United States, and also to 
those projects that will yield results that are transferable to United 
States concerns. We coordinate closely with OIA to review the scope of 
work and to receive clearance from the Department of State. However, 
foreign applicants are exempt from the competition policy, EPA Order 
5700.5A1, ``Policy for Competition of Assistance Agreements''; so they 
may not be subject to the same criteria used as ranking factors in 
competitive grant solicitations (i.e., past performance) like non-
foreign recipients subject to the competition policy.
    With the exception of the U.S.-Mexico Border Environmental program, 
the Office of Water (OW) infrequently funds foreign recipients. The 
U.S.-Mexico Border Environmental program's mission is to protect the 
environment and public health in the U.S.-Mexico border region, a 
shared border of over 2,000 miles. The rapid increase in population and 
industrialization in the border cities has overwhelmed existing 
wastewater treatment and drinking water supply facilities. Untreated 
and industrial sewage often flows north into the United States from 
Tijuana, Mexicali, and Nogales, and into the Rio Grande. The program is 
a partnership of Federal, State, and local Governments in the United 
States and Mexico, and United States border tribes. The U.S.-Mexico 
Border program emphasizes a bottom-up, regional approach, anticipating 
that local decision-making, priority-setting, and project 
implementation will best address environmental issues in the border 
region. EPA works closely with its partners to prioritize and evaluate 
the environmental needs of the different border communities and to 
facilitate the construction of environmental infrastructure through the 
provision of grant funding for the planning, design, and construction 
of high priority water and wastewater treatment facilities along the 
border.

        OFFICE OF INTERNATIONAL AFFAIRS: LIST OF GRANTS AWARDED

    Question 11. Please provide the Committee with the following 
information:

    <bullet> an organizational chart of OIA's office
    <bullet> OIA's FY07 budget request
    <bullet> the amount of OIA's FY07 budget request for international 
grants, and
    <bullet> a list of all grants awarded by OIA over the past 5 years, 
including the project title, a description of the project, the 
recipient, and the amount of the award.

    Response. See attached files.

    [GRAPHIC] [TIFF OMITTED] T2270.007
    
    [GRAPHIC] [TIFF OMITTED] T2270.008
    
    [GRAPHIC] [TIFF OMITTED] T2270.009
    
    [GRAPHIC] [TIFF OMITTED] T2270.006
    

      OFFICE OF INTERNATIONAL AFFAIRS: PRINCIPLE FUNCTIONS OF OIA

    Question 12. What are the principle functions of the OIA that are 
not covered by, or do not involve, either another EPA program office or 
the Department of State?
    Response. OIA has the lead on several important international 
environmental activities, as well as the responsibility to coordinate 
within ther Agency, and collaborates extensively with other Government 
agencies and international organizations to implement international 
programs. For example, OIA leads the USG's participation in the 
Commission of Environmental Cooperation (CEC), which was established 
for trilateral support following the passage of NAFTA. EPA's lead U.S. 
Government role is critical to ensure that activities generate concrete 
results consistent with U.S. goals and priorities. OIA also represents 
EPA and the U.S. Government on the Environmental Policy Committee of 
the Organization for Economic Cooperation and Development (OECD). OIA 
performs three major functions pursuant to the Trade Promotion 
Authority Act of 2002 which requires environmental reviews of trade 
agreements and of the provisions in each agreement to prevent lowering 
foreign environmental standards or weakening the enforcement of 
existing laws to attract investment or trade.
                                 ______
                                 
     Responses by Stephen L. Johnson to Additional Questions from 
                            Senator Jeffords

    ENDANGERED SPECIES ACT COUNTERPART REGULATIONS AND ALTERNATIVE 
                         CONSULTATION AGREEMENT

    Question 1. The President's request for the pesticides program at 
EPA is $6.4 million less than the 2006 level. What impact will this 
reduction have on implementing the counterpart regulations and 
alternative consultation agreement EPA has developed with the Fish and 
Wildlife Service and NOAA for threatened and endangered species?
    Response. Since the counterpart regulations were promulgated and 
the Alternative Consultation Agreement was signed, EPA has gone forward 
with implementation of the Endangered Species program. We expect to be 
able to continue our implementation with the resources made available 
to us in 2006 and requested for 2007. The FY 2007 funding request 
includes additional fee revenues to address endangered species.

                    SUPERFUND: CONSTRUCTION FUNDING

    Question 2. Just 2 years ago, the President's budget stated that 
``funding for EPA Superfund construction projects is critical to 
achieving risk reduction and construction completion and restoration of 
contaminated sites to productive reuse.'' Yet today, the President 
proposes $138 million less for actual Superfund cleanups than he did in 
FY 05. At these levels, is the program going to be able to meet its 
performance targets in FY 07?
    Response. Yes, EPA expects to meet its FY 2007 performance targets 
under the proposed budget.

                      SUPERFUND: PIPELINE FUNDING

    Question 3. While the President proposes a modest increase in the 
overall Superfund budget, actual cleanup funds are proposed to be cut 
by over $7 million. This appears to have a significant impact on the 
entire pipeline of cleanup activities, from site investigation to 
construction completion. For example, EPA's target for completing site 
assessments will plummet by 17 percent from 419 in FY 2006 to just 350 
in FY 2007. Am I correct that the proposed cuts, if enacted, will 
adversely impact the Agency's Superfund pipeline activities?
    Response. EPA will continue site investigation and feasibility 
study work. EPA will target site assessment work by concentrating on 
sites with the highest expected risk. The cleanup program will continue 
to focus on conducting and completing cleanups at NPL sites that have 
construction projects underway or are ready to begin construction. 
However, this priority must be balanced with other program objectives 
(e.g., assessing possible new sites, evaluating and selecting remedies 
at current sites, ensuring responsible party participation, documenting 
and recovering EPA's response costs). EPA believes our proposal strikes 
the right balance among Superfund program objectives.

                PERFORMANCE TRACK-ENFORCEMENT INCENTIVE

    Question 4. Has the ``low priority for inspections'' enforcement 
incentive for Performance Track members impacted any State's ability to 
inspect a Performance Track facility or pursue an enforcement action 
against such a facility?
    Response. No, the low priority for routine EPA inspections 
incentive has not impacted any state's ability to inspect Performance 
Track facilities or to pursue enforcement actions against such 
facilities. By its very definition, this incentive applies only to 
routine EPA (Federal) enforcement inspections. EPA encourages states to 
follow this policy, but each state is free to follow whatever 
inspection priorities they deem appropriate. The overwhelming majority 
of all inspections are conducted by states. Performance Track 
facilities cover less than 1 percent of the potential inspection 
universe.
    The policy of considering members to be a low priority for routine 
inspection was developed to allow EPA, and states if they so choose, to 
shift inspection resources from facilities with strong compliance 
records to facilities that present a greater risk of non-compliance and 
those which are rarely, if ever, inspected. EPA, however, does inspect 
member facilities for cause, as outlined in guidance and when required 
by statute or regulation.

                                LEAD-GAO

    Question 5a. The GAO recently completed a report that I requested 
with some of my colleagues on the House side about the EPA's lead in 
drinking water regulations. GAO found that data gaps impair the 
Agency's ability to oversee implementation of the existing lead and 
copper rule and that the regulatory framework for lead in drinking 
water should be improved to ensure that public health is protected.
    Can you describe now generally, and more specifically for the 
record, How and when the Agency plans to solve the data problems 
identified by GAO?
    Response. EPA clearly understands the importance of ensuring that 
we have complete and accurate information from public water systems and 
states on compliance with the Lead and Copper Rule (LCR). We are 
continuing to work with States to ensure that relevant information is 
loaded into our Safe Drinking Water Information System (SDWIS). We have 
modified our protocol for data verifications to include a component 
that looks specifically at compliance data for the LCR. This includes 
reviewing the accuracy of information in the files (e.g., calculation 
of the 90th percentile), completeness of information (e.g., 90th 
percentile values and individual sample results), and an evaluation as 
to whether the utility and State have appropriately followed up on 
exceedances of the lead action level. We believe that our increased 
scrutiny of the data in State files will have the effect of ensuring 
greater attention on their part to compliance by systems.
    Question 5b. How and when the Agency plans to strengthen lead in 
drinking water regulations?
    Response. In 2006, EPA will propose a number of short-term 
revisions to the LCR. Several of the areas that GAO recommended should 
be reviewed, will be addressed by these short-term changes. We will 
also be releasing guidance in 2006 that will help states and water 
systems better evaluate the potential effects of making treatment 
changes on their ability to control corrosion.

                       SUPERFUND: CLEANUP FUNDING

    Question 6. The President proposed an $11 million decrease in 
funding for the Superfund cleanup program. At the same time, abandoned 
sites throughout the country are languishing on the National Priorities 
List due to inadequate cleanup funds. In my State of Vermont, the 
Elizabeth Mine site has waited for years to finally receive modest 
funds to begin partial remedy construction, while the investigations at 
the Ely Mine site and the Pike Hill sites are proceeding slowly due to 
partial funding. Won't an $11 million cut in funding further delay 
overall cleanups?
    Response. EPA has provided cleanup funding to the Elizabeth Mine 
site. In March 2003, EPA conducted a Superfund removal cleanup action 
to address the instability of the tailing dam. EPA repaired internal 
dam erosion and installed a new drainage pipe to help prevent future 
erosion. In 2004, EPA installed a soil buttress to stabilize the 
tailing dam to reduce the threat of a dam failure. Likewise, Remedial 
Investigation and Feasibility Studies are underway at the Ely Mine and 
Pike Hill Superfund sites. EPA believes the President's budget strikes 
the right balance among Superfund program objectives. The program 
expects to meet its FY 2007 performance targets under the proposed 
budget.

   SUPERFUND: IMPACTS OF HOMELAND SECURITY BUDGET ON SUPERFUND BUDGET

    Question 7. Events over the past few years have illustrated the 
vital role of Superfund in enhancing EPA's capacity to respond to a 
variety of national emergencies. The Superfund program was actively 
engaged in cleanup of debris from the World Trade Center and the Space 
Shuttle Discovery, decontamination of the Hart Senate Office Building 
and testing toxic sludge from Hurricane Katrina. The President proposes 
to increase EPA's homeland security funding by over $12 million to $52 
million in total. Despite this important new mission, the overall 
Superfund budget has remained relatively flat. Why isn't the President 
proposing additional resources for Superfund's homeland security 
related activities instead of redirecting scarce resources away from 
cleaning up toxic waste sites in communities across the nation?
    Response. Cleaning up Superfund hazardous waste sites will remain a 
Superfund program top priority. The Agency is increasing the Superfund 
construction budget by $4 million over the FY 2006 enacted level by 
redirecting funds from earlier phase activities to construction. The 
Agency also expects to meet its 2007 performance targets. Resources 
designated for Homeland Security will help build much needed capacity 
to prepare and respond effectively to nationally significant incidents, 
especially those involving chemical, biological and radiological 
substances.

                RCRA DEFINITION OF SOLID WASTE QUESTION

    Question 8. It has been widely reported that EPA plans to broaden 
its proposal to revise the definition of solid waste beyond intra-
industry recycling. While this concept was mentioned briefly in the 
lengthy preamble to the proposed rule, this would be a major departure 
from the approach on which EPA sought comment in 2003. Am I correct 
that EPA will seek additional public comment before proceeding with 
final rule on this issue that goes beyond the logical outgrowth of the 
original proposed regulatory (not preamble) language?
    Response. EPA continues its work to revise the definition of solid 
waste. As we complete our analyses, should we determine that it is 
appropriate to move beyond a logical outgrowth of our October 2003 
proposal, EPA will provide additional opportunity for public comment.

                         INSTITUTIONAL CONTROLS

    Question 9. What is the status of EPA's efforts to ensure that 
institutional controls (ICs) at CERCLA and RCRA sites where residual 
contamination is left in place are fully implemented and enforceable?
    Response. EPA's RCRA Program is pursuing various activities to 
ensure Regions and states are aware of the need to implement ICs that 
are enforceable and protect the integrity of cleanups. The Agency 
continues to facilitate the maintenance and exchange of information 
concerning ICs internally through the RCRA Info-based IC tracking 
system and externally through various websites.
    In October 2004, EPA developed a strategy for ensuring that ICs are 
successfully implemented at Superfund sites, with an emphasis on 
ensuring the long-term protectiveness of sites where construction of 
cleanup activities is complete. The Agency is two years into 
implementing the Superfund 5-year strategy nationally and we continue 
to devote a significant amount of time and energy to improve the 
effectiveness of ICs.

    Question 10. In addition, please address EPA's efforts to implement 
the recommendations of last year's GAO report.
    Response. Currently, EPA is developing guidance on IC 
Implementation and Assurance Plans, Estimating the Life-Cycle Costs of 
ICs and Evaluating the Effectiveness of ICs, and Ensuring Effective and 
Reliable ICs at RCRA Facilities.
    EPA continues to focus on gathering accurate IC tracking 
information through population of the Superfund Institutional Controls 
Tracking System. In addition, the Agency continues to emphasize the 
importance of proper implementation and enforcement of ICs to RCRA 
managers through training and regular meetings regarding IC issues and 
implementation.

                    E-WASTE: HARMONIZE STATE EFFORTS

    Question 11. The storage, safe handling, recycling, and disposal of 
electronic waste pose many challenges for our nation. More than 22 
million computers are sold each year in the United States alone and 
most will be obsolete in 2-3 years. Each day, on average, 220 tons of 
computers and other e-waste are dumped in landfills or incinerated in 
the United States. In 2003, only 10 percent of consumer electronics 
were recycled in the United States. Four States have banned landfill 
disposal of cathode ray tubes and three States have passed e-waste 
legislation (Maine, California, and Maryland) that are each uniquely 
different laws. Twenty six additional States are also considering e-
waste legislation. This patchwork of State regulation and limited 
industry involvement is not sufficient to address the expected growth 
in e-waste and it could put some United States manufacturers at a 
disadvantage if they have to comply with multiple State regulations.
    What is the EPA doing to harmonize State efforts in this area?
    Response. EPA is working closely with States by providing 
stakeholder meetings and a conference where States can learn from each 
other and share experiences in this area. In recognition of the need 
for greater harmonization, EPA convened a national meeting of 
stakeholders interested in e-waste issues in March 2005. As a result, 
the Agency now works with the third-party organization, a private 
multi-State entity in the Pacific Northwest, to develop Best Management 
Practices for recycling of e-waste. This is one example of several 
collaborative projects initiated by the meeting.
    EPA also created the Plug-In To eCycling campaign to foster 
partnerships between electronics manufacturers, retailers, and 
Governments. Plug-In to eCycling encourages and supports innovative 
voluntary partnerships to increase the availability of convenient and 
affordable electronics recycling and reuse opportunities for citizens. 
It is intended that the innovations illustrated by these partnerships 
will inform State policymaking on electronics recovery. The program 
currently has four State partners and 22 local Government partners.

                    E-WASTE: LIMITED STATE RESOURCES

    Question 12. The storage, safe handling, recycling, and disposal of 
electronic waste pose many challenges for our nation. More than 22 
million computers are sold each year in the United States alone and 
most will be obsolete in 2-3 years. Each day, on average, 220 tons of 
computers and other e-waste are dumped in landfills or incinerated in 
the United States. In 2003, only 10 percent of consumer electronics 
were recycled in the United States. Four States have banned landfill 
disposal of cathode ray tubes and three States have passed e-waste 
legislation (Maine, California, and Maryland) that are each uniquely 
different laws. Twenty six additional States are also considering e-
waste legislation. This patchwork of State regulation and limited 
industry involvement is not sufficient to address the expected growth 
in e-waste and it could put some United States manufacturers at a 
disadvantage if they have to comply with multiple State regulations.
    What is the EPA doing to help the States avoid duplicative efforts 
that will drain the States' already limited resources?
    Response. EPA is promoting information sharing, encouraging 
consistent approaches which include Best Management Practices among 
States, and supporting multi-State and regional efforts. These 
approaches can potentially save scarce resources by limiting time 
needed for gathering information, research, and building consensus.

                     E-WASTE: NATIONAL WASTE SYSTEM

    Question 13. The storage, safe handling, recycling, and disposal of 
electronic waste pose many challenges for our nation. More than 22 
million computers are sold each year in the United States alone and 
most will be obsolete in 2-3 years. Each day, on average, 220 tons of 
computers and other e-waste are dumped in landfills or incinerated in 
the United States. In 2003, only 10 percent of consumer electronics 
were recycled in the United States. Four States have banned landfill 
disposal of cathode ray tubes and three States have passed e-waste 
legislation (Maine, California, and Maryland) that are each uniquely 
different laws. Twenty six additional States are also considering e-
waste legislation. This patchwork of State regulation and limited 
industry involvement is not sufficient to address the expected growth 
in e-waste and it could put some United States manufacturers at a 
disadvantage if they have to comply with multiple State regulations.
    What, if any, EPA resources are being dedicated to establish a 
national e-waste system (including FTE and extra-mural dollars)?
    Response. EPA is not devoting resources to establishing a uniform 
national system for e-waste management. We are helping to support 
experimentation with different approaches that reflect varying 
conditions around the country, including regional arrangements.

        E-WASTE: REGIONAL/STATE LEGISLATURE & VOLUNTARY PROGRAMS

    Question 14. The storage, safe handling, recycling, and disposal of 
electronic waste pose many challenges for our nation. More than 22 
million computers are sold each year in the United States alone and 
most will be obsolete in 2-3 years. Each day, on average, 220 tons of 
computers and other e-waste are dumped in landfills or incinerated in 
the United States. In 2003, only 10 percent of consumer electronics 
were recycled in the United States. Four States have banned landfill 
disposal of cathode ray tubes and three States have passed e-waste 
legislation (Maine, California, and Maryland) that are each uniquely 
different laws. Twenty six additional States are also considering e-
waste legislation. This patchwork of State regulation and limited 
industry involvement is not sufficient to address the expected growth 
in e-waste and it could put some United States manufacturers at a 
disadvantage if they have to comply with multiple State regulations.
    What, if any, EPA resources are being dedicated to support regional 
State e-waste efforts in the form of legislation and voluntary programs 
(including FTE and extra-mural dollars)?
    Response. EPA has limited resources dedicated to support for 
regional State e-waste efforts. The third party organization and a 
portion of the funds and FTE in the Plug-In to eCycling program are 
resources dedicated to such efforts. We can follow up with more 
information if desired.

    TPO: .2 FTE $22K
    Plug-In .2 FTE
    EPEAT .2 FTE

    EPA is not devoting FTE to support State legislation. While section 
8003(d) of RCRA authorizes EPA to recommend model codes, ordinances and 
statutes, in cooperation with appropriate State and local agencies, 
8003(g) of RCRA imposes restrictions on the ability of the EPA to 
represent an Agency position in favor of such provisions.

    E-WASTE: RCRA SECTION 1005 INTER-STATE COOPERATION AND COMPACTS

    Question 15. The storage, safe handling, recycling, and disposal of 
electronic waste pose many challenges for our Nation. More than 22 
million computers are sold each year in the United States alone and 
most will be obsolete in 2-3 years. Each day, on average, 220 tons of 
computers and other e-waste are dumped in landfills or incinerated in 
the United States. In 2003, only 10 percent of consumer electronics 
were recycled in the United States. Four States have banned landfill 
disposal of cathode ray tubes and three States have passed e-waste 
legislation (Maine, California, and Maryland) that are each uniquely 
different laws. Twenty six additional States are also considering e-
waste legislation. This patchwork of State regulation and limited 
industry involvement is not sufficient to address the expected growth 
in e-waste and it could put some United States manufacturers at a 
disadvantage if they have to comply with multiple State regulations.
    Please describe any steps that the EPA is taking to promote and 
facilitate inter-State cooperation and inter-State compacts, pursuant 
to RCRA Section 1005, to address the e-waste problem?
    Response. EPA is supporting experimentation with Regional third 
party organizations. EPA is also looking into how it may assist States 
in the development of inter-State cooperation to assist in implementing 
multi-State solutions on e-waste. The Agency is also looking for 
examples of inter-State compacts and other arrangements for inter-State 
cooperation supported by EPA in the past. Section 1005 of RCRA 
explicitly recognizes that States may wish to work together to carry 
out solid waste management functions envisioned under RCRA by way of 
inter-State Agencies or compacts.

             HIGH PRODUCTION VOLUME (HPV) PROGRAM RESOURCES

    Question 16. The Center for Disease Control has detected over a 
hundred industrial chemicals in our bodies, many of which lack basic 
health and safety data. The chemical industry has voluntarily stepped 
up to this challenge and spent millions of dollars to generate this 
essential information for High Production Volume chemicals produced 
over one million pounds per year. Last year, EPA committed to use this 
data to complete an in-depth review of the chemicals of greatest 
concern within 2 years.
    Now, the President proposes a $2.2 million dollar cut in funding of 
this program, which raises two questions:
    (a) First, if the President's budget is enacted, will EPA have 
adequate resources to meet its commitment?
    (b) Second, given the limitations of our toxics law, what steps 
does EPA envision taking after reviewing the data to address potential 
health risks posed by the chemicals of greatest concern?
    Response. Yes, the enactment of the President's budget for FY 2007 
will provide EPA with adequate resources for the HPV Challenge Program. 
The FY 2007 HPV budget request has been reduced by $2.2 million for FY 
2007 because Congress appropriated an additional $2 million to the HPV 
program in the FY 2006 Enacted Budget beyond what had been requested in 
the FY 2006 President's Budget request. The $2.2 million decrease will 
return the HPV program to its previously planned pace for reviewing and 
making basic screening level hazard data obtained through the HPV 
Challenge Program available to the public. The pace for those two 
activities was accelerated in FY 2006 in response to the increased 
appropriation. If EPA determines that there are concerns associated 
with any of these chemicals it will take appropriate actions to 
mitigate the risk.

                   EXISTING CHEMICAL PROGRAM QUESTION

    Question 17. According to a GAO report on chemicals issued last 
year, EPA has reviewed fewer than 200 of the 62,000 chemicals in 
commerce when EPA began reviewing chemicals under the Toxic Substances 
Control Act (TSCA) in 1979. Why?
    Response. The TSCA Inventory contains approximately 82,000 
chemicals:

    <bullet> Over 18,000 of these chemicals have been reviewed through 
the New Chemicals Pre-manufacture Notice (PMN) Program.
    <bullet> About 32,000 are polymers which, because of their size 
(e.g., high molecular weight), are less likely to be absorbed following 
exposure and, because of other characteristics, are generally 
considered less likely to present significant risk concerns.
    <bullet> An additional 34,000 substances are low volume, non-
polymers produced below 10,000 pounds/year.
    <bullet> The remaining approximately 15,000 chemicals on the 
Inventory are identifiable as non-polymeric organic and inorganic 
substances produced/imported annually at levels of 10,000 pounds or 
more. Of these:

        <bullet> 2,800 are High Production Volume (HPV) chemicals 
        (manufactured/ imported at levels of one million pounds or more 
        per year) that EPA has targeted under the HPV Challenge 
        Program. Launched in 1998, this program has resulted in 
        companies and consortia agreeing to sponsor data development on 
        over 2,200 chemicals. Currently, OPPT is focusing on the review 
        of data packages submitted through the HPV Challenge Program 
        and developing a searchable database that will assist in our 
        efforts to make basic screening level data available to the 
        public and facilitate EPA's review of the data.
        <bullet> Under the Voluntary Children's Chemical Evaluation 
        Program (VCCEP), EPA is assessing 20 chemicals that are of 
        concern based on their potential risk to children.
        <bullet> Assessments have also been conducted in support of 
        Significant New Use Rules (SNURs) on individual chemicals and 
        several classes of chemicals including perfluorooctyl 
        sulfonates (PFOS) (88 chemicals), and polybrominated 
        diphenylethers (PBDEs) (approximately 6 chemicals), benzidine-
        based dyes (24 chemicals).
        <bullet> Assessments have also been conducted for 13 chemicals 
        in support of Enforceable Consent Agreements (ECAs).

                     ACCURACY OF PREDICTIVE MODELS

    Question 18. According to a GAO report issued last year, the models 
used by EPA to predict potential exposure levels and toxicity of new 
chemicals are ``not always accurate in predicting physical chemical 
properties.'' GAO cited to a 2001 study by PPG Industries finding an 
error for about 25 percent of the cases in which the models' results 
were compared with actual test data. What steps is EPA taking to better 
validate and improve the predictive capabilities of these models?
    Response. There are two separate issues in this question. The first 
issue deals with accuracy of EPA's physical-chemical properties 
assessment model (EPISuite) for new chemicals and EPA's progress in 
improving the models' predictability. The second issue deals with model 
(ECOSAR) to predict toxicity of new chemicals, a study by PPG 
Industries that compared actual test data with this model's estimation 
and what EPA has done to resolve differences.
EPISuite
    The EPISuite model is currently going through a scientific peer 
review by EPA's Science Advisory Board (SAB). The review panel, which 
consists of subject experts from academia, nongovernmental 
organizations, industry, and Government, is specifically charged to 
provide advice on questions such as how accurate the model's various 
modules are, what other measured data could be used in future EPISuite 
upgrades, how convenient the software is to use and the accuracy of 
EPISuite's estimation methods. EPA is also interested in the SAB's view 
on uncertainty analysis and how the estimates can be conveyed to the 
users. Based on the outcome of the SAB review, EPA will take the 
necessary actions to address issues or concerns.
ECOSAR
    EPA predicts the aquatic toxicity of all new chemicals notified 
under TSCA Section 5 (e.g., PMN submissions), currently averaging about 
1,500 per year. About five percent of these new chemicals are actually 
tested for aquatic toxicity. These measured toxicity values are 
evaluated for accuracy. If accurate, then measured effect 
concentrations are compared with predicted effect concentrations. If 
the measured and predicted effect concentrations are within 10 times of 
one another, then the measured test data are added to the model used to 
predict the effect concentration. If the predicted and measured 
concentrations are significantly different (i.e., more than 10 times of 
one another), then the chemical structural component responsible for 
the difference in toxicity is identified and a new model is developed 
for that structural component. This is a continuous process at EPA that 
has been in place since the mid-1980s. EPA believes that the PPG study 
was problematic. The test was not conducted according to Agency test 
protocols and therefore the comparisons in the validation study are 
inappropriate.

                          ENERGY BILL QUESTION

    Question 19. EPA's supplemental material emphasizes $11 million 
dollars that will be used to implement Title 15 of the Energy Policy 
Act of 2005, the new energy law we passed last year. Title 15 is but 
one of many direct requirements EPA has in this new law, and EPA has 
other work to do in consultation with other federal agencies, such as 
the Department of Energy. Will you provide for the Committee a list of 
your EPACT requirements and the proposed FY 2007 funds that are 
budgeted to meet those requirements?
    Reponse. The following list displays Energy Policy Act (EPAct) 
provisions that are expected to affect EPA in 2007. The President's 
budget request highlights funding specifically directed for the highest 
priority EPAct provisions expected require attention in FY 2007 as 
follows: $11.8 million in contract dollar support for establishment of 
a renewable fuels standard and reporting and assessment requirements; 
$49.5 million for Diesel Emission Reduction grants authorized under 
Title 7, Subtitle G of EPAct; $1.1 million for enforcement activities 
by the Office of Enforcement and Compliance Assurance; and an increase 
of $25.8 million over 2006 levels for grants to States for additional 
underground storage tank program requirements such as delivery 
prohibitions, mandatory inspections, and owner operator training. 
Additionally, EPA will engage in consultations on an on-going basis, as 
required by the EPAct. Other activities will be addressed over time in 
a cost-effective manner. Some EPAct requirements will be addressed in 
FY 2006 and EPA is in the process of reviewing and prioritizing EPAct 
requirements that could have impacts beyond FY 2007.
    Renewable Fuel Standard and Credit Program: Title 15
    Diesel Emission Reduction Grants: Title 7, Subtitle G
    Other Studies, Reports, and Assessments: Titles 7 and 15
    Office of Enforcement and Compliance Assurance: Title 15
    Underground Storage Tank Compliance Act: Title 15

                          NANOSCALE MATERIALS

    Question 20. The National Science Foundation recently predicted 
that the global market for products using nanotechnology could reach $1 
trillion within a decade. An EPA advisory committee recommended that 
the Agency initiate a comprehensive voluntary information-gathering 
program on the full range of materials now being made and in the 
pipeline, their potential applications, and available health and 
exposure information. The advisory committee also recommended that EPA 
prepare regulations in case the voluntary program fails to provide 
adequate information. Does EPA intend to follow both of these 
recommendations and, if so, in what time frame?
    Response. The Agency is carefully considering these 
recommendations, along with considerable stakeholder input, as it 
proceeds with reviewing the need for a stewardship program. Should a 
stewardship program be implemented, the Agency would evaluate it before 
determining its regulatory implications.

                            CLEAN WATER ACT

    Question 21. Second, in the FY 2004 budget, you first cut Clean 
Water funding in half from about $1.35B to $850M. At that time, the 
President's budget stated that you would need $850M per year to reach a 
revolving level of $3.4 billion. You also pledged annual grants of 850M 
from 2011 through 2018. The next year, you again requested $850M and 
stated that you would need $850M per year to reach the revolving level 
of $3.4 billion. Last year, in FY 2006, you requested only $730M, and 
this year you've requested only 688M to reach the goal of $3.4 billion.
    (a) What changed?
    (b) How can you meet even your low target for revolving at $3.4 
billion with an investment this year of only $688M?
    Response. In the 2004 Budget, the President proposed funding the 
Clean Water SRF at $850 million annually for 2004-2011, for $6.8 
billion in total funding and a $3.4 billion target revolving level. Due 
to significant additional funds appropriated in 2004-2006, the FY 2007 
funding recommendation reduces annual funding for the Clean Water SRF 
to $688 million for 2007-2011 and continues the Administration's long 
term revolving level and total capitalization commitments.

                    PERFORMANCE TRACK-NONCOMPLIANCE

    Question 22. How much did the EPA spend in FY 2005, per facility, 
to enforce environmental requirements against facilities that are in 
significant noncompliance?
    Response. EPA currently does not track the resources associated 
with returning a specific facility to compliance. The level of 
resources expended to resolve particular violation depends upon a range 
of factors, including (1) whether the violation warrants EPA's 
initiation of an administrative enforcement action or a referral to the 
Department of Justice for the commencement of a civil judicial case; 
(2) the complexity of the violations and the nature and extent of 
evidence needed to prove the violation; (3) the complexity of the 
injunctive relief necessary to bring the violating entity into 
compliance; (4) whether the enforcement action/case can be resolved via 
settlement or must be litigated at the administrative and/or judicial 
levels; and (5) the length of time needed to resolve the violation. 
Because of the number of enforcement actions taken by EPA each year, 
coupled with the range of factors influencing the amount of resources 
that may be expended to resolve any particular violation, EPA does not 
track the costs of individual enforcement actions.

                  PERFORMANCE TRACK-COMPLIANCE HISTORY

    Question 23. What is the compliance history of current Performance 
Track members?
    Response. One standard for entry into Performance Track and 
continuation is that a facility demonstrates a ``sustained record of 
compliance'' with environmental requirements at all levels of 
government. The compliance record of each facility is screened 
carefully before a decision on acceptance or renewal is made. EPA uses 
specific screening criteria that allow a facility to be admitted to the 
program if it has not had more than 2 significant noncompliances in the 
past 3 years, a criminal conviction in the past 5 years, and does not 
otherwise indicate a pattern of non-compliance. These criteria were 
jointly developed with EPA's Office of Enforcement and Compliance 
Assurance.
    Thus, facilities can be and are admitted into the Performance Track 
Program that have had some violations. This reflects the reality that 
many Performance Track applicants are large, complex manufacturing 
facilities. Some face literally thousands of compliance checkpoints on 
a regular basis. Experience has shown that no matter how diligent the 
facility, and how comprehensive its management systems, violations do 
occur. The screening criteria apply a common-sense approach that takes 
this reality into account. If a facility is found to have committed a 
violation that is serious or demonstrates a pattern of non-compliance 
and causes EPA or a State to doubt its ability to meet this compliance 
standard, that facility may be removed from the program.
    In response to the question, staff performed a quick search of the 
ECHO (Environmental Compliance History Online) database, which is 
accessible online at: www.epa.gov/echo. The data provided below must be 
used carefully given the following caveats:

    1. Some of these violations may have occurred at the facility prior 
to their entry into the Performance Track program (and, as described 
above, facilities are allowed to have some violations and still be 
admitted to the program).
    2. As is often the case with any large database, there are some 
data quality issues associated with these numbers, due to time 
constraints, a quality control check was not performed on this 
response. For example, data entry problems could cause over-counting 
and/or undercounting certain violations.
    3. Again, it is important to note that Performance Track member 
standards allow for a certain minimal number of violations at a 
facility, given the reality of trying to maintain a perfect compliance 
record at facilities facing many regulatory requirements.
    4. Since the compliance status of any particular facility is a 
constantly evolving situation, the figures below represent a 
``snapshot'' of compliance at a particular moment in time.

    Results of an ECHO database search performed on February 23, 2006:

    <bullet> Clean Air Act: Facilities with at least one quarter in 
violation within the last 3 years = 38 (9 percent of the 406 current 
members)
    <bullet> Clean Water Act: Facilities with any effluent violation 
within the last 3 years = 40 (10 percent of the 406 current members)
    <bullet> Resource Conservation and Recovery Act: Facilities with 
any violation = 57 (14 percent of the 406 current members)

                   PERFORMANCE TRACK-PROGRAM CRITERIA

    Question 24. What happens to Performance Track members that fail to 
meet program criteria and/or violate environmental laws?
    Response. They may be removed from the program, depending on the 
severity of the issue. To date, Performance Track has removed a total 
of 49 facilities from the program: 34 facilities during their 
membership (22 for reasons related to deficient Environmental 
Management Systems and 12 for failing to submit Annual Performance 
Reports); an additional 15 facilities were not accepted during renewal 
(8 for non-compliance, 4 for insufficient environmental commitments, 1 
due to a deficient Environmental Management System, and 2 for other 
reasons).
    The standard for entry into Performance Track and continuation is 
that a facility demonstrates a ``sustained record of compliance'' with 
environmental requirements at all levels of government. This definition 
is based on a standard that EPA's Office of Policy, Economics, and 
Innovation and Office of Enforcement and Compliance Assurance developed 
for EPA voluntary programs and were made more stringent for use in the 
Performance Track program. It is possible for a facility to be the 
subject of an enforcement action and still qualify for the program, 
especially if the action is relatively minor and was corrected 
responsibly.
    Many Performance Track members are large, complex manufacturing 
facilities. Some face literally thousands of compliance checkpoints on 
a regular basis. Experience has shown that no matter how diligent the 
facility, and how comprehensive its management systems, violations do 
occur. The screening criteria apply a common-sense approach that takes 
this reality into account.
    The compliance record of each facility is screened carefully before 
a decision on acceptance or renewal is made. EPA consults its own 
databases, then with enforcement staff in the regions and in each 
State, as well as the Department of Justice.
    Only when these parties all agree is the facility accepted or 
renewed. EPA's Office of Enforcement and Compliance Assurance and the 
State Agency have concurred in all decisions regarding the acceptance 
and renewal of members.
    Should a facility violate an environmental regulation, we examine 
the exact nature of the violation. If a facility is found to have 
committed a violation that is serious and causes EPA or a State to 
doubt its ability to meet our compliance standard, that facility is 
removed from the program.
    Members of this program have made significant commitments and shown 
results on a wide range of environmental indicators that go well beyond 
meeting their compliance obligations. They are demonstrating the 
potential for achieving measurable results in reducing air and water 
releases, conserving energy and water, reducing materials use, 
protecting habitat, and designing more environmentally beneficial 
products, among others. These are significant accomplishments and 
should be recognized and encouraged, as should the overall very strong 
compliance records of Performance Track members.
    More specific information on significant non-compliance can be 
found at: http://www.epa.gov/performancetrack/program/sustain.htm.

                              SRF QUESTION

    Question 25. The President's 2007 budget proposal cuts the funding 
for clean water infrastructure by $199 million. This is in spite of the 
fact that EPA's own reports show at least $300 billion gap in water 
infrastructure needs.

    (a) Given the proposed cuts and the need, how does the Agency 
justify a long-term capitalization target of only $6.8 billion for the 
Clean Water SRF?
    (b) In addition, who came up with the $3.4 billion revolving level 
target and on what basis was that decision based?

    Response. In FY 2004, the President's Budget presented a long-term 
plan to address national water infrastructure needs, which included an 
extension of Federal funding of the CWSRF until 2011.
    The President's funding plan for the CWSRF assumes that a mix of 
continued Federal funding, 3 percent real revenue growth for systems, 
and implementation of system efficiencies that reduce the demand for 
wastewater infrastructure will help close the gap between current 
capital funding levels and future infrastructure needs. The CWSRF is 
one tool to address infrastructure financing. In addition to funding 
infrastructure projects, closing the gap and achieving sustainable 
systems requires Federal, State, and local actions and innovations to 
reduce the demand for infrastructure. Through a Sustainable 
Infrastructure Strategy, the Agency is working in collaboration with 
many different stakeholders to ensure that the federal investment 
results in sustainable wastewater systems. This Strategy aims to 
identify and promote new and better ways of doing business by focusing 
our efforts on:

    <bullet> Promoting adoption of sustainable management practices by 
utilities to achieve long-term environmental/health, economic, and 
social outcomes;
    <bullet> Producing water efficient products and creating a National 
ethic of water efficiency;
    <bullet> Promoting full cost pricing of water and wastewater 
services; and
    <bullet> Using watershed approaches to help utilities and others 
make cost effective infrastructure decisions that help meet overall 
watershed goals.

    In the FY 2004 Budget, the President proposed $6.8 billion in total 
capitalization funding from 2004-2011 for the Clean Water SRF. This 
capitalization level, along with expectations about future CWSRF 
performance and improved operating efficiencies, would allow the fund 
to reach a long term revolving level of $3.4 billion annually. The FY 
2007 CWSRF funding recommendation was based on the Administration's 
continued commitment to capitalize the program such that it reaches a 
$3.4 billion target revolving level. The $3.4 billion target revolving 
level is consistent with expected continued high-performance levels for 
the CWSRF. The CWSRF has been one of the most successful and cost-
effective infrastructure financing programs in the federal government's 
history. The Agency has provided more than $23 billion through FY 2005 
to capitalize the CWSRF, nearly triple the original CWA authorized 
level of $8.4 billion. This Federal investment, when combined with 
State contributions and other funding sources, has allowed the CWSRF to 
support nearly $53 billion in important water quality projects.

             HIGH PRODUCTION VOLUME (HPV) PROGRAM RESOURCES

    Question 26. The Center for Disease Control has detected over a 
hundred industrial chemicals in our bodies, many of which lack basic 
health and safety data. The chemical industry has voluntarily stepped 
up to this challenge and spent millions of dollars to generate this 
essential information for High Production Volume chemicals produced 
over one million pounds per year. Last year, EPA committed to use this 
data to complete an in-depth review of the chemicals of greatest 
concern within two years.
    Now, the President proposes a $2.2 million dollar cut in funding of 
this program, which raises two questions:

    (a) First, if the President's budget is enacted, will EPA have 
adequate resources to meet its commitment?
    (b) Second, given the limitations of our toxics law, what steps 
does EPA envision taking after reviewing the data to address potential 
health risks posed by the chemicals of greatest concern?

    Response. Yes, the enactment of the President's budget for FY 2007 
will provide EPA with adequate resources for the HPV Challenge Program. 
The FY 2007 HPV budget request has been reduced by $2.2 million for FY 
2007 because Congress appropriated an additional $2 million to the HPV 
program in the FY 2006 Enacted Budget beyond what had been requested in 
the FY 2006 President's Budget request. The $2.2 million decrease will 
return the HPV program to its previously planned pace for reviewing and 
making basic screening level hazard data obtained through the HPV 
Challenge Program available to the public. The pace for those two 
activities was accelerated in FY 2006 in response to the increased 
appropriation. If EPA determines that there are concerns associated 
with any of these chemicals it will take appropriate actions to 
mitigate the risk.

                     PERFLUOROOCTANOIC ACID (PFOA)

    Question 27. Last month, EPA challenged chemical manufacturers to 
essentially eliminate releases of PFOA, a chemical used during the 
production of Teflon. PFOA was just classified as a ``likely 
carcinogen'' in a draft report by EPA's Science Advisory Report and has 
been linked to liver cancer, reduced birth weight, and developmental 
problems in laboratory animals. Researchers at Johns Hopkins Hospital 
revealed last week that 99 percent of babies were born with trace 
levels of this industrial chemical.

    (a) Since PFOA has been widely used in commerce since TSCA was 
enacted, why has it taken EPA thirty years to evaluate it?
    (b) Are the statutory limitations of TSCA one reason why EPA issued 
a voluntary challenge for industry to phase out PFOA instead of 
initiating a mandatory phase-out by rulemaking?

    Response. The data on PFOA that EPA have today were not available 
thirty years ago. The science and technology necessary to detect, 
analyze, and study PFOA reliably and accurately have advanced 
significantly in recent years. This led to the development of new data 
that indicated the widespread presence of PFOA in humans and the 
environment, as well as an unanticipated potential for bioaccumulation 
and demonstrated toxicity in animal studies. These new data, taken 
together, formed the basis for the Agency's current concern. The 
questions raised about this class of chemicals by the Agency beginning 
in 2000 triggered additional research, which continues to inform the 
ongoing hazard, exposure, and risk assessment process. Included in this 
are EPA-requested efforts by the National Toxicology Program to conduct 
a class study and by the Centers for Disease Control and Prevention to 
develop human biomonitoring data.
    Although information on human health risks is not yet complete, 
PFOA is known to be extremely persistent in the environment and is also 
bioaccumulative, with a half-life in the human body that is measured in 
years. Studies have found PFOA in the blood of the general United 
States population, as well as in wildlife in even the most remote 
regions of the planet. The persistence and bioaccumulative potential of 
PFOA, when combined with its toxicity in animal studies and its already 
pervasive presence in humans and the environment, warrants concern, as 
evidenced by the Agency's multi-year effort to assess risks and improve 
the understanding of sources and pathways of exposure. Specifically, 
with regard to the PFOA Stewardship Program, this is an effort to 
substantially reduce PFOA emissions at the same time that additional 
data collection efforts are underway to further define the human health 
risks. Limiting exposures at least to current levels by asking 
companies voluntarily to reduce future emissions and releases is a 
reasonable step to take under these circumstances.
    The provisions of TSCA provide sufficient regulatory authorities to 
address these chemicals. However, rulemaking under TSCA would be 
premature at this time because the Agency's risk assessment process is 
still ongoing, and scientific conclusions are an essential element in 
the regulatory process. The degree of risk to human health that may be 
presented by current exposures to PFOA has not yet been determined. The 
sources of PFOA in the environment and the pathways leading to human 
and environmental exposures are not yet understood, making it difficult 
to identify appropriate specific measures to reduce risk. Studies are 
underway to help answer these questions, but those studies will take 
time to complete. However, the Agency is not waiting until all the 
questions are answered.
    In January, EPA invited the companies that manufacture and use PFOA 
to commit to acting to decrease any potential risk without waiting for 
final resolution of these complex issues by issuing a broad stewardship 
invitation to reduce PFOA emission sources and exposure routes on a 
voluntary basis. As this stewardship initiative takes effect, EPA will 
continue its efforts to understand the hazards, sources, pathways of 
exposure, and risks of PFOA. If this investigation demonstrates that 
further actions are warranted, including rulemaking under TSCA, EPA 
will take those actions.

       TOXIC SUBSTANCES CONTROL ACT (TSCA) CONFIDENTIAL BUSINESS 
                        INFORMATION (CBI) ISSUES

    Question 28. According to a GAO report on chemicals issued last 
year, EPA's ability to share data collected is limited. What steps does 
EPA intend to test to address these concerns?
    Response. EPA's ability to share data is limited by the provisions 
of TSCA, which bars EPA from releasing information treated as CBI not 
only to the public but also to other governmental chemical regulators, 
including foreign Governments, States and local Governments and Tribes, 
even if these Governments can demonstrate an ability to keep the 
material secure and confidential.
    Please note that CBI claims are in many instances, though not 
always, confined to new chemical submissions, meaning those submissions 
on chemicals not yet in commerce. CBI claims are much more limited for 
those submissions already in commerce (existing chemicals) and EPA has 
developed a number of methods to ensure the timely release of non-
confidential materials to the public. These methods include making the 
materials available on websites, databases and data products and also 
maintaining a public file room where submissions can be viewed and 
copied.
    To address the remaining problem, EPA will initiate a pilot process 
this calendar year, using existing authorities, to review selected 
older submissions containing CBI claims. The focus of this effort will 
be on querying submitters to determine whether CBI claims made at the 
time of submission remain valid. The pilot results will be used to 
determine the benefits, burdens and utility of a broader CBI claim 
review/reassertion program. Based on this review and in light of other 
regulatory priorities, the Agency will consider whether action is 
appropriate.
    Further, there is a wide perception that some of the information 
collected through the Toxic Substances Control Act (TSCA) over the last 
25 years that was claimed as confidential business information (CBI), 
by the information submitter at the time of submission, may no longer 
need to be treated as CBI. In other words, some believe the original 
information submitters, in many instances, no longer believe that these 
older materials submitted as CBI are currently business secrets.
    As noted in the previous response, CBI claims are much more likely 
in new chemicals' submissions, meaning submissions on chemicals not yet 
in commerce at the time the documents were provided to EPA, than in 
documents relating to substances already in commerce (existing 
chemicals). Similarly once a substance is in commerce, the company's 
need for CBI status of the submitted material typically diminishes. One 
widely recognized point is that while most chemical identities are 
claimed as CBI at time of section 5 submission, many of these CBI 
claims for chemical identity are voluntarily dropped by the submitter 
once the chemical enters commerce and is placed on the TSCA Inventory.
    To date, EPA has not considered this point and the possible value 
of a more systematic periodic review of older CBI claims in new 
chemical and other TSCA submissions on substances now on the TSCA 
Inventory. Without a systematic review, EPA may be unnecessarily 
limiting the amount of information available to share with other 
government entities and with the public. In addition, EPA may be 
expending more resources than is necessary for physical and electronic 
security to track and protect this information. In the pilot, EPA 
envisions looking at a group of these types of submissions, contacting 
the information submitters and determining whether information 
originally claimed as CBI may now be released to the public.
                                 ______
                                 
     Responses by Stephen L. Johnson to Additional Questions from 
                             Senator Obama

     EPA'S DRAFT LEAD RENOVATION REGULATIONS: ENFORCEMENT OF FINAL 
                               REGULATION

    Question 1. I believe that by not promulgating these regulations 
for 13 years, the EPA sent a message to renovation contractors that 
this issue is not significant to the Agency. What steps are you 
planning to take to enforce these regulations once they are final?
    Response. It is the Agency's experience that local authorities are 
better able to develop policy and allocate enforcement resources to 
address their particular circumstances. EPA is proposing to allow 
interested States, territories, and Tribes the opportunity to apply for 
and receive authorization to administer and enforce all of the elements 
of the new renovation provisions, as it has for most of its existing 
provisions. EPA would be responsible for enforcing the program in 
States, territories, and Tribal areas that are not authorized. EPA's 
own enforcement program will likely initially focus on compliance 
assistance activities intended to educate contractors and consumers on 
various elements of the program including its importance and the need 
to employ lead-safe work practices. The Agency plans to use allocated 
resources to enforce these requirements in Federally-administered 
jurisdictions.

                      WATER SENTINEL PILOT PROGRAM

    Question 2. Last year I asked how Chicago could become one of the 
pilot communities under the Water Sentinel program. I would like to 
reiterate my interest in this program. Where does Chicago stand in the 
competition to become a pilot city?
    Response. Due to the sensitive nature of the Water Sentinel 
program, we cannot openly discuss the pilot selection process. We 
would, however, be able to brief you on the selection process and the 
potential consideration of Chicago.

                         ENVIRONMENTAL JUSTICE

    Question 3. I am concerned about the lack of funding for the 
environmental justice program, which appears to signal a lack of 
interest in helping low-income and minority families. What is the 
rationale for this lack of funding?
    Response. We are requesting sufficient funding in FY 2007 to 
maintain a vigorous Environmental Justice program. The FY 2007 request 
for Environmental Justice or for many other programs does not include 
the FY 06 Congressional earmarks. Therefore, the FY 2007 request does 
not include the $1.9 million Congress earmarked for the program in FY 
2006.
    During the past year, EPA has taken several actions reaffirming the 
Agency's commitment to environmental justice for all people, regardless 
of race, color, national origin or income.
    Some of these actions include:

    <bullet> On November 4, 2005, EPA's Administrator issued a 
memorandum reaffirming EPA's commitment to environmental justice ``not 
only protecting human health and the environment for everyone, but also 
ensuring that all people are treated fairly and are given the 
opportunity to participate meaningfully in the development, 
implementation, and enforcement of environmental laws, regulations, and 
policies.'' The memorandum directs EPA staff to incorporate 
environmental justice considerations into its programs, policies, and 
activities, and into its planning and budget processes.
    <bullet> On August 16, 2005, the Administrator approved the renewal 
of the charter for the National Environmental Justice Advisory Council 
(NEJAC), which provides the EPA Administrator with advice and 
recommendations with respect to integrating environmental justice into 
EPA's programs, policies, and day-to-day activities.
    <bullet> On February 1-2, 2006, EPA convened a NEJAC workgroup to 
provide advice and recommendations about the environmental justice issues 
related to the cleanup and rebuilding of areas affected by Hurricanes 
Katrina and Rita.
      epa's draft lead renovation regulations: exclusion of women 
                            in proposed rule
    Question 4. One of the triggers for the draft rules is the presence 
of children aged six or younger in owner-occupied homes. As it is 
written now, a house with a child one day old is covered, but not a 
house with a woman 9 months pregnant. Why didn't EPA include houses 
with pregnant women in the proposed rules?
    Response. The proposal specifically requests comment on the 
appropriateness of applying the provisions of the rule to owner-
occupied target housing where an expectant mother resides, in addition 
to owner-occupied housing where a child under age six resides. See rule 
language below:
    [(Unit IV.B.1.e.) Owner-occupied target housing where a pregnant 
woman resides. EPA also requests comment on the appropriateness of 
applying the provisions of this rule to owner-occupied target housing 
where an expectant mother resides, in addition to owner-occupied 
housing where a child under age 6 resides. If this option were included 
in the rule, and no children under age 6 resided in the housing to be 
renovated, the renovation firm would not be required to use the work 
practices in this proposal unless the renovation firm collected a 
statement from the owner-occupant indicating that a woman residing in 
the housing was pregnant or thought she might be pregnant. Fetuses 
exposed to lead in the womb may be born prematurely and have lower 
birth weights. In addition, the transplacental transfer of lead in 
humans is well documented, and infants are generally born with a lead 
body burden reflecting that of the mother (Ref. 4). Therefore, covering 
the residences of pregnant women under this regulation would provide 
additional protection for vulnerable populations. However, owner-
occupants, including expectant mothers, will be receiving a lead hazard 
information pamphlet under the Pre-Renovation Education Rule that will 
enable them to make educated choices about renovation activities in 
their residences.]
    The comment period on the proposed rule ends on April 10, 2006. The 
Agency is seeking broad comment on the proposed rule and will hold five 
public meetings across the country to ensure that all affected 
stakeholders have an opportunity to voice their views. The final rule 
will reflect careful consideration of those comments.
 epa's draft lead renovation regulations: mobility of american families
    Question 5. The draft rules assume that families in owner-occupied 
housing do not move. Thus, a house occupied by a family without young 
children would not be required to follow lead safe practices during a 
renovation, even though that family could move soon after the 
renovation and a family with young children could move in. Can you 
explain how the proposed rules account for the mobility of American 
families?
    Response. The proposal specifically requests comment on applying 
the requirements of this proposal to target housing, regardless of 
whether children under age 6 reside in the home. See rule language 
below:
    [Mobility (Unit IV.B.2): Finally, EPA considered covering all 
renovations in target housing without providing an exclusion for target 
housing where children under age 6 do not reside. A child under age 6 
may spend a significant amount of time in housing that is not his or 
her primary residence, for example, in the home of a babysitter. In 
addition, a child that moved into housing shortly after a renovation 
performed without lead-safe work practices took place would be exposed 
to lead dust from the renovation. This is not the preferred option at 
this time because the proposed option provides a more focused targeting 
of resources on the population most at risk. EPA specifically requests 
comment on applying the requirements of this proposal without the 
exclusion for target housing where children under age 6 do not reside.]
    The comment period on the proposed rule ends on April 10, 2006. The 
Agency is seeking broad comment on the proposed rule and will hold five 
public meetings across the country to ensure that all affected 
stakeholders have an opportunity to voice their views. The final rule 
will reflect careful consideration of those comments.
                                 ______
                                 
        Response by Stephen L. Johnson to Additional Questions 
                           from Senator Thune

                LEAKING UNDERGROUND STORAGE TANK PROGRAM

    Question 1. With respect to the Underground Storage Tank Program I 
am pleased to see the Administration is seeking increased funding for 
this important program. For my colleagues who might not be familiar, 
the Leaking Underground Storage Tank Program--commonly referred to as 
the LUST Program--focuses on the prevention of releases from 
underground storage tanks.
    This program relies on a trust fund that is paid for by a portion 
of the Federal fuel tax (1/10th of a cent per gallon). Currently, the 
LUST Trust Fund has a balance of roughly $2.5 billion. During FY 2005, 
the fund collected $190 million from fuel taxes and an additional $70 
million in interest on the balance. However, the Administration and 
Congress only appropriate roughly $72 million annually.
    Last year was a significant year for the LUST program because the 
House included numerous new LUST provisions in the Energy bill. As a 
result, new requirements were placed on each of our States who are 
responsible for storage tank compliance. While it is wonderful to see 
an overall increase in LUST funding, why isn't the Administration using 
the significant LUST Trust Fund balance as opposed to using STAG 
funding to assist States?
    Response. Most of the underground storage tank provisions of the 
new Energy Policy Act of 2005 help to strengthen the underground 
storage tank (UST) prevention programs (e.g., mandatory inspections, 
requiring training for UST operators, and prohibiting delivery of fuel 
to ineligible facilities). EPA has historically provided STAG (State 
and Tribal Assistance Grant) funding to States for these prevention and 
enforcement purposes.
    A provision in the tax code, enacted after passage of the Energy 
Policy Act of 2005, would result in no new Leaking Underground Storage 
Tank (LUST) tax revenue going into the LUST Trust Fund if EPA uses LUST 
funding to implement the new prevention and enforcement provisions of 
the Energy Policy Act (or other purposes not originally authorized when 
the trust fund was established in 1986). In light of this tax 
provision, the Administration determined that STAG funding is the best 
source of funding to implement the UST provisions in the Energy Policy 
Act.

         LEAKING UNDERGROUND STORAGE TANK PROGRAM: FUNDING FOR 
                       ENERGY BILL'S UST REFORMS

    Question 2. Before you answer this question Administrator Johnson, 
I recognize the constraints that you operate under in light of the 
prohibition on LUST Trust Fund money being spent on the new 
requirements that were included in the Energy Bill, such as mandatory 
and regular inspections, operator training, and delivery prohibitions.
    In light of these costly mandates, do you believe that EPA and our 
States will have the financial resources for FY 2007 to implement the 
Energy bill's underground storage tank reforms if Congress simply 
adopts your budget request of flat funding from the LUST fund and a 
modest increase in the grant program?
    Response. Implementing the Energy Policy Act and especially the 
underground storage tank provisions is a priority for the 
Administration, and our budget request reflects this. Given the current 
budget constraints that exist in Federal funding and the competing 
priorities, we believe that this level of funding is appropriate.
    The President's request of $38 million in STAG funding triples what 
States have been receiving to support their prevention and enforcement 
activities. EPA believes that this level of funding will put the States 
in a position to meet the 3-year inspection cycle as well as 
implementing the other provisions of the Energy Policy Act of 2005.

   LEAKING UNDERGROUND STORAGE TANK PROGRAM: STAG VERSUS LUST FUNDING

    Question 3. Before you answer this question Administrator Johnson, 
I recognize the constraints that you operate under in light of the 
prohibition on LUST Trust Fund money being spent on the new 
requirements that were included in the Energy Bill, such as mandatory 
and regular inspections, operator training, and delivery prohibitions.
    What would EPA's position be if the transportation bill's 
prohibitions were cleared up, would STAG funding still be utilized or 
would LUST Trust Fund dollars be used?
    Response. The 2007 Budget was developed considering all relevant 
statutory authorizations. We developed our proposal based on our 
careful review. If the statute was amended, we would do what is 
required by the law.

   LEAKING UNDERGROUND STORAGE TANK PROGRAM: TRUST FUND AUTHORIZATION

    Question 4. I ask this question because Congress authorized an 
annual appropriation of $555 million from the Trust Fund. The 
Administration is asking for approximately 15 percent of that 
authorization. Was Congress wrong in estimating the resources that are 
needed to address this problem or is EPA ``lowballing'' its request 
because of its tight budgetary constraints?
    Response. In requesting an increase of $26 million to assist EPA 
and States in implementing the underground storage tank provisions of 
the Energy Policy Act of 2005, the Agency was balancing the budget 
needs of the other high priority programs within the Agency. This 
proposed increase is significant since it would triple the amount 
usually appropriated to States for their underground storage tank 
prevention and enforcement programs.

                     STAG FUNDING TO ASSIST STATES

    Question 5. Last but not least, the Administration's proposed 
increase in STAG funding to assist States as they seek to comply with 
the new underground storage tank requirements, how will the STAG 
funding be distributed to States and tribes-would the EPA allocate it 
equally to all States and tribes?
    Response. Historically, EPA has given approximately the same amount 
($187,000) of STAG funds to every State to support its prevention and 
enforcement programs. With the additional $26 million, we are 
considering (in consultation with the States) other factors (e.g., 
performance, need) in allocating the funds.

              GOVERNMENT PAPERWORK ELIMINATION ACT (GPEA)

    Question 6. Administrator Johnson, the tracking of hazardous waste 
from cradle to grave is the largest continuous paperwork burden EPA has 
placed on industry. The Government Paperwork Elimination Act's (GPEA's) 
mandates the Federal Agencies to provide electronic options for paper-
based transactions by October, 2003. It is over two years after the 
statutory deadline.
    An electronic manifest system could save millions of dollars a year 
while leaving the risk to develop such a system to the private sector 
not to mention the benefits that EPA, the States and Congress would 
realize from such a system. Regulatory changes, and possibly statutory 
changes are required before an electronic manifest can become a 
reality. We understand from the Semi-Annual Regulatory Agenda that the 
regulations authorizing such a system are expected in Spring of 2007 
instead of 2006.
    Why is this delay occurring? Secondly, what statutory changes are 
needed to authorize an electronic manifest system that would put the 
risk of developing such a system on private enterprise?
    Response. EPA is moving to develop and promulgate a final rule 
authorizing an electronic manifest system. In the near future, EPA 
plans to issue a Supplemental Notice providing additional information 
and seeking further public comment.
    To utilize private sector funding resources, Congress would need to 
authorize EPA to enter into contracts (or other arrangements) similar 
to the ``share-in-savings'' contractual arrangements contained in the 
E-Government Act of 2002.
                                 ______
                                 
        Response by Stephen L. Johnson to Additional Questions 
                          from Senator Vitter

                          HUMAN HEALTH-SEAFOOD

    Question 1. EPA water quality test results came back with little or 
no threat to human health. So based upon EPA's testing, is there any 
reason why California should ban Louisiana's oysters; is there any 
reason why Americans should be concerned about consuming seafood from 
Louisiana?
    Response.

    <bullet> Prior to Katrina, California had placed a ban on certain 
Gulf of Mexico shellfish harvested between April and October due to the 
occurrence of the naturally occurring bacteria Vibrio vulnificus in 
molluscan shellfish harvested from southern waters during the warm 
season.
    <bullet> This ban was not related to Katrina impacts, but rather to 
illnesses and deaths that occurred in California from 2000 to 2003.
    <bullet> As a result of Katrina, extensive testing for chemical 
contaminants and limited pathogens in seafood by Federal and State 
agencies has been conducted in Katrina-affected waters in Louisiana, 
Mississippi, and Alabama.
    <bullet> Preliminary test results do not indicate increased 
chemical contamination of seafood harvested from Gulf Waters affected 
by Katrina.
    <bullet> Testing showed some initial sewage contamination in 
shellfish beds, and the State of Louisiana checked these beds. 
Subsequent testing showed that the sewage contamination has stopped.
    <bullet> Testing will continue within the Katrina-affected areas to 
assess potential longer term effects from the hurricane.

           HURRICANE KATRINA DEBRIS AT OLD GENTILLY LANDFILL

    Question 2. Last week, two newspapers in Louisiana reported that a 
study performed for FEMA identified significant environmental concerns 
about the Old Gentilly Landfill. Does EPA feel certain that the open 
dump is in full compliance with all applicable rules and regulation 
regarding environmental protection and future liability?
    Response. EPA has received a number of inquiries regarding the 
Gentilly Landfill over the past several months. In response, the EPA 
Regional Office is investigating and considering each inquiry and is 
consulting with the other State and Federal Agencies operating within 
the unified command structure for hurricane response. These agencies 
include the Louisiana Department of Environmental Quality (LDEQ), the 
Army Corps of Engineers, the U.S. Coast Guard, the Federal Emergency 
Management Agency, and others.
    The Federal and State agencies have undertaken a number of 
activities in response to the issues raised and information received 
including:

    <bullet> EPA, FEMA and LDEQ experts are reviewing the February 8, 
2006, draft report by the National Infrastructure Support Technical 
Consultants for FEMA and its underlying documentation regarding 
landfill design, groundwater monitoring and potential air emissions.
    <bullet> State and Federal Government experts are also reviewing 
the questions raised in this report regarding possible impacts on 
levees.
    <bullet> EPA and LDEQ officials are making regular visits to 
Gentilly and other landfills receiving Hurricane Katrina debris to 
observe operations.

    EPA is confident that these reviews will allow the Agency to 
determine whether additional Federal action is warranted.
                                 ______
                                 
        Responses by Stephen L. Johnson to Additional Questions 
                         from Senator Voinovich

                  GREAT LAKES: GREAT LAKES RESTORATION

    Question 1. What is EPA doing to ensure that we are efficiently 
using the money that we do we spend on the Great Lakes to make 
restoration of the Great Lakes a reality? What decisions did you make 
in putting together the FY 2007 budget to improve coordination and 
implementation of existing programs which benefit the restoration 
effort?
    Response. The Great Lakes Executive Order promotes a collaborative 
approach in restoring the Great Lakes that will provide efficiency in 
reaching our goals. The Order established a Great Lakes Interagency 
Task Force (IATF, or the Task Force) and a Regional Working Group 
(RWG). The EPA Administrator chairs the Task Force. The IATF meets 
regularly to carry out the directives of the Order, and the RWG has 
been meeting weekly via conference call to coordinate Great Lakes 
programs and projects, to share information pursuant to the Great 
Lakes, and to carry out other functions as required by this Order.
    The Task Force spent a great deal of time and effort in 
establishing the Great Lakes Regional Collaboration and coordinating 
Federal participation in the Collaboration. The first year of the Task 
Force was also spent working on high priority issues needing 
interagency cooperation such as the Interagency Snakehead Response, the 
Illinois Sanitary and Ship Canal Dispersal Barrier, implementing the 
Legacy Act to clean up Areas of Concern, focusing on Lake Erie research 
priorities, continuing to coordinate with Canadian counterpart 
agencies, and identifying future areas where interagency coordination 
would improve the delivery of programs and decisionmaking in the Great 
Lakes Basin.
    Several of these urgent and pressing issues that are being 
addressed by the Task Force--including the Dispersal Barrier and Legacy 
Act--were highlighted in the U.S. Ocean Action Plan. These projects, 
along with more than 130 other interagency initiatives, have been 
documented in an Interagency Project Matrix that is being updated and 
used as a tool to promote improved management of Great Lakes programs.

                  GREAT LAKES: REGIONAL COLLABORATION

    Question 2. In December, the Great Lakes Regional Collaboration 
released its final report which serves as a blueprint for Great Lakes 
restoration. Beyond the funding for the Legacy Act, how does the 
President's FY 2007 budget reflect the funding goals established in the 
Collaboration report?
    Response. The Administration proposed approximately $70 million for 
EPA's Great Lakes activities, an approximately $20 million increase 
over 2006 enacted. This request funds sediment cleanup at its 
authorized level. The Federal Great Lakes Interagency Task Force, led 
by EPA, coordinates Great Lakes programs and projects, shares 
information pursuant to the Great Lakes, and carries out other 
functions as required by the Executive Order. The task force recently 
identified a number of substantive actions the Administration will take 
in support of Great Lakes restoration. All parties recognize existing 
economic realities impose limits on what can be accomplished 
immediately; consequently, the Administration's response to the 
strategy is focused on what can be accomplished within current budget 
constraints. Through effective targeting of base programs, and through 
48 near-term commitments, EPA and its partners will continue to 
demonstrate advances in Great Lakes environmental protection.
    Based on an Interagency Task Force report to the President, we 
estimate that each year the Federal Government spends approximately 
half a billion dollars in the Great Lakes Region on programs that 
directly benefits water quality.\1\ When the President signed the Great 
Lakes Executive Order in May 2004, it was with the hope that all levels 
of government would come together to better coordinate Great Lakes 
activities, policies, and projects in order to address nationally 
significant environmental and natural resource issues involving the 
Lakes. The Administration is working with all of our partners to 
continue to protect the Great Lakes in the coming years, using the 
Collaboration's strategy as a guide.
---------------------------------------------------------------------------
    \1\http://www.epa.gov/grtlakes/collaboration/final	rttp	
10282005.pdf (page 47 of the report)
---------------------------------------------------------------------------
    This budget for EPA includes essentially full funding of the 
authorized levels in the Great Lakes Legacy Act for cleanup of the 
Areas of Concern, approximately $50M. EPA commitments in response to 
the Strategy include:

    <bullet> joining with the States and other Federal Government 
partners in an equally shared effort to develop plans that will 
restore, enhance, and protect 200,000 acres of wetlands in the Great 
Lakes
    <bullet> working with State and local partners to develop a 
standard to help identify sources of contamination at beaches
    <bullet> committing $25M to clean up contaminated sediments in 
Ohio's Ashtabula River
    <bullet> issuing improved policy guidance on managing peak flows at 
sewage treatment plants to restrict dumping, reduce overflows, and 
increase pollution prevention efforts.
    The Great Lakes effort is larger than just EPA and the Great Lakes 
States, it also includes:

    <bullet> through USDA, conducting rapid watershed assessments on 
critical watershed areas to collect natural resource data, and applying 
critical conservation on the ground.
    <bullet> supporting establishment in Chicago of a national Alliance 
for Water Efficiency, a national clearinghouse and advocate for water 
efficiency research, evaluation, and education.
    <bullet> supporting authorization to make permanent the 
demonstration barrier on the Chicago Sanitary and Ship Canal.
    <bullet> through the Army Corps of Engineers and EPA, improving and 
streamlining the general permitting process for wetlands restoration 
projects in the Great Lakes to advance water quality, habitat 
protection, and other values.
    <bullet> a portion of an increase in funding of $1.5M for NOAA's 
Aquatic Invasive Species Program. (These funds will be spread 
nationwide, and a portion of this increase is envisioned to support 
more of the research and activities needed to address the growing issue 
of invasive species in the Great Lakes.)
    <bullet> continuing construction of the McCook Reservoir flood 
damage reduction project by the Army Corps of Engineers that will 
virtually eliminate the backflows of raw sewage to Lake Michigan, 
reducing beach closings, and enhancing coastal health
    <bullet> continued construction by the Army Corps of Engineers of a 
facility for the safe and effective management of more than 4 million 
cubic yards of contaminated sediments from the Indiana Harbor 
navigation channel and adjacent areas
    <bullet> a portion of an increase for the North American Wetlands 
Conservation Fund, which will help wetland restoration in the Great 
Lakes.

                     DIESEL EMISSIONS REDUCTION ACT

    Question 3. The budget provides $50 million for the Diesel 
Emissions Reduction Act. Please provide a detailed schedule on how EPA 
intends to implement this program and its associated regulations and 
guidelines over the next few months. Additionally, how is EPA working 
to inform States (and other stakeholders) about this program and what 
they must do to be eligible for funding?
    Response. EPA's implementation of the Diesel Emissions Reduction 
Act (DERA) in 2007 will build upon and be consistent with the 2006 
program. The strategy for the grant program will be defined once funds 
have been appropriated for 2007. EPA will publish a Request for 
Proposals (RFP) for the grant funding that will reflect Energy Policy 
Act provisions. EPA will publish this Request for Proposals (RFP) and 
notify Congress, States, and other interested or eligible entities, of 
both this funding competition and of the direct State allocations 
through their respective association's announcements, on EPA's website, 
announcements on EPA's 10 regional websites, press advisories, and 
other means.

             STATE AND LOCAL AIR QUALITY MANAGEMENT PROGRAM

    Question 4. The budget proposes to reduce funding for the State and 
Local Air Quality Management Program (established under Sections 103 
and 105 of the Clean Air Act) by $35 million, which is a 16 percent 
reduction from the FY2006 enacted level. What is the State and Local 
Air Quality Management Program?
    Response. The reduction comprises three separate elements. First, 
$17 million is through shifting funding for fine particulate monitoring 
from 100 percent Federal to grants that require a State match. This 
shift puts PM monitoring in the same status as all other national 
ambient air quality standard monitoring. Second, since the majority of 
the nation has attained carbon monoxide and lead National Ambient Air 
Quality Standards (NAAQS), most areas are focused on maintaining these 
standards. This, along with Federal implementation of the Clean Air 
Interstate rule allows for a $15.5 million reduction. Finally, $2.5 
million is reduced to reflect the completion of analyses by Regional 
Planning Organizations.
    The State and Local Air Quality Management Program provides Federal 
financial assistance in the form of grants to the 50 States, 4 
Territories (Puerto Rico, Virgin Islands, Guam and American Somoa) and 
approximately 60 local agencies to operate their air pollution control 
programs. Most of the grant funding is used to help support State and 
local air quality management programs. These State and local programs 
are responsible for implementing the National Ambient Air Quality 
Standards (NAAQS), which are set to protect public health from the 
effects of six common pollutants (ozone, particulate matter, carbon 
monoxide, sulfur dioxide, nitrogen dioxide and lead). These funds help 
support the programs' efforts to reduce public exposure to air toxics 
through implementation of technology-based standards and development of 
community-based programs. This funding is also used for technical 
analyses and certain types of applied research projects to support the 
NAAQS and air toxics programs.

STATE AND LOCAL AIR QUALITY MANAGEMENT PROGRAM: FUNDING USED BY STATES 
                             AND LOCALITIES

    Question 5. The budget proposes to reduce funding for the State and 
Local Air Quality Management Program (established under Sections 103 
and 105 of the Clean Air Act) by $35 million, which is a 16 percent 
reduction from the FY 2006 enacted level. How is the funding under this 
Program used by States and localities?
    Response. Federal funding provided to the State and local air 
pollution control agencies are used primarily in two broad categories: 
planning, developing and implementing State air quality management 
plans, referred to as Stats Implementation Plans (SIPs); and operating 
and maintaining ambient air monitoring networks for the six criteria 
pollutants (ozone, particulate matter, carbon monoxide, sulfur dioxide, 
nitrogen dioxide and lead). Additionally Federal funds are provided to 
support regional haze planning activities, acid rain activities, and 
for projects related to air quality research and development.
                               __________
       Seven Million Dollar Request to Identify and Repair Leaks 
                            in Water Systems

    The water and wastewater infrastructure is extensive and represents 
a huge national investment. It includes: 16,000 publicly owned 
treatment works; 59,000 community water supplies; 600,000 miles of 
sewer; 1 million miles of drinking water distribution. A large fraction 
is buried in the ground and is, or will be, in a deteriorated 
condition. In September 2002, the Agency published The Clean Water and 
Drinking Water Infrastructure Gap Analysis (EPA-816-R-02-020), also 
known as the ``Gap Analysis'' report which identified several issues 
that raised concern as to the ability of our nation to keep up with the 
water infrastructure needs in the future.
    Deteriorated potable water and wastewater infrastructure makes it 
difficult to meet Clean Water Act and Safe Drinking Water Act 
requirements. In addition, it increases the potential for waterborne 
disease outbreaks, fish kills, loss of biodiversity and habitat, sewer 
backups and overflows, and flooded basements and loss of service.
    The Agency has put forward a $7 million research proposal for FY 
2007 that will seek to identify new and innovative approaches for 
managing the nation's water infrastructure, especially for upgrading 
and improving the performance of deteriorating wastewater collection 
systems and drinking water distribution systems.
    Wastewater collection systems research will focus on new approaches 
for inspection and condition assessment; new technologies for repair, 
rehabilitation and replacement; and innovative techniques for enhancing 
performance and service life of existing systems.
    Drinking water distribution systems research will initially focus 
on developing new approaches to detect, locate, characterize and repair 
leaks in distribution systems; and identifying more effective 
techniques for inspecting and assessing high risk water mains.
    EPA will be in partnership with internal and external stakeholders, 
including; the Office of Water; EPA's National Homeland Security 
center; water and wastewater utilities; professional organizations, 
and; the research community.
    This new research will seek to reduce the need for new 
infrastructure construction by developing and evaluating innovative 
designs and technologies' to optimize system capacity and extend the 
service life of existing systems; to reduce infrastructure failures and 
their adverse human health, safety, environmental and economic effects 
by improving the capability to inspect, assess, and conduct proactive 
repair and rehabilitation of water and wastewater systems; and to 
improve the effectiveness and durability of systems.
                               __________
      CMAQ Information for the Metropolitan Planning Organizations

    EPA issued a draft version of State Implementation Plan (SIP) and 
conformity retrofit guidance for stakeholder comment in December 2005 
that offered two options for using nonroad retrofit reductions to meet 
transportation conformity requirements. Since then, we have been 
working with representatives from stakeholder organizations (AASHTO, 
AMPO, State and Territorial Air Pollution Program Administrators, and 
environmental organizations) to resolve issues they have raised. As a 
result, we are currently redrafting the guidance to better meet their 
needs. This draft will include a model rule that states could directly 
incorporate as a SIP revision to allow trading of CMAQ-funded nonroad 
retrofit reductions for use in conformity determinations. We are also 
adding detailed information on the steps needed to implement the 
options in the guidance. We plan to have this guidance available, 
following stakeholder review, in late spring of 2006.
                               __________
                            Mercury in Fish

    EPA has looked at the UNC report and the conclusions presented by 
the study authors. EPA has decided to request from the author's 
additional information and data to conduct a more in-depth review of 
the data and their analyses.
    Based on that in-depth review and a consideration of other studies 
that are currently underway (including an EPA/FDA survey of the 
effectiveness of the 2004 advisory and an NAS Institute of Medicine 
report on balancing seafood risks and nutritional benefits), EPA will 
work with FDA to evaluate if there is a need for a change in the 
advisory, or a change in the outreach and communication strategy.
    EPA is continually reviewing the latest science and public health 
policy to determine whether or not changes need to be made to the 
national mercury advisory or the associated public outreach campaign.
                                 ______
                                 
                       Rat Poisoning-Court Order

    In 2001, EPA decided that it would not require bittering agents and 
indicator dyes across the board in all rodenticide products. EPA's 
decision was based, in part, on the recommendations of a broad 
stakeholder workgroup convened to evaluate potential actions to reduce 
rodenticide risks to children, which included representatives from EPA, 
the Centers for Disease Control (CDC), the U.S. Department of 
Agriculture (USDA), State officials, the medical community, public 
interest groups, the pesticide industry, and members of the general 
public. The decision reflected the public health risks posed by rodents 
and significant concerns expressed by the public health community and 
the CDC that requiring all products to contain bittering agents and 
indicator dyes could hinder the effectiveness of rodenticides to 
control rodent populations in certain circumstances. In August 2005, 
the district court issued an order affirming EPA's decision with 
respect to indicator dyes, but reversing the Agency's decision with 
respect to bittering agents and remanding that decision to EPA ``for 
further consideration.'' Following the court's order, and in connection 
with the Agency's ongoing work on rodenticides, EPA has been pursuing 
several mitigation strategies to make rodenticide products safer for 
use around children.
    EPA is evaluating the advantages and disadvantages of the possible 
mitigation approaches, and will consult with its federal partners, 
including the CDC, before issuing its decision. The Agency anticipates 
publishing its mitigation decision, along with an assessment of the 
benefits and impacts of the new safety requirements, for public comment 
during the fall of 2006. EPA's decision will ensure that rodenticide 
products are both effective for controlling rodents and safe for use in 
homes with children. In the interim, EPA is encouraging rodenticide 
manufacturers to voluntarily implement additional safety precautions to 
reduce the potential for a child to be exposed. For example, the Agency 
is encouraging registrants to voluntarily incorporate bittering agents 
into certain formulations where decreasing the risk of exposure is 
important. To date, over half of the rodenticide products currently on 
the market contain a bittering agent.
                               __________
               Job Announcement-Energy Policy Act of 2005

    In January 2006, EPA's Office of Transportation and Air Quality 
issued a brief informal job description to direct potential candidates 
to find more information on EPA's website about an Economist position 
(HQ-OAR-DE-2006-0005). EPA is seeking a qualified economist in order to 
conduct cost-benefit analysis of voluntary greenhouse gas emission 
reduction strategies under the authority of the Clean Air Act, Section 
103(g). The official job qualifications as announced on EPA's website 
specify that the incumbent would: (1) collect, analyze, interpret, and 
publish economic information needed to analyze strategies for reducing 
greenhouse gas emissions and improving air quality from the 
transportation sector; (2) use knowledge of economic principles and 
techniques, applied to conduct economic analysis of transportation 
policy options, using various economic modeling tools to assess the 
costs, benefits, sensitivities, and externalities; (3) analyze and 
interpret the movements of goods, services, labor, and capital 
(particularly the diffusion of greenhouse gas reduction technologies) 
across national borders, using economic modeling tools to represent the 
economic response to greenhouse gas emission reduction policies.
    While the formal announcement for this position did not include a 
requirement for the candidate to be knowledgeable about emissions 
trading, an informal announcement did contain a reference to emissions 
trading. This reference was included in the informal announcement 
because an ideal candidate for this position would be expected to help 
the Office of Transportation and Air Quality as it designs and analyzes 
the trading program for renewable fuels that Congress approved in the 
Energy Policy Act of 2005. Knowledge of emissions trading, particularly 
the acid rain program, has become essential for any air program 
economist due to that program's success. That knowledge will be 
extremely valuable for work on the Renewable Fuel Standard.
                               __________
 A History of EPA's ``Politicized Science'' During the Clinton/Browner 
                                  ERA

    The following statements made in the press during the Clinton 
Presidency:

    1. ``EPA has had to reverse previous policies found to be 
scientifically flawed and to amend statistical `errors' it used to 
argue for new policies. And it has a habit of punishing those who dare 
point out its flaws: Two years ago, six EPA scientists lost their jobs 
after writing a letter to a newspaper saying that EPA regulations 
'stand to harm rather than protect public health and the 
environment.\1\
---------------------------------------------------------------------------
    \1\ Editorial, ``EPA-Clean it up,'' The Cincinnati Inquirer, 12/26/
2000
---------------------------------------------------------------------------
    2. ``Major scientific uncertainties and the political and legal 
constraints of a regulatory agency combine to weaken the scientific 
basis of decisions made by the U.S. Environmental Protection Agency 
(EPA). . .''\2\
---------------------------------------------------------------------------
    \2\ ``Research Gaps, Legalistic Focus Hinder EPA's Use of 
Science,'' Resources for the Future, 8/18/1999
---------------------------------------------------------------------------
    3. ``EPA also should reinstitute and strengthen its internal 
scientific review processes to ensure transparency, account for 
scientific uncertainty, and improve the analytical bases for its policy 
decisions.''\3\
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    4. ``Many of EPA's regulatory programs are unscientific and 
illogical and afford little or no protection to human health or the 
environment. . . They breed well-deserved cynicism about government's 
motives.''\4\
---------------------------------------------------------------------------
    \4\ Henry I. Miller, ``Environmental Protection, In Name Only,'' 
The Scientist, 9/18/2000
---------------------------------------------------------------------------
    5. ``. . .EPA has become too politicized in its actions, too eager 
to pursue narrow political goals, and too willing to ignore 
Congressional intent in making regulatory decisions. Political motives 
rather than workable policies based on sound science and reliable data 
seem to be the driving force behind this EPA.\5\
---------------------------------------------------------------------------
    \5\ Allen James, ``Politics Play a Plum Part in FQPA,'' Pest 
Control, 9/1/2000
---------------------------------------------------------------------------
    6. ``EPA's abuse and misuse of science is no surprise and well 
known to those who follow the agency closely. . . . Its record on 
electric utility NOx emissions, long-range transport, and ozone 
pollution can only be described as shameful.''\6\
---------------------------------------------------------------------------
    \6\ ``Commentary. Political Science at the EPA,'' The Electricity 
Daily, 6/19/2000.
---------------------------------------------------------------------------
    7. ``The National Research Council--the working arm of the National 
Academy of Sciences--last week published its fourth and final 
assessment of the way EPA uses and abuses science. The conclusion was a 
reaffirmation of what a repeated analysis of the agency has found.\7\
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    8. ``At least a dozen former EPA officials who played roles in 
setting pesticide policy now work as industry consultants. The EPA has 
become a farm team for the pesticide lobby,' says Mike Casey of the 
Environmental Working Group, which released a report on the issue.''\8\
---------------------------------------------------------------------------
    \8\ Peter Eisler, ``Toughest decisions still to come in pesticide 
review Congress wanted the rules updated, but politics slowing 
process,'' USA Today, 8/30/1999.
---------------------------------------------------------------------------
    9. ``In a scathing opinion, the court stated, `EPA publicly 
committed to a conclusion before research had begun, adjusted 
scientific procedure and scientific norms to validate the agency's 
public conclusion, and aggressively utilized authority to disseminate 
findings to. . . influence public opinion.''\9\
---------------------------------------------------------------------------
    \9\ J.R. Clark, ``EPA Corrupting Science For Political Purposes,'' 
Chattanooga Free Press, 
10/11/1998.
---------------------------------------------------------------------------
    10. ``Science is as politicized in America as it was in the Soviet 
Union and Nazi Germany. This EPA is a prime example.''\10\
---------------------------------------------------------------------------
    \10\ Charley Reese, ``It's A Shame That Americans Can't Trust Their 
Own Government,'' Orlando Sentinel, 6/30/1998.
---------------------------------------------------------------------------
    11. For years, the Federal Government has known that power plants 
produce mercury. It knows how technology could be used to reduce that 
pollution. The Environmental Protection Agency's efforts to regulate 
the toxic metal have been slowed by industry lobbyists and their allies 
in Congress. . . .\11\
---------------------------------------------------------------------------
    \11\ ``Coal-Fired Power Plants Spew Mercury But Avoid Crackdown,'' 
Portland Press Herald, 
9/29/1997.
---------------------------------------------------------------------------
    12. `` `This is by far the most politicized EPA I've seen in my 
three decades of working in State Governments. . . . It is an agency 
driven more by sound bites than by sound science.' ''\12\
---------------------------------------------------------------------------
    \12\ Pranay Gupte and Bonner R. Cohen, ``Carol Browner, master of 
mission creep,'' Forbes, 
10/20/1997.

    The fact is that Carol Browner, who chaired Environment 2004's 
efforts to oppose President Bush, is alleged to have used, abused and 
politically manipulated science during her tenure as EPA Administrator 
under the Clinton-Gore Administration.
    13. ``In an effort to elevate EPA's scientific profile, in 1989 the 
agency had brought on board former National Institutes of Health deputy 
director William Raub as the senior science advisor. Raub was known to 
be a smart, savvy, and collegial) scientific administrator. 
Nonetheless, the EPA staff proceeded to make his life miserable. From 
the beginning, they ignored him when they could. When they couldn't, 
they sent him drafts of important documents too late for a meaningful 
review-often just days before a court-ordered deadline for an agency 
action. Instead of disciplining those responsible. EPA administrator 
Browner excluded Raub from her inner circle and finally replaced him in 
1995 with a less-threatening lower-level EPA staffer.''\13\
---------------------------------------------------------------------------
    \13\ Henry I. Miller, ``Environmental Protection, In Name Only,'' 
The Scientist, 9/18/2000
---------------------------------------------------------------------------
    14. ``Under mounting pressure from environmental groups to ignore 
the recommendation of the agency's own scientists. Browner last 
December scrapped a science-based standard for chloroform in drinking 
water. In 1998, EPA had proposed raising the Maximum Contaminant Level 
Goal for chloroform in drinking water from zero to 300 parts per 
billion. This recommendation had resulted from a thorough review by EPA 
scientists of toxicological data on human exposure to chloroform going 
back 20 years, and took into account the principle contained in the 
Agency's draft cancer guidelines that there are thresholds below which 
toxins are essentially harmless. The recommendation was to become the 
victim of political sabotage, and the agency instead retained a `zero 
tolerance' rule. In April of this year, however, a Federal court 
rejected EPA's proposed standard, saving that the proposal was 
contradicted by the agency's own review of the ``best available 
science.''\14\
---------------------------------------------------------------------------
    \14\ Ibid.
---------------------------------------------------------------------------
    15. NPR's Bob Edwards: ``A Federal court earlier this year 
overturned an Environmental Protection Agency rule regarding a chemical 
in drinking water. The decision was made after ERA administrator Carol 
Browner declined to follow the findings of the agency's own scientists' 
as to what was safe. She sought a more stringent standard.''\15\
---------------------------------------------------------------------------
    \15\ ``Morning Edition,'' National Public Radio, 6/27/2000
---------------------------------------------------------------------------
    16. ``Here's what the NAS said in its latest review of EPA science, 
in the context of a 1995 report highly critical of EPA's manipulation 
of science in the pursuit of politically correct policy: Throughout 
EPA's history, no official below the level of the administrator has had 
overall responsibility or authority for the scientific and technical 
foundations of agency decisions, and administrators of EPA have 
typically been trained in law, not science.' What the scientists are 
saving here is that the administrator and her top aides have typically 
been political hacks.''\16\
---------------------------------------------------------------------------
    \16\ ``Commentary: Political Science at the EPA,'' The Electricity 
Daily, 6/19/2000
---------------------------------------------------------------------------
    17. ``Apparently, even before its research was completed, the EPA 
had already written its `Workplace Policy Guide' on secondhand smoke. 
But none of the original 11 U.S. studies used in the agency's analysis 
reported a statistically significant increased risk of lung cancer 
using accepted scientific levels of confidence. For convenience, the 
agency not only deviated from standard scientific practice but also 
from its own risk assessment guidelines in carrying out its 
analysis.''\17\
---------------------------------------------------------------------------
    \17\ J.R. Clark, ``EPA Corrupting Science For Political Purposes,'' 
Chattanooga Free Press, 
10/11/1998.
---------------------------------------------------------------------------
    18. ``EPA Administrator Carol Browner--with the enthusiastic 
backing of her patron, Vice President Al Gore--has molded the EPA into 
an instrument of environmental zealotry that knows no legal or ethical 
bounds. Miss Browner's EPA works to silence internal dissent, defy 
Congress, trample on states and localities, and cover up its own 
wrongdoing. The EPA stands out as the most lawless-and ruthless-agency 
in an Administration that specializes in bureaucratic 
aggrandizement.''\18\
---------------------------------------------------------------------------
    \18\ Bonner R. Cohen, ``Polluted Agency,'' National Review, 8/3/
1998.
---------------------------------------------------------------------------
                               __________
     Office of International Affairs: Grants to Foreign Recipients

    EPA policy gives OIA a review and concurrence role on assistance 
awards for work conducted abroad, whether awarded to domestic or 
foreign recipients, prior to forwarding these to the Department of 
State for their review and concurrence. OIA collaborates with Program 
Offices as they implement their media-specific international programs; 
and strongly supports the Agency's efforts, chaired by the Grants 
Administration Division (GAD), to implement grant policies. Those 
Offices also consult with GAD to ensure that all Agency policies are 
followed.
                               __________
          Clean Air Act Provisions-Particulate Matter Standard

    For the final rule on the National Ambient Air Quality Standards 
for Particulate Matter, which will be issued by September 27, 2006, EPA 
will be preparing a final Regulatory Impact Assessment (RIA). As part 
of this RIA, EPA plans to estimate nationwide costs and benefits of 
illustrative implementation strategies to demonstrate how the Nation 
might attain-the proposed standards in 2020, along with costs and 
benefits of partial attainment strategies in 2015. Our benefits 
assessment will include an analysis of the incremental health benefits, 
including mortality avoided, in each of these years across the entire 
Nation.
                               __________
                       Copyright 1997 Forbes Inc.
                                 Forbes
                            October 20, 1997
    SECTION: THE COVER; Pg. 170
    LENGTH: 3532 words
    HEADLINE: Carol Browner, master of mission creep
    BYLINE: By Pranay Gupte and Bonner R. Cohen


                               HIGHLIGHT

    In the Environmental Protection Agency Congress created a monster 
it can no longer control. With a shrewd politician like Carol Browner 
running it, the agency just thumbs its nose at the legislators.

                                  BODY

    AS THE CENTER OF that enormous rent-seeking organization known as 
the federal government, Washington, D.C. has evolved its own 
vocabulary. There is, in bureaucratese, an innocent-sounding but 
insidious phrase: mission creep. Mark it well: Mission creep explains a 
lot about how big government grows and grows and grows.
    Mission creep is to a taxpayer-supported organization what new 
markets are to a business organization. It involves a gradual, 
sometimes authorized, sometimes not, broadening of a bureaucracy's 
original mission. It is a way to accrete money and power beyond what 
Congress originally approved when it funded an agency.
    Playing mission creep is an old game in Washington. But no one has 
ever played the game with more skill than Carol M. Browner, Bill 
Clinton's choice to head the Environmental Protection Agency.
    From a modest beginning a quarter-century ago, the agency has grown 
to employ nearly 20,000 people and control an annual budget of $ 7 
billion. But these numbers are a poor measure of the agency's power: 
Because its regulations have the force of law, the agency can jail 
people, close factories and override the judgments of local 
authorities.
    In its quest for power and money, the agency has imposed many 
unnecessary costs on American industry, and ultimately on the American 
people--costs that do more to satisfy bureaucratic zeal than to clean 
the air or the water.
    The EPA was established in 1970 by an executive order issued by 
President Richard M. Nixon. Rachel Carson, a patron saint of the 
environmental movement, had made a huge impact with her emotional 
tract, Silent Spring, a few years earlier.
    The public was right to be alarmed. Industrialization has imposed 
hidden costs in the form of polluted air, despoiled streams, unsightly 
dumps and a general degradation of the landscape. Concerns about 
pollution could, of course, have been dealt with by existing agencies, 
but that is not the nature of American politics. Politicians must be 
seen to be doing something dramatic. Creating new agencies makes 
favorable waves in the media.
    Nixon created a new agency. Pulled together from a hodgepodge of 
existing federal programs, the EPA never had a congressional charter 
that would have defined its regulatory activities. It was simply given 
the task of carrying out the provisions of what, over time, became 13 
environmental statutes, each with its own peculiarities and 
constituencies.
    Without perhaps fully comprehending the issues, Nixon made the new 
EPA the instrument for a tremendous power grab by the federal 
government. Most environmental problems--chemical spills, groundwater 
contamination, abandoned dump sites--are purely local in nature. But 
suddenly they were federal matters. In the name of a greener, cleaner 
Earth, Washington mightily increased its power to intervene in the 
daily lives of its citizens. It was a goal so worthy that few people 
saw the dangers inherent in it. Mission creep had begun.
    In 1978 then-EPA administrator Douglas Costle cleverly shifted the 
focus of the agency. Henceforth the EPA would protect not just the 
environment but your health. ``Costle became determined to convince the 
public that [the] EPA was first and foremost a public health agency, 
not a guardian of bugs and bunnies,'' wrote Mark K. Landry, Marc J. 
Roberts and Stephen R. Thomas in their book, The Environmental 
Protection Agency: Asking the Wrong Questions from Nixon to Clinton.
    People do care about forests and wildlife, but they care much more 
about themselves and their families. There is a strong strain of 
hypochondria in the American people, and nothing grabs our attention 
faster than an alleged threat to our health. If the alleged threat 
involves cancer, it is almost guaranteed to make the six o'clock news. 
Costle shrewdly exploited cancer phobia to expand his agency's reach 
and to wring money from Congress. He launched the EPA on a cancer hunt, 
looking for carcinogens in foods and air and water, even in the showers 
we take.
    Carcinogens, of course, abound in nature, ordinary sunlight being 
one of the most prevalent. So it is with many man-made substances. The 
exposure to background levels of these carcinogens is so minimal in 
most cases as to pose no serious threat in the overwhelming majority of 
cases. Never mind: EPA scientists, following the agency's cancer-risk 
guidelines, were soon ignoring the age-old admonition that the ``dose 
makes the poison.'' If it was man-made and carried carcinogens, the EPA 
would root it out. As one EPA scientist explained it to FORBES: ``At 
EPA, we're not paid not to find risks.''
    Under the mantra of ``one fiber can kill,'' the EPA in the 1980s 
mounted a costly and probably self-defeating nationwide effort to rip 
asbestos out of schools. Simply sealing the substance would have kept 
the fibers away from kids at a fraction of the cost. But it would not 
have yielded the same harvest in headlines.
    Even more than her predecessors--and possessing much greater 
resources--Carol Browner presents herself as the great family 
physician. ``There isn't a decision I make on any given day that's not 
related to the health of the American people,'' she tells FORBES. 
Browner, it's worth noting, is a lawyer with no medical training.
    After all, she reminds us, she's the mom of a young boy. Attendees 
of Capitol Hill hearings snicker at her constant references to her son, 
Zachary, when she testifies on environmental issues. But she never 
misses a chance to repeat the message. ``If we can focus on protecting 
the children. . . we will be protecting the population at large, which 
is obviously our job,'' she tells FORBES
    Who said that was her job? Nobody, but that's what mission creep is 
all about.
    Last September Browner announced the release of a new EPA report 
setting forth a broad national agenda to protect children from 
environmental risks. She followed up the report with the creation 
earlier this year of the Office of Children's Health Protection at EPA.
    There was no congressional mandate, but Congress meekly went along 
by failing to challenge the agency's justification of the program. Who 
would want to face reelection accused of being callous toward children? 
Especially when the EPA's kept researchers stand by ready to produce 
scare studies on EPA money (see box, p. 172).
    Where most agency chiefs tremble at criticism from Congress, 
Browner has a platform from which she can counterattack. An EPA-funded 
newsletter was recently distributed by the National Parents Teachers 
Association. At the time an internal EPA memo noted: ``The PTA could 
become a major ally for the Agency in preventing Congress from slashing 
our budget.'' Thus does Browner's EPA use taxpayer money to fight 
efforts to trim the Federal budget.
    On Mar. 15, 1995 David Lewis, an EPA scientist attached to the 
agency's laboratory in Athens, GA., was told by his supervisor that EPA 
employees with connections to members of Congress should use their 
influence to sway lawmakers against a bill proposed by Representative 
Clifford Stearns (R-Fla.)--if it could be done ``without getting into 
trouble.'' Stearns' bill would have reduced funding for EPA. The 
scientist later said in a deposition: ``We were being asked to do this 
during government business hours, and the purpose was to protect EPA 
funding levels.'' This request on the part of high-level EPA officials 
to lobby Congress on government time is under investigation by the 
House Government Reform and Oversight Committee.
    Had this been a Republican administration and had the department 
involved been other than the EPA, one can imagine the outcry in the 
media.
    Asked about the growing criticism of her tactics, Browner blatantly 
ducks the question with: ``This isn't about me. It never has been about 
me. It's about the air being cleaner. Is the water going to be safer? 
It's about business going to be able to find a better solution to our 
environmental problems.''
    It's really about politics. When supportive lawmakers ask to borrow 
EPA experts for their staffs, the EPA hastens to comply. Requests from 
liberal Democrats almost always are filled, those from Republicans 
rarely. A request by Representative Richard Pombo (R-Calif.) for an EPA 
detailee was rejected on Jan. 2, 1997 on the grounds that ``new 
procedures'' were being written. Less than four weeks later (Jan. 28), 
a similar request from liberal Democrat Representative Charles Rangel 
of New York was approved, without reference to any ``new procedures.''
    Since 1995 her office has approved all requests for employee 
details to four Democratic lawmakers--Senator Frank Lautenberg (D-
N.J.), Senator John Kerry (D-Mass.), Senator Daniel Patrick Moynihan 
(D-N.Y.) and Rangel. Of the four GOP requests, three were rejected.
    Browner was at her politically impressive best in this summer's 
debate over the EPA's tougher clean air standards. Because air quality 
levels have improved markedly since passage of the Clean Air Act 
amendments of 1990, it was widely hoped--especially in areas that badly 
need new jobs--that the standards would not be further tightened. The 
EPA's own data showed that levels of the particulates have dropped 
dramatically over the past decade. Many local governments, anxious for 
jobs and economic development, were looking forward to being removed 
from the list of so-called nonattainment areas for ozone and 
particulate matter, or PM.
    In July the EPA finalized new tighter standards for ozone and PM. 
For communities that had made expensive efforts to comply with the 
current law, the higher standards were like a baseball player, having 
rounded third base and heading toward home, being told he had to circle 
the bases again to score.
    A good many congress people were outraged. Browner's insistence on 
imposing the new standards in the face of nothing more than scanty 
scientific evidence unleashed howls of protest from elected officials 
in the affected communities.
    Legally, Browner was probably in the right. In its haste to seem to 
be attending to the environment, Congress failed to exert control over 
EPA standards and regulations.
    There was nonetheless quite a donnybrook, with veteran Democrat 
John Dingell of Michigan leading the charge against Browner. A lot of 
jobs were at stake in Michigan, still headquarters of the U.S. auto 
industry. Congress, he insisted, should be consulted. Dingell was not 
alone.
    With lots of support from Vice President Al Gore's office, Browner 
went to work putting down the congressional revolt. Her testimony 
before Congress was, by general agreement, brilliant, though her facts 
were often shaky.
    Until then, Bill Clinton had remained on the sidelines. But Browner 
maneuvered the President into a corner, where he faced the politically 
embarrassing choice of supporting her controversial initiatives or 
disavowing his outspoken EPA administrator. Clinton then got to the 
head of the parade by declaring his support for Browner. The game was 
over. Browner 1, Congress 0.
    If EPA's new standards survive congressional and legal challenges, 
state and local governments will have to devise elaborate State 
Implementation Plans, or SIPs, detailing their strategies for complying 
with the agency's latest regulatory diktat. And in accordance with the 
Clean Air Act, it will be up to the EPA to approve or disapprove the 
SIPs. The estimated cost of compliance with the new standards for the 
Chicago area alone is projected to be between $3 billion and $7 
billion.
    ``I wish we never had that fight with Congress,'' she tells FORBES. 
``I wish it could have been avoided. I think it came at great expense 
to the country. I think it was very unfortunate.'' Note the 
implication: The way it could have been avoided was for Congress to 
avoid challenging her.
    You can admire Browner's skill and still be appalled by what she is 
doing. ``This is by far the most politicized EPA I've seen in my three 
decades of working in state governments,'' says Russell J. Harding, 
director of Michigan's Department of Environmental Quality. ``It is an 
agency driven more by sound bites than by sound science.''
    Says Barry McBee, chairman of the Texas Natural Resource 
Conservation Commission: ``EPA continues to embody an outdated attitude 
that Washington knows best, that only Washington has the capability to 
protect our environment. States are closer to the people they protect 
and closer to the resources and can do a better job today.''
    As a weapon to humble the state regulatory bodies, Carol Browner's 
EPA has embraced the politically correct concept of ``environmental 
justice.'' This broadens EPA's mandates even beyond protection of 
everyone's health.
    In early 1993 Browner set up the Office of Environmental Justice 
within EPA which, among other things, passes out taxpayer-funded grants 
for studying the effects of industrial pollutants on poorer, mostly 
black, communities. In 1994 the White House supported this initiative 
by ordering Federal Agencies to consider the health and environmental 
effects of their decisions on minority and low-income communities.
    That's the rhetoric. The reality is that the Federal Agencies have 
a new weapon for overruling state agencies. Browner's EPA recently 
delayed the approval of a $700 million polyvinyl chloride plant to be 
built by Japanese-owned Shintech in the predominantly black southern 
Louisiana town of Convent. Louisiana's Department of Environmental 
Quality had already given the go-ahead; the plant would have created 
good-paying jobs and opportunities in an area suffering from 60 percent 
unemployment and low incomes. But the EPA argued that blacks would 
suffer disproportionately from potentially cancer-causing emissions of 
the plant in an area already lined with chemical factories of all 
descriptions.
    Louisiana Economic Development Director Kevin Reilly was enraged. 
``It is demeaning and despicable for these people to play the race 
card,'' he says, pointing out that poor people and blacks would have 
gained economically and were at little health risk. The scientific 
evidence bears Reilly out: A recent article in the Journal of the 
Louisiana Medical Society found that cancer incidence in the area is in 
most cases no higher than nationally.
    But never mind the facts: This kind of decision has less to do with 
science than with power politics. It delivers the message: Don't mess 
with the EPA. ``Carol Browner is the best hardball player in the 
Clinton Administration,'' says Steven J. Milloy, executive director of 
The Advancement of Sound Science Coaliation in Washington, a longtime 
critic of EPA who acknowledges receiving funding from industry. ``She 
has the 105th Congress completely intimidated by her debating skills 
and her sheer grasp of facts, however questionable. She eats their 
lunch.''
    Like many Clintonites, Browner takes her own good time about 
responding to congressional requests for EPA documents. When word got 
out that EPA was developing a series of proposals for reducing U.S. 
emissions of man-made greenhouse gases, the House Commerce Committee 
asked for a copy. The EPA ignored the request for two years.
    When the proposals were leaked to the committee late last year, it 
was immediately clear why EPA had stiffed Congress. The document was 
loaded with proposals for raising taxes to pay for new EPA initiatives. 
Produced in the agency's Office of Policy, Planning & Evaluation and 
dated May 31, 1994, EPA's ``Climate Change Action'' recommends a new 
50-cent-per-gallon gasoline tax, with an estimated cost to motorists of 
$47 billion in the year 2000 alone. Seven other tax increases were 
recommended: a ``greenhouse gas tax,'' a ``carbon tax,'' a ``BTU tax,'' 
an ``at-the-source ad-valorem tax'' on the value of the fuel at the 
source of extraction, an ``end-use ad valorem tax'' on the value of the 
fuel at the point of sale, a ``motor fuels tax'' on the retail price of 
gasoline and diesel, an ``oil import fee.'' Also recommended: A new 
federal fee on vehicle emissions tests of $40 per person to ``shift the 
cost of vehicle inspection from the state to the vehicle owner.''
    How could they hope to get so many new taxes through a tax-shy 
Congress? The ``Climate Change Action Plan'' contains repeated 
references to how each of the above taxes and fees can be imposed under 
existing laws. Talk about taxation without representation.
    It's not entirely surprising that Browner and her crew think in 
terms of government-by-edict. Browner's extraordinary power is in many 
ways a consequence of Congress' delegation of its lawmaking power to 
the EPA. It has let the agency micromanage environmental activities 
throughout the nation with little regard for either local wishes or the 
cost. This negligence has permitted the agency to ignore scientific 
data that conflict with agency orthodoxy. The EPA is in many ways 
becoming a state within the state.
    ``This is Washington at its worst--out-of-touch bureaucrats 
churning out red tape with reckless abandon. The EPA hasn't taken into 
account an ounce of reality,'' says Representative Fred Upton (R-
Mich.), a frequent critic, referring to the new clean air rules.
    If science isn't Browner's strong point, political tactics are. Her 
enemies can only envy the way the EPA uses the courts. An organization 
such as the Natural Resources Defense Council will go into federal 
court and sue to force the EPA to do something. The EPA will wink and, 
after the courts expand its mandate, see to it that big legal fees go 
to the NRDC.
    Mission creep, in short, takes many forms and its practitioners 
have many ways to plunder the public purse.
    For her part. Browner often dismisses as simple male chauvinism any 
criticism of her hardball tactics. ``I think sometimes that it's an 
issue of men and women,'' she says, coyly.
    Such cute demagoguery aside, there is no doubting Browner's 
sincerity. She is an environmentalist zealot. She was clearly behind 
the decision to tighten the clean air standards to what many people 
regard as unreasonable levels. If not a tree-hugger she is 
philosophically close to Al Gore and his quasi-religious 
environmentalism.
    After graduating from University of Florida law school, Browner 
(both of whose parents were college teachers) went to work for a Ralph 
Nader-affiliated consumer advocate group. There she met her husband, 
Michael Podhorzer, who still works there.
    She learned politics working on Gore's Senate staff, where she rose 
to be his legislative director before heading back to Florida to head 
the state environmental commission.
    After the EPA, what's next for this tough and aggressive 
politician? If Al Gore's presidential hopes aren't dashed by the fund-
raising scandals, there's a vice presidential slot on the Democratic 
ticket up for grabs in 2000. A female environmentalist and mother of a 
young boy would do a lot to bolster Gore's otherwise soggy appeal.
    In a statement to FORBES, Gore went so far as to try to claim for 
Browner some of the credit for the current economic prosperity. ``She 
has helped prove,'' he declares, ``that a healthy environment and a 
strong economy are inextricably linked.''
    If not a vice presidential run, what? Could Browner be nominated by 
the Clinton Administration to be the next head of the United Nations' 
environment program? Or would the Administration nominate her as the 
new U.N. Deputy Secretary General? Either position would give Browner 
instant international visibility, which couldn't hurt her political 
prospects in Washington.
    One way or another, you are going to be hearing a lot more about 
Carol M. Browner; whenever you do, it's unlikely to be good news for 
business--and it may not even be good news for the environment.

                       DEEP ROOTS, DEEPER POCKETS

    The Environmental Protection Agency often subsidizes scientists and 
environmental groups that back the agency's policies.

                          NEW YORK UNIVERSITY

    George Thurston, professor of environmental medicine, gets three-
year, $383,000 grant from EPA to study ``acidic particulate matter.'' 
Tells New York Times ``tens of thousands of hospital visits and 
premature deaths could be prevented by more stringent air quality 
standards.'' Says grants do not influence his research.

                    HARVARD SCHOOL OF PUBLIC HEALTH

    Joel Schwartz, epidemiologist, in the Wall Street Journal, attacks 
the National Association of Manufacturers. Fails to reveal he got 
three-year, $196,000 EPA grant to study effects of pollution on 
children or that the School of Public Health received $3 million in EPA 
grants in 1996.

                 THE NATURAL RESOURCES DEFENSE COUNCIL

    It received more than $1 million from the EPA in 1995. In a curious 
move, the EPA paid $150,000 in NRDC legal bills for lawsuits that the 
NRDC brought against the EPA. The suits result in the EPA's mandate on 
clean air issues and regulatory authority being expanded.

                       AMERICAN LUNG ASSOCIATION

    Cited by the EPA as independent source during agency efforts to 
toughen pollution standards, the ALA received more than $4 million in 
grants between 1990 and 1994; in 1995 EPA granted nearly $1 million 
more. The ALA once sued EPA to issue new rules on pollution; later, EPA 
financed ALA air-pollution studies

[GRAPHIC] [TIFF OMITTED] T2270.001

[GRAPHIC] [TIFF OMITTED] T2270.002

[GRAPHIC] [TIFF OMITTED] T2270.003

[GRAPHIC] [TIFF OMITTED] T2270.004

[GRAPHIC] [TIFF OMITTED] T2270.005

  

                                  <all>

</pre></body></html>
